<html>
<title> - DESALINATION WATER SUPPLY SHORTAGE PREVENTION ACT AND WATER SUPPLY TECHNOLOGY PROGRAM ACT</title>
<body><pre>[Senate Hearing 109-314]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-314

  DESALINATION WATER SUPPLY SHORTAGE PREVENTION ACT AND WATER SUPPLY 
                         TECHNOLOGY PROGRAM ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1016

A BILL TO DIRECT THE SECRETARY OF ENERGY TO MAKE INCENTIVE PAYMENTS TO 
    THE OWNERS OR OPERATORS OF QUALIFIED DESALINATION FACILITIES TO 
PARTIALLY OFFSET THE COST OF ELECTRICAL ENERGY REQUIRED TO OPERATE THE 
                   FACILITIES, AND FOR OTHER PURPOSES

                                S. 1860

    A BILL TO AMEND THE ENERGY POLICY ACT OF 2005 TO IMPROVE ENERGY 
 PRODUCTION AND REDUCE ENERGY DEMAND THROUGH IMPROVED USE OF RECLAIMED 
                     WATERS, AND FOR OTHER PURPOSES

                               __________

                            OCTOBER 20, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                 U.S. GOVERNMENT PRINTING OFFICE
26-509 PDF            WASHINGTON : 2006

______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel
                          Nate Gentry, Counsel
                    Mike Connor, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     2
Archuleta, Edmund, General Manager, El Paso Water Utilities, on 
  behalf of WateReuse, El Paso, TX...............................    42
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Craig, Hon. Larry E., U.S. Senator from Idaho....................    32
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Faulkner, Douglas L., Acting Assistant Secretary for Energy 
  Efficiency and Renewable Energy, Department of Energy..........     3
Long, Dr. Jane C.S., Associate Director, Energy and Environment 
  Directorate, Lawrence Livermore National Laboratory, Livermore, 
  CA.............................................................    13
Martinez, Hon. Mel, U.S. Senator from Florida....................    33
Parekh, Pankaj, Ph.D., Director of Drinking Water Quality 
  Compliance, Los Angeles Department of Water and Power, Los 
  Angeles, CA....................................................    46
Reynolds, Jim, Executive Director, Florida Keys Aqueduct 
  Authority, Key West, FL........................................    39
Roberto, Dr. James B., Deputy Director for Science and 
  Technology, Oak Ridge National Laboratory, Oak Ridge, TN.......    21
Sabol, Colin, Chief Marketing Officer, GE Infrastructure Water & 
  Process Technologies, Trevose, PA..............................    51
Shephard, Dr. Les, Vice President for Energy, Resources and 
  Nonproliferation, Sandia National Laboratories, Albuquerque, NM     7

                                APPENDIX

Responses to additional questions................................    61

 
  DESALINATION WATER SUPPLY SHORTAGE PREVENTION ACT AND WATER SUPPLY 
                         TECHNOLOGY PROGRAM ACT

                              ----------                              


                       THURSDAY, OCTOBER 20, 2005

                                       U.S. Senate,
                   Committee on Energy & Natural Resources,
                                                    Washington D.C.
    The committee met, pursuant to notice, at 2:25 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Pete V. Domenici, 
chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Senator Bingaman is en route and we've kind 
of got a little confusion going, because they've been telling 
us we're going to have a vote, and we're trying to figure out 
how we'll get the most time in here. So as soon as he arrives, 
he will give his opening statement, wherever we are.
    But I'm going to open the meeting, I don't think he will 
mind. First let's start with panel No. 1. Mr. Faulkner, Acting 
Assistant Secretary, Principal Deputy Assistant, Office of 
Energy Efficiency, Renewable Energy, U.S. Department of Energy; 
Dr. Jane Long, Associate Director, Environment and Energy, 
Lawrence Livermore; Dr. Les Shephard, Vice President of Energy 
and Infrastructure Assurance at Sandia National Laboratory, 
Albuquerque; and Dr. James Roberto, Deputy Lab Director, 
Science and Technology, National Laboratory of Oak Ridge. Thank 
you all for being here.
    I have some brief opening remarks, and like I said, 
wherever we are when the Senator arrives, we'll interrupt and 
let him make his opening statement. Once again, as usual on 
these matters relating to water issues, it's a pleasure to 
welcome experts that help us in this regard, and help us think 
through this process. We're going to be talking about S. 1016, 
the Desalination Water Supply Shortage Prevention Act, 
introduced by Senator Martinez, and S. 1860, the Energy and 
Water Technology Research, Development and Transfer Program Act 
of 2005, a bill I introduced and co-sponsored by Senator 
Bingaman, Majority Leader Frist, Senator Alexander, and Senator 
Feinstein.
    Water scarcity and declining water quality are obviously 
critical in our country and throughout the world. As the 
world's population grows and stores of fresh water are 
depleted, finding additional sources of fresh water is critical 
not only to meeting our national needs and ensuring that for 
our people, but also to move in the direction of peace and 
domestic tranquility abroad.
    Widespread water shortages are expected here at home. A GAO 
report, which we had recently, states that thirty-six States 
anticipate some kind of shortage in the next 10 years. While 
we've had long periods of time where we've dealt with these 
issues of shortages, that is, at least in our Western States, 
the available supplies on the east coast have also been 
stretched thin, and many don't even know in many parts of the 
country that there is a pending water problem.
    That's probably why we don't do more about it, because it's 
not quite to the surface yet. In any event, without significant 
technological advancement that allows us to better utilize, 
conserve, and produce additional water in a cost-efficient 
manner, it is unclear how we're going to meet the needs.
    Ensuring that the supply is also available to the United 
States, which we know is critical, we have this bill before us, 
which we believe that if we could pass it and implement it, it 
would do a lot of positive things toward America's future 
energy problems.
    I have some additional remarks explaining the bill itself, 
but we'll get those throughout the afternoon with the debate, 
discussions and questions. So I'd like to welcome our witnesses 
again, I've introduced you, and now Senator Bingaman has 
arrived, and we'll leave it up to him, if he wants to open now, 
or let them start, or whatever. Would you like to make your 
remarks?
    [The prepared statement of Senator Alexander follows:]
Prepared Statement of Hon. Lamar Alexander, U.S. Senator From Tennessee
    First, I want to thank Chairman Domenici for identifying and 
addressing this important issue. I'm honored to join him in co-
sponsoring the Energy-Water Efficiency Technology Research, Development 
and Transfer Program Act of 2005 along with Majority Leader Frist and 
others.
    I also want to thank the witnesses for coming today and in 
particular, Dr. Jim Roberto, the Deputy Director for Science and 
Technology at the Oak Ridge National Laboratory in my home state of 
Tennessee. Dr. Roberto has been instrumental in bringing to fruition a 
number of multi-lab initiatives not unlike the one being discussed here 
today. The DOE National Laboratory system has demonstrated its ability 
to address national challenges like this, but is underutilized to this 
point on water-related R&D. The most recent successes at ORNL are 
successful construction of the Spallation Neutron Source (SNS) and the 
Center for Nanophase Materials Science, where ORNL has demonstrated its 
ability to use federal investments effectively to accomplish national 
priorities, and it has done this by teamwork with other Labs, 
universities, and other federal agencies. It is time to put these same 
skills to work on energy and water problems.
    Providing reliable energy and clean water are absolutely critical 
to the economic stability and health of our country. And they are 
increasingly linked to one another. There will be important positive 
interactions between the Energy-Water advancements discussed here and 
progress on other important fronts such as clean air. The low-emission 
power sources of the future, including nuclear and Clean Coal, do have 
high water demands for cooling and emission control. Technologies that 
reduce water demand in the energy sector will therefore make 
development of clean energy easier.
    New technologies to improve water-use in the energy sector, reduce 
energy demand in the water sector, and provide new, cost-effective 
sources of clean water will benefit both U.S. and other countries. The 
needs are clear and the stakes are high; the only question is whether 
we will step up to fill them. This legislation will provide the 
investment and commitment to ensure success. Thank you again, Mr. 
Chairman for shining a light on this topic today. I look forward to 
working with you to bring this program to fruition.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. I'll make about 30 seconds worth of 
remarks, Mr. Chairman. Thank you very much for having the 
hearing. Dr. Les Shephard is here, I believe from New Mexico. 
Thank you very much. From Sandia, Ed Archuleta is here from El 
Paso, I understand. He's in the back, he's in the second panel, 
I gather.
    I do think this issue that you've identified for the 
hearing is extremely important. Just as in the case of oil and 
gas, and the other issues we deal with in this committee, water 
is a commodity where demand exceeds the renewable supplies, at 
least in our part of the country. And water quality is also a 
very major issue that we have very major challenges on in a lot 
of our communities.
    I think trying to figure out what can be done to meet those 
challenges to help local communities meet those challenges is 
very valuable. I'm cosponsoring the legislation that you've 
introduced, Mr. Chairman, and I hope this hearing gives us a 
good record with which to move ahead with that legislation. 
Thank you.
    The Chairman. Thank you, Senator. I might indicate for the 
Senator and for the record that the chairman of the counterpart 
committee in the House has introduced a similar bill, so that 
gives us a little bit of an opportunity to see a little bit of 
sunlight that might otherwise be overshadowed and take a much 
longer time to get itself up and get some visibility. With 
that, we're going to start with Mr. Faulkner and go to Dr. 
Shephard, and go right along. So would you proceed please, Mr. 
Faulkner.

 STATEMENT OF DOUGLAS L. FAULKNER, ACTING ASSISTANT SECRETARY 
              FOR ENERGY EFFICIENCY AND RENEWABLE 
                  ENERGY, DEPARTMENT OF ENERGY

    Mr. Faulkner. Mr. Chairman and members of the committee, I 
appreciate the opportunity to testify today on S. 1016. 
Although supplying and distributing water is largely a local 
responsibility, we believe there is a Federal role in providing 
appropriate scientific and technological support for these 
efforts.
    S. 1016, however, poses a narrower question: Should the 
Department of Energy subsidize electricity costs at 
desalination facilities? We believe the answer is no. While 
well intended, S. 1016 is not a comprehensive approach to the 
challenge we face. It would subsidize a narrow group of 
electricity users engaged in water desalination efforts, and 
could divert limited Federal funding from efforts to engage in 
a more comprehensive approach.
    It is our view that incentive payments are not the best 
means to remove the energy cost barriers to desalinating water. 
Instead, we feel continued targeted Federal support for 
desalination research and development, as well as the 
implementation of comprehensive energy legislation, will have a 
longer impact in the long-run on reducing desalination costs. 
The Department of Energy finds S. 1860 to be well intentioned, 
as it shares our view that we must develop innovative new 
approaches to dealing with the regional, national, and global 
challenges related to water availability and quality.
    However, we have several concerns regarding the specific 
language of this bill. First, the bill appears to shift 
substantial statutory authority from the Secretary of Energy to 
the designated national laboratories and places the lead labs 
in inappropriate roles for assessing Federal funding and 
activities across agencies.
    We are also concerned that the bill appears to leave out 
the private sector and its key role in research and 
commercialization. The bill places as much as two-thirds of the 
funding at the lead labs, largely outside of any merit-based 
competitive process and it does so with little flexibility, not 
recognizing that the allocation of funding will vary with the 
status of technology and commercialization, and private sector 
roles. We believe that the funding levels, roles and 
responsibilities of our labs, universities, and private sector 
should be determined by the Secretary of Energy.
    The many and complex challenges related to water 
availability and quality are commanding significant attention 
at the highest levels of the administration. For example, a 
year ago, the White House Office of Science and Technology 
Policy and Office of Management and Budget identified water as 
a top administration R&D priority. This led to the formation of 
a new interagency group, which is now developing a 
comprehensive research plan.
    The Water Desalination Act of 1996 gave lead responsibility 
to the Department of the Interior to conduct, encourage, and 
assist in the financing of research to develop cost-effective 
and efficient means for converting saline water into potable 
water. We are looking at ways to better coordinate our efforts 
with Interior through the interagency process.
    The Department has been in serious discussions with some of 
our labs about the energy-water nexus. The relationship between 
energy and water is not well understood by the public, 
surprising many, for example, that the amount of fresh water 
withdrawn nationally for electricity production is more than 
twice as much as the water used for residential, commercial, 
and industrial purposes combined.
    Price and regulatory signals can create market incentives 
to reduce water use and remove some of the demand pressure from 
regional water supplies. Innovative technologies and processes 
can help to accomplish that, too.
    One area of consideration is the water-intensive process of 
thermoelectric generation from fossil fuels such as coal. My 
own Office of Energy Efficiency and Renewable Energy is 
supporting R&D for innovative wind and solar electricity supply 
technologies, that may prove beneficial to the desalination 
industry and place no further demand on water supplies for 
their operation.
    These and other technological advances can also help hone 
the competitive edge for U.S. exporters in overseas markets 
thirsty for fresh water.
    Mr. Chairman, this completes my prepared statement, and I 
am happy to answer any questions the Committee may have.
    [The prepared statement of Mr. Faulkner follows:]
 Prepared Statement of Douglas L. Faulkner, Acting Assistant Secretary 
    for Energy Efficiency and Renewable Energy, Department of Energy
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to testify today on S. 1016, requiring the Secretary of 
Energy to make incentive payments to the owners of qualified 
desalination facilities to partially offset the cost of electrical 
energy required to operate facilities, and S. 1860, which would amend 
the Energy Policy Act of 2005 to improve energy production and reduce 
energy demand through improved use of reclaimed waters and other 
purposes.
    Although supplying and distributing water is largely a local 
responsibility, we believe there is a Federal role in providing 
appropriate scientific and technological support for these efforts. S. 
1016, however, poses a narrower question: Should the Department of 
Energy subsidize electricity costs at desalination facilities? We 
believe the answer is no.
    While well intended, S. 1016 is not a comprehensive approach to the 
challenge we face. It would subsidize a narrow group of electricity 
users engaged in water desalination efforts, and could divert limited 
Federal funding from efforts to engage in a more comprehensive 
approach.
    It is our view that incentive payments are not the best means to 
remove the energy cost barriers to desalinating water. Instead, we feel 
continued targeted Federal support for desalination research and 
development consistent with the Administration's Research and 
Development Investment Criteria, as well as our ongoing efforts to 
reduce energy demand and increase supply through the adoption of 
comprehensive energy legislation, will have a larger impact in the 
long-run on reducing desalination costs than will making incentive 
payments to the owners or operators of individual facilities.
    The Department of Energy finds S. 1860 to be well intentioned as it 
shares our view that we must develop innovative new approaches to 
dealing with the regional, national, and global challenges related to 
water availability and quality. However, we have several concerns 
regarding the specific language of this bill.
    First, the bill appears to shift substantial statutory authority 
from the Secretary to the designated National Labs and places the lead 
National Labs in inappropriate roles for assessing Federal funding and 
activities across agencies. We are also concerned that the bill appears 
to leave out the private sector and its key role in RD&D and 
commercialization.
    The bill places as much as two-thirds of the funding at the lead 
National Labs, largely outside of any merit-based competitive process 
and it does so with little flexibility, not recognizing that the 
allocation of funding will vary with the status of technology RD&D and 
commercialization, and private sector roles. We believe that the 
funding levels, roles and responsibilities for the Labs, Universities, 
and private sector should be determined by the Secretary in order to 
meet the national needs identified by the legislation.
    We share the view that we must develop innovative new approaches to 
dealing with the regional, national, and global challenges related to 
water availability and quality, and this is an issue that is commanding 
significant attention at the highest levels of the Administration.
    For example, in August 2004 the White House Office of Science and 
Technology Policy (OSTP) and Office of Management and Budget (OMB) 
identified water as a top Administration research and development 
priority and called upon the National Science and Technology Council 
(NSTC) to ``develop a coordinated, multi-year plan to improve research 
to understand the processes that control water availability and 
quality, and to collect and make available the data needed to ensure an 
adequate water supply for the Nation's future.'' The NSTC Committee on 
Environment and Natural Resources has formed a Subcommittee on Water 
Availability and Quality (SWAM) comprised of more than 15 Federal 
Departments and Agencies who are now in the process of developing a 
comprehensive research plan. Their first report, ``Science and 
Technology to Support Fresh Water Availability in the United States,'' 
was released in November, 2004. Among the points highlighted by this 
report are the following:

  <bullet> We do not have an adequate understanding of water 
        availability at national, regional, or local levels.
  <bullet> Water, once considered a ubiquitous resource, is now scarce 
        in some parts of the country--and not just in the West as one 
        might assume.
  <bullet> The amounts of water needed to maintain our natural 
        environmental resources are not well known.
  <bullet> We need to evaluate alternatives to use water more 
        efficiently, including technologies for conservation and supply 
        enhancement such as water reuse and recycling as a way to make 
        more water available.
  <bullet> We need improved tools to predict the future of our water 
        resources to enable us to better plan for the more efficient 
        operation of our water infrastructure.

    The Water Desalination Act of 1996 (Public Law 104-298) gave lead 
responsibility to the Department of the Interior to conduct, encourage, 
and assist in the financing of research to develop cost-effective and 
efficient means for converting saline water into potable water suitable 
for beneficial uses. We are looking at ways to better coordinate our 
efforts with those of the Department of the Interior and other agencies 
through the process underway in the NTSC's Subcommittee on Water 
Availability and Quality.
    At the Department of Energy, we have been in serious discussions 
with some of our labs on what we call the ``energy-water nexus.'' The 
relationship between energy and water is not well understood by the 
public, and it is surprising to many, for instance, that the amount of 
fresh water withdrawn nationally for electricity production is more 
than twice as much as the water used for residential, commercial, and 
industrial purposes, and is comparable to the amount of water used for 
agricultural irrigation. Meanwhile, pumping, storing, and treating 
water consumes huge amounts of electricity--an estimated 7 percent of 
California's electricity consumption is used just to pump water.
    We understand that our energy and water supplies are 
interconnected. In fact, as much energy is used for water and 
wastewater purposes as for other major industrial sectors of the U.S. 
economy such as paper and pulp and petroleum refining.
    Price and regulatory signals can create market incentives to reduce 
water use. One area for consideration is the water intensive process of 
thermoelectric generation from fossil fuels such as coal. For these 
systems, an average of 25 gallons of water is withdrawn to produce a 
kilowatt hour (kWh) of electricity of which nearly one-half gallon is 
consumed by evaporation. Overall, fossil-fuel-fired power plants 
require withdrawals of more than 97 billion gallons of fresh water each 
day.
    The Department's Office of Fossil Energy is supporting several 
research projects aimed at reducing the amount of fresh water needed by 
power plants and to minimize potential impacts of plant operations on 
water quality. One project at West Virginia University is assessing the 
feasibility of using underground coal mine water as a source of cooling 
water for power plants. A North Dakota project is attempting to reduce 
the water consumption of power plants by recovering a large fraction of 
the water present in the plant flue gas. A project in New Mexico is 
exploring whether produced waters, the by-product of natural gas and 
oil extraction which often present a disposal issue, can be used to 
meet up to 25 percent of the cooling water needed at the San Juan 
Generating Station, as well as investigating an advanced wet-dry hybrid 
cooling system. In addition, the Department currently has a competitive 
solicitation on the street seeking additional innovative technologies 
and concepts for reducing the amount of fresh water needed to operate 
fossil-based thermoelectric power stations, including advanced cooling 
and water recovery technologies. The Department is also investigating 
whether a suite of specially selected, salt-tolerant agricultural crops 
or other plants can be used to remove sodium and other salts from 
coalbed methane produced water so that it can be safely discharged or 
used in agriculture.
    One promising new approach to electricity generation, Integrated 
Gasification Combined Cycle (IGCC) technology that converts coal and 
other hydrocarbons into synthetic gas, offers significant environmental 
and water benefits compared to traditional pulverized coal power 
plants. Because the steam cycle of IGCC plants typically produces less 
than 50 percent of the power output, IGCC plants require 30 to 60 
percent less water than conventional coal-fired power plants. The 
Department is supporting research, development, and demonstration on a 
number of advancements that will significantly drive down the costs of 
IGCC plants.
    The Fossil Energy office is also supporting work at the University 
of Florida investigating an innovative diffusion-driven desalination 
process that would allow a power plant that uses saline water for 
cooling to become a net producer of fresh water. Hot water from the 
condenser provides the thermal energy to drive the desalination 
process. Using a diffusion tower, saline water cools and condenses the 
low pressure steam and fresh water is then stripped from the humidified 
air exiting the tower. This process is more advantageous than 
conventional desalination technology in that it may be driven by waste 
heat with very low thermodynamic availability. In addition, cool air, a 
by-product of this process, can be used to cool nearby buildings.
    The Department's Office of Energy Efficiency and Renewable Energy 
(EERE) is supporting R&D for innovative wind and solar electricity 
supply technologies that have attributes that may prove to be very 
beneficial to the desalination industry.
    For example, wind power is now becoming a competitive, clean, bulk 
electric power supply option in many areas of the Nation, and places no 
further demand on water supplies for its operation. In addition, 
excellent offshore wind resources are available near many coastal areas 
facing water supply challenges. The role that wind could play in 
powering desalination could take a range of forms, from stand-alone 
systems exclusively powered by wind, to desalination plants that 
receive the majority of their energy requirements from wind power 
delivered via electricity grid systems. In either case, the relative 
ease and low cost of storing desalinated water, in comparison with 
storing electricity, will allow operating flexibilities that will 
facilitate using inherently variable wind power as a primary energy 
source for desalination.
    We are currently funding a concept design study which will set up 
engineering and economic models to examine viability of wind-powered 
reverse osmosis systems, looking at applications for coastal seawater, 
inland brackish water, and water produced during oil or gas recovery. A 
second project will model solar and wind resources for a desalination 
unit to determine the effects of variable loads on desalination, and 
perform pilot-scale testing to determine how renewable energy could 
reduce desalination costs.
    We are also undertaking a mapping project to overlay data such as 
fresh and brackish water resources, wind resources, water consumption, 
estimated growth, and electricity supply. Two maps will be developed, 
one of the United States, and one for the four-state region of 
Colorado, Utah, Arizona, and New Mexico, identifying locations that 
have the best economic and technical potential for using wind to power 
desalination.
    Even as we proceed with these activities, we are mindful that the 
energy intensive technique of reverse osmosis we use for desalination 
today may not be the membrane technology of tomorrow. But whether that 
breakthrough comes from a lab working specifically on desalination, or 
through an area of broader scientific research remains to be seen. The 
Department's Office of Science, for example, is studying microbes and 
smart membranes that may ultimately have relevance to desalination in 
the future.
    Having said that, it seems certain that desalination will play an 
important role in maintaining and expanding our Nation's and indeed, 
the world's water supply. Where fresh water aquifers are under pressure 
in many regions, over-drafted and subject to salt-water intrusion, 
brackish aquifers can be found throughout the country and the world, a 
ready source of new water. More than 120 countries are now using 
desalination technologies to provide potable water, most commonly in 
the Persian Gulf where energy costs are low. The desalination plants of 
the future must come in a range of sizes so that they can be installed 
where demand exists--smaller footprint facilities which can make use of 
smaller deposits of impaired water, at a price the community can 
afford. For American companies, the growing need for desalination will 
open new global markets.
    Mr. Chairman, this completes my prepared statement, and I am happy 
to answer any questions the Committee may have.

   STATEMENT OF DR. LES SHEPHARD, VICE PRESIDENT FOR ENERGY, 
 RESOURCES AND NONPROLIFERATION, SANDIA NATIONAL LABORATORIES, 
                        ALBUQUERQUE, NM

    Dr. Shephard. Mr. Chairman and distinguished members of the 
committee, thank you for the opportunity to comment on the 
Energy-Water Technology Act of 2005. I am Les Shephard, Vice 
President for Energy, Resources and Nonproliferation at Sandia 
National Laboratories, a multi-program national security 
laboratory, with locations in New Mexico and California.
    Today, approximately 40 percent of the fresh water 
withdrawn from our country's lakes, rivers and aquifers goes to 
electric power generation. In return, a significant portion of 
this electric power is then used to move and treat dwindling 
water supplies. On a national scale, water supply and 
reclamation consumes 4 percent of all electric power 
generation, roughly equivalent to all the electricity used in 
the State of New Jersey last year.
    On a typical day in the United States, coal, gas, and 
nuclear plants across our country use about 136 billion gallons 
of fresh water to generate electricity. This water is essential 
for power generation: No water, no electricity.
    Fortunately, only 3 percent of this water is actually 
consumed. The remainder can be reused after cooling. 
Unfortunately, this demand competes with other major water 
needs: agriculture, industry, municipalities and the 
environment. In short, energy depends on water, and water 
depends on energy.
    And the impact of interdependency will grow as we increase 
our electric power production by nearly 30 percent over the 
next 20 years. The significant impact of increased energy costs 
for creating new water is recognized in the Desalination Water 
Supply Shortage Act of 2005, which proposes incentives to 
partially offset the cost of electricity required to operate 
desalination facilities.
    While these subsidy incentives may be appropriate in the 
short term, a longer term strategy must invoke development and 
implementation of cost-effective, innovative technology to 
significantly reduce the energy cost of creating new water 
supplies. The Energy Water Technology Act enables this longer 
term strategy. This act will forge the energy/water link needed 
to accelerate development of revolutionary technologies of 
tomorrow, new power plant designs that use less water. New 
membranes and separation processes that require less energy to 
produce drinking water. New ways to harvest heat, to purify 
water, and new ways to cheaply treat non-traditional waters for 
consumption and power generation.
    The act includes many of the critical elements we believe 
are required for success. Long-range vision and technical 
direction will be developed through technology road mapping. 
Systems solutions, continuity of technical focus and technology 
transfer will be provided by lead laboratories and their 
university partners in conjunction with the Department of 
Energy. Cutting-edge research and development on specific 
problems will be implemented through the competitive grants 
program.
    Throughout this process, a strong connection with industry 
and end users must be maintained. As the agency responsible for 
this program, the Department of Energy must have flexibility in 
developing the overall approach for strategic implementation.
    Scientific research and technical innovation are critical 
elements in addressing water and energy. This act provides the 
basis to enable a national effort to focus and integrate 
research that leads to the development of energy/water 
efficiency and supply technologies which are critical for 
meeting our future energy and water security needs.
    Thank you, Mr. Chairman, and members of the committee, for 
your sustained leadership in this important area, for your 
sustained leadership on the Energy Policy Act of 2005. And I 
also will be delighted to answer any questions you may have.
    [The prepared statement of Dr. Shephard follows:]
  Prepared Statement of Dr. Les Shephard, Vice President for Energy, 
      Resources and Nonproliferation, Sandia National Laboratories

                             SUMMARY POINTS
  <bullet> Today approximately 40 percent of the freshwater withdrawn 
        from our country's lakes, rivers and aquifers goes to electric 
        power generation. In return, a substantial portion of this 
        electric power is then used to move and treat dwindling 
        supplies of water. In short, energy depends on water and water 
        depends on energy--and the cost of both are rising as our 
        population grows and as competing demands for water outstrip 
        supplies.
  <bullet> Our country must aggressively develop the technological 
        advances required to solve these important emerging issues or 
        face spiraling costs for energy and water, which are both 
        fundamental to economic security.
  <bullet> The Energy-Water Efficiency Technology Research, 
        Development, and Transfer Program Act of 2005 establishes a 
        program in the U.S. Department of Energy that directly 
        addresses these important issues.
  <bullet> The Act contains multiple elements that are important to a 
        successful program. Long-range vision and technical direction 
        will be developed through technology road mapping. Cutting 
        edge-research and development on high priority scientific and 
        technology challenges will be implemented through competitive 
        grants. Systems solutions, integration of research into 
        technology, and technology transfer will be coordinated by lead 
        laboratories and their university partners.
  <bullet> Strong engagement of industry and end users is very 
        important to the success of the proposed program. This 
        engagement must include active participation in the technical 
        advisory panel, extensive participation in technology road 
        mapping, and direct partnering in pilot testing and technology 
        transfer.
  <bullet> As the agency responsible for this program, the Department 
        of Energy must have flexibility in developing the ultimate 
        strategic implementation of this program.
  <bullet> Sandia National Laboratories strongly supports establishment 
        of the Energy-Water Efficiency Technology Research, 
        Development, and Transfer Program.

                              INTRODUCTION
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to comment on the Energy-Water Efficiency 
Technology Research, Development, and Transfer Program Act of 2005. I 
am Les Shephard, Vice President for Energy, Resources and 
Nonproliferation at Sandia National Laboratories.
    Sandia National Laboratories is managed and operated for the U.S. 
Department of Energy (DOE) by Sandia Corporation, a subsidiary of the 
Lockheed Martin Corporation. Sandia is a multi-program laboratory with 
mission responsibilities in national security, homeland security, 
energy, and science.
    I will make three principal points in this statement.
    The first one is crucial: The ``water cost'' of energy and the 
``energy cost'' of water are inextricably linked. In the absence of 
technological advance, the cost of both will rise rapidly in the 
future.
    Second, accomplishing the needed technological advance will require 
integration across the full spectrum of research, development, and 
commercialization, drawing on the best science and engineering 
capabilities in our national laboratories, universities, and innovative 
industry.
    Third, the Act contains the critical elements for a successful 
program: technical direction of the program driven by technology road 
mapping and an independent technical advisory board with strong 
industry and end user focus for the program; research and development 
drawing on the full spectrum of the universities, national 
laboratories, and other research institutions through a competitive 
grants program; and integration from research and development to 
commercialization through lead laboratories and industry partnerships.
       energy-water interdependency leads to rapidly rising cost
    Today, approximately 40 percent of the freshwater withdrawn from 
our country's lakes, rivers and aquifers goes to electric power 
generation. In return, a substantial portion of this electric power is 
then used to move and treat dwindling supplies of water. In short, 
energy depends on water and water depends on energy--and the costs of 
both are rising as our population grows and as competing demands for 
water outstrip supplies.
The ``Water-Cost'' for Energy
    On a typical day in the United States, coal, gas, and nuclear 
plants across our country use about 136 billion gallons of fresh water 
to generate electricity. This water is essential for power generation: 
no water, no electricity. Underlying these statistics, there is good 
news and there are two major challenges.
    The good news is that only three percent of the water withdrawn for 
electric power generation is actually consumed. The first challenge is 
that once used for power generation, water contains waste heat that 
must be dissipated before it can be used again. The second, more 
important, challenge is that the water required for power generation 
competes with other major water needs: agriculture, industry, people 
and the environment. In a growing number of regions of our country, 
freshwater supplies are fully allocated. There simply is not enough 
water to meet all of these competing needs.
    This critical energy-water interdependency is not theoretical. In 
the summer of 2004, after several years of drought, coal-fired power 
generation in the Four Corners region of New Mexico, Arizona, Colorado 
and Utah came very close to being severely curtailed due to lack of 
water. In the southwest, power generation will need to nearly double 
over the next twenty years, exacerbating competition over already 
limited water supplies.
    This critical energy-water interdependency is not unique to the 
arid southwest. Over the past three years, power plant applications 
have been turned down in Idaho, Wisconsin, Michigan, North Carolina and 
New Jersey because there is not enough water. In the Southeast, surface 
waters are completely allocated and new power plants are increasingly 
forced to consider using non-traditional waters--mine waters, 
subsurface brines, and wastewater--which often must be treated before 
the plants use them for cooling. There is a clear need for more 
``water-efficient'' power plant designs and designs that reduce water 
quality impacts, particularly as new power plants are constructed to 
meet growing demands.
    The spiraling cost impact of this critical energy-water 
interdependency will grow in the future. Our country must increase 
electric power production by nearly 30 percent in the next twenty 
years--or approximately 1000 new power plants. While moving to dry 
cooling is an option, the capital cost is typically three times the 
cost of water-based cooling, and efficiencies are typically 5 to 15 
percent lower. Therefore, to keep energy costs from rising because of 
water-scarcity alone we need to lower the ``water cost'' of energy and 
the ``energy cost'' of water.
``Energy-Cost `` for Water
    Pumping, distribution and treating water requires large amounts of 
energy. Approximately 20 percent of electricity consumed in the state 
of California is used for the state's water infrastructure. On a 
national scale, water supply and reclamation consumes 4 percent of U.S. 
electric power generation, and 75 percent of the cost of municipal 
water processing and distribution is for electric power. These numbers 
will grow significantly as our country moves to greater utilization of 
saline and other impaired waters to meet growing demand.
    Because freshwater supplies are fully allocated across many regions 
of our country, competition for water for people, energy, industry, 
agriculture, and the environment is increasingly intense. To meet the 
needs of projected 20 percent population growth, we must create ``new 
water'' through desalination, treatment of waste-water for reuse, and 
treatment of other impaired waters. Creating new water is expensive and 
will consume significantly more energy than is used today. Almost half 
(44 percent) of the cost of desalinating sea water using today's 
technology is for energy.
    The utilization of advanced technologies for creating new water is 
growing across the country. In Tampa Bay, Florida, a seawater 
desalination plant producing 25 million gallons of freshwater per day 
recently began operations. In El Paso, Texas, ground was recently 
broken for an inland brackish-water desalination plant that will 
produce 25 million gallons per day. California, Texas, Florida, North 
and South Carolina, and Massachusetts are in the planning stages for 
additional major seawater desalination plants, and new inland 
desalination plants are planned in New Mexico, Arizona, California and 
Texas.
    The significant impact of increased energy cost for water is not 
theoretical. The purpose of Senate Bill 1016, the Desalination Water 
Supply Shortage Act of 2005 is to partially offset the major cost of 
electrical energy required to operate desalination facilities. This Act 
calls for incentive payments of $200 million dollars to offset the 
``energy-cost'' of creating potable water. While these subsidy 
incentives may be required in the short term, a longer term strategy 
must be invoked that will drive development of cost-effective, 
innovative technology that will significantly reduce the energy cost of 
creating new water.

    COST AND ENERGY REDUCTION REQUIRE TECHNOLOGICAL ADVANCE THROUGH 
 INNOVATIVE RESEARCH AND DEVELOPMENT, AND AGGRESSIVE INTEGRATION FROM 
                 ADVANCED R&D THROUGH COMMERCIALIZATION
    There are major opportunities of technological advance resulting in 
major reductions in the water-cost for energy, and the energy-cost for 
water. Opportunities for reducing the water cost for energy includes 
improving the water efficiency of power-generating technologies, 
utilization of brackish or other impaired waters for cooling, and 
reducing severe competition among water-use sectors by increasing water 
efficiency and developing new sources of water for other water sectors 
that compete with energy. Major reductions in the energy-cost of water 
will come from breakthroughs in membranes and separation processes, 
development of new technologies for reuse of impaired water, as well as 
enabling management optimization through system-level modeling and 
real-time monitoring of chemical and biological parameters.
Innovation requires competitive access to R&D capabilities
    Accomplishing these needed technological advances for specific high 
priority needs will require drawing on the best science and engineering 
capabilities in our national laboratories and universities. Research at 
universities across the country is a major source of innovative 
concepts with significant potential to address energy and water issues. 
University research adds the substantial benefit of educating the 
undergraduate and graduate students who will work to solve these 
challenges well into the future.
    Solutions for many of these technological challenges will build on 
the foundation work in multiple DOE Office of Science programs, 
including such areas as science at the nanoscale, molecular-level 
material design, engineering the convergence of chemical and biological 
processes. Through the national laboratories, the Energy-Water Nexus 
team has been at the forefront of defining technical challenges related 
to energy-water interdependency. These laboratories have extensive 
water and energy expertise.
Success in bringing innovation to application requires continuity 
        across R&D, through pilot testing to commercialization
    While focusing R&D on specific problem components is important to 
achieving research breakthroughs, these breakthroughs must be 
incorporated into technologies and products. Research solutions will 
require technology integration, systems assessment, and continuity in 
moving research through technology development, systems engineering, 
pilot-scale testing, and product commercialization. Technology testing, 
transfer, and commercialization must be an integral component of the 
program.
    The ultimate merit for success of this program will be widespread 
commercialization and adoption of new technologies by industry and 
local communities. Therefore, partnership with industry and end users 
is imperative. The program must include mechanisms for industry and 
end-users to engage early in the definition of research needs and 
priorities.

THE ENERGY-WATER ACT OF 2005 SETS FORTH CRITICAL ELEMENTS NECESSARY FOR 
                          A SUCCESSFUL PROGRAM
    Success of the Energy-Water Efficiency Technology Research, 
Development, and Transfer Program Act of 2005 will require long-range 
vision, systems solutions, continuity of technical focus, cutting-edge 
research and development on specific problems, and a very strong 
connection to industry and end users. The Act includes many of the 
critical elements required for this success. Long-range vision and 
technical direction will be developed through technology road mapping. 
Systems solutions, continuity of technical focus and technology 
transfer will be provided by lead laboratories and their university 
partners. Cutting-edge research and development on specific problems 
will be implemented through the competitive grants program. Throughout 
this process, a strong connection with industry and end users will be 
maintained through the technical advisory panel, direct participation 
in road mapping, and direct partnering in pilot testing and technology 
transfer. As the agency responsible for this program, the Department of 
Energy must have flexibility in developing the ultimate strategic 
implementation of the program.
Department of Energy Engagement in Solution of Energy-Water Issues
    The Department of Energy has broad responsibilities for ensuring 
future energy production, foundational scientific research, and broad 
program expertise engaged in both energy and water. Therefore, the 
Department of Energy is the right federal agency for this program. 
Because of the diversity of water use sectors, other federal agencies 
also have significant water responsibilities. The Act appropriately 
calls on DOE to coordinate with these other pertinent agencies.
    The proposed Energy-Water Efficiency Technology Research, 
Development, and Transfer Program Act of 2005 maps the proposed program 
into the Title I Energy Efficiency program area of the recently signed 
Energy Policy Act of 2005. The Energy Policy Act of 2005 also includes 
Section 979 that addressed similar energy and water issues within the 
Title IX Science area.
    As noted previously, the Office of Science has multiple 
foundational research programs with strong potential to contribute. In 
addition, core Office of Science research facilities, such as the 
Nanoscale Science Research Centers, provide state-of-the-art facilities 
that enable breakthrough research. Solution of the critical energy-
water challenges faced in the U.S. will require both scientific 
research and technology development. DOE should have the flexibility to 
define an integrated program strategy, enabling integrated execution of 
appropriate research in the Office of Science (through Section 979 of 
the Energy Policy Act of 2005), with a complementary program in an 
applied program area of DOE such as Energy Efficiency (through the 
proposed Energy-Water Efficiency Technology Research, Development, and 
Transfer Program Act of 2005). Energy-water issues cut across multiple 
applied program areas within DOE (e.g. Fossil Energy), and DOE must 
have the flexibility to address how best to meet the energy-water 
challenges across program areas.
Technical Direction and Program Feedback
    The proposed Act specifies that technical direction for the program 
be driven by a combination of technology road mapping and a Technical 
Advisory Panel. Technology road mapping is a critical element, as it 
provides a rigorous framework for engaging industry and end users, 
along with university and national laboratory scientists and engineers, 
in defining research and technology priorities. The results of 
technology road mapping should be used to define the framework for 
critical technologies that will be developed through the competitive 
grants and lead laboratory programs.
    The Technical Advisory Panel will play an important role in 
providing both guidance and feedback. This panel will provide a source 
of ongoing information from which to build a broad understanding, not 
only of research technology challenges, but also of industry, end user 
and regulatory issues. Therefore, it is important that the Technical 
Advisory Panel include not only industry and research expertise in 
energy and water technologies, but also representatives of federal, 
state and local agencies with management and regulatory 
responsibilities, as well as water and energy focused nongovernmental 
organizations.
    The proposed Act also calls for National Academy of Sciences (NAS) 
periodic reviews of the program. NAS reviews have the potential to 
provide valuable insight to the research dimensions of the program. 
However, some form of program review that directly engages industry and 
end users is also important. One possibility is that the Advisory Panel 
provide, or oversee, this review. Other possibilities should be 
considered as well.
Program Grants
    As noted in a previous section, achieving the needed technological 
advances for specific high priority needs will require drawing on the 
best science and engineering capabilities across the U.S. The 
competitive Program Grants element of the proposed Act is an effective 
mechanism for accomplishing this requirement.
    As noted above, technical framework and direction for the Program 
Grants should be driven by the technology road mapping. Technical 
framework for the Grants Program and Lead Laboratory Program must be 
coordinated, especially in activities involving technology transfer 
that enables widespread commercialization of newly developed 
technologies.
    Finally, an important component of any competitive grants program 
is a rigorous, transparent selection process. The Technical Advisory 
Panel will be in a position to assure that this requirement is met.
Lead Laboratory Program
    As noted previously, solution of major energy-water challenges 
requires continuity and integration in technology development. The 
proposed Act provides the institutional mechanism necessary to 
accomplish this by specifying lead laboratories. Important roles that 
must be carried out by these laboratories and their partner 
universities include integration of research into technology and 
systems assessment. Another important role of the lead laboratories 
will be to provide continuity in moving research through technology 
development, systems engineering, pilot-scale testing, and product 
commercialization. In addition to moving individual technologies, lead 
laboratories must also work across multiple technologies to identify 
and develop integrated, systems solutions.
    An important element of the Program Lead Laboratory program element 
is partnerships. As noted previously, university partnerships will be 
important for research and development. The proposed Act calls for each 
Lead Laboratory to partner with at least one university in carrying out 
the program. Multiple university partnerships will likely play an 
important role in carrying out this portion of the program, as well as 
in facilitating technology integration and transfer from the Grants 
Program.
    Strong partnerships among Lead Laboratories and across DOE labs 
will also be important. Building on DOE foundational science research 
at multiple labs and collaboration with labs involved in the Grants 
Program R&D will be important.
    Success in pilot testing, technology transfer, and 
commercialization will require strong partnerships with industry, end 
users, and industry research associations. These partnerships must be 
built through broad end-user and industry engagement with technology 
road mapping, the Technical Advisory Board, and specific industry 
commercialization partners.
   sandia national laboratories is committed to making the proposed 
     programsuccessful through technical excellence and partnering
    Sandia National Laboratories is committed to making the proposed 
Energy-Water Efficiency Technology Research, Development, and Transfer 
Program Act of 2005 successful. Essential ingredients of our engagement 
are technical excellence and commitment to partnering.
    Sandia National Laboratories is actively engaged in a broad range 
of water research and technology development. In partnership with the 
Bureau of Reclamation, Sandia jointly developed the 20-year 
``Desalination and Water Purification Technology Roadmap.'' The Joint 
Water Reuse and Desalination Task Force (a partnership of the American 
Water Works Association Research Foundation, WateReuse Foundation, 
Bureau of Reclamation, and Sandia National Laboratories) is currently 
updating the 2003 road map to define a more detailed framework of 
national research needs for desalination and water reuse. Sandia is 
currently conducting research in areas such as biomimetic membranes and 
nano-engineered water treatment technologies. Working with the 
Department of Energy and the Energy-Water Nexus team, Sandia is 
currently coordinating the development of a roadmap focusing on energy-
water technology challenges.
    In the areas of water monitoring and water security, Sandia worked 
with the American Water Works Association Research Foundation and the 
Environmental Protection Agency to develop a security risk assessment 
methodology for water infrastructure that has been used to conduct 
vulnerability assessments of over 90 percent of large U.S. cities, 
covering the water supply systems of over 130 million people. Sandia is 
creating new generation sensor technologies enabling real-time 
monitoring of water quality, and recently entered a major Cooperative 
Research and Development Agreement (CRADA) for commercialization of 
micro-chem-lab-on-a-chip technology for water applications. Future 
sensor development will benefit greatly from the major microsystems, 
microelectronics, and engineering design investments at the 
Microsystems and Engineering Sciences Applications (MESA) facility at 
Sandia.
    Sandia's management philosophy has always stressed the linkage of 
research through development to application. Systems integration is a 
distinguishing strength of Sandia's technical management. We have a 
long history of partnerships at both ends of the development cycle, 
both with research universities and with industrial firms and 
consortia. Sandia's approach to research and development derives from a 
heritage of fifty years under industrial management, and it yields 
tangible results. It is not science for its own sake, but science and 
engineering working together with the mission in mind.

                            CLOSING COMMENTS
    In closing, Sandia strongly supports the establishment of the 
Energy-Water Efficiency Technology Research, Development, and Transfer 
Program Act of 2005 as a vital component to U.S. energy and economic 
security. We are committed to working with the Department of Energy to 
make the proposed Act successful.
    Thank you for the opportunity to comment on this program.

STATEMENT OF DR. JANE C.S. LONG, ASSOCIATE DIRECTOR, ENERGY AND 
     ENVIRONMENT DIRECTORATE, LAWRENCE LIVERMORE NATIONAL 
                   LABORATORY, LIVERMORE, CA

    Dr. Long. Mr. Chairman and members of the committee, I am 
Jane Long, Associate Director for Energy and Environment at 
Lawrence Livermore National Laboratory. My job is to oversee 
the laboratory's research and earth system science, atmospheric 
releases, and nuclear power and fuel cycles.
    Livermore is administered by the University of California 
for the Department of Energy's National Nuclear Security 
administration and is a multi-program laboratory with special 
responsibilities in national security, homeland security, 
energy and environment, and state-of-the-art capabilities that 
are also applied to other pressing national needs. I will 
summarize my written testimony here, and submit my written 
statement for the record.
    I am pleased to be here for the opportunity to discuss S. 
1860, the Energy-Water Efficiency Technology Research, 
Development, and Transfer Program Act of 2005. I would like to 
make three points today: First, that water and energy security 
are growing issues; second, that S. 1860 is an important bill 
that addresses these issues and we fully support it; and third, 
Lawrence Livermore is committed to making this program 
successful in solving this real world problem.
    Energy and water are constrained resources, as our chairman 
just mentioned, subject to high and growing demand. 
Increasingly, each of these resources are associated with the 
Nation's security. The linkages between energy and water are 
important and compelling areas for research and development and 
require both fundamental science and applied technology.
    Our population is growing and along with it, the demand for 
energy is growing. And as we've seen lately, matching this 
demand with supply is not guaranteed. As well, the demand for 
water is growing while supplies are dwindling in the West, 
especially in the West but throughout the country as well.
    Water pumping, treatment and conveyance currently accounts 
for 3 percent of national energy consumption and as much as 10 
percent in California. So water uses energy. This water sector 
energy use is likely to grow, and is likely to be an important 
component of our energy sector in the future. Efficiency in 
this area for both the water use and water purification, 
therefore, is an issue. Technologies are needed to increase 
this efficiency.
    Energy uses water, as well. As Les mentioned, 39 percent of 
all freshwater withdrawals are for energy production. A single 
kilowatt hour of electricity uses 25 gallons of water, on 
average, to produce. And we use three times as much water for 
lights and appliances in our homes as we do for domestic water 
direct use.
    Water availability poses constraints for existing power 
generation and future expansion. For example, Lake Powell is 
half full after a 5-year drought. So what effect will that have 
on power generation?
    My second point is that this is an act that addresses the 
problem. The first part of the act called for an assessment of 
the current R&D and the state of programmatic support of the 
Government. This is very appropriate, as it will include 
perspectives from many agencies responsible for water and 
energy and a roadmap to the R&D that is important for 
addressing these issues.
    The proposed legislation taps into the national labs, 
university partners, research community, industry and a multi-
year commitment to address these energy/water efficiency and 
supply issues. Grants are 40 percent of the funding and these 
will draw the best of ideas from the greater research 
community. Commercialization effort will ensure that the 
research reaches fruitful application and an advisory board 
will review the progress and keep the program on track. 
Livermore is committed to making this program effective and 
we're lucky to have many capabilities to add. At Livermore, 
water treatment, and monitoring technologies are at all stages 
of development, from new materials at the design state to 
commercial units.
    We, for example, look at selective treatment. Can we use 
design material to create membranes that only remove 
contaminants of interest and leave the others that aren't 
harmful behind, thus saving energy? We have been working in 
desalinization for 20 years and have won R&D awards in that 
area, and recent research is essentially looking at 
desalinization as if it was an artificial kidney.
    As well, we have sensor programs that detect biological and 
chemical agents to determine if contaminants are accidentally 
or intentionally entering the water supplies. These sensors 
utilize molecular biology and material science at a very 
advanced rate. We have experience as well in managing water 
problems and partnerships throughout the State of California in 
particular with water districts, universities and industry.
    Livermore is completely supportive of S. 1860 and we look 
forward to contributing to the program's success. We appreciate 
the committee's leadership in putting this legislation forward 
and we think it's an important element in planning for our 
Nation's water and energy future. This concludes my remarks, 
and I'd be happy to answer any questions.
    [The prepared statement of Dr. Long follows:]
 Prepared Statement of Jane C. S. Long, Associate Director, Energy and 
   Environment Directorate, Lawrence Livermore National Laboratory, 
                        University of California

                            OPENING REMARKS
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I am Jane Long, Associate 
Director of the Energy and Environment Directorate at Lawrence 
Livermore National Laboratory (LLNL). Our Laboratory is administered by 
the University of California for the Department of Energy's National 
Nuclear Security Administration. Lawrence Livermore is a multi-program 
laboratory with special responsibilities in national security and 
state-of the-art experimental and computational capabilities that are 
also applied to meet other pressing national needs. In particular, LLNL 
pursues a broad portfolio of innovative research and development 
programs in energy and environmental sciences, many of which deal with 
water issues.
    Water issues and their close ties to energy issues are the 
important subjects of today's hearings. Both energy and water are 
constrained resources subject to high and growing demand. They are 
inexorably linked and understanding these linkages is vital to 
effective future management of America's energy and water supplies. 
Water supply and management uses large amounts of energy; thus, the 
availability of freshwater resources may be curtailed by insufficient 
or too costly energy. Conversely, the energy sector uses considerable 
amounts of water. Insufficient water resources can reduce the supply of 
energy or drive up costs.
    Clearly, thoroughly understanding the linkages between energy and 
water is prerequisite to increasing the supply and efficient use of 
both resources. Congress recently took action to meet this need with 
the passage of the Energy Policy Act of 2005 and today's hearing is 
about two relevant bills, S. 1016 and S. 1860. My comments focus on S. 
1860, the ``Energy-Water Efficiency Technology Research, Development, 
and Transfer Program Act of 2005.'' It is a vitally important bill and 
we fully support it. The program defined by S. 1860 builds on Section 
979 of the Energy Policy Act, which specifically calls for a DOE 
assessment and research program to address energy and water related 
issues.
    S. 1860 establishes a well-designed program to assess the current 
situation, build a roadmap for future activities, pursue energy-water 
efficiency and supply technology research, development, and transfer to 
end-users. It calls upon DOE's national laboratories, working in 
partnership with universities, other research institutions, industry, 
and governmental agencies, to develop and deploy the needed 
technologies. It also defines appropriate mechanisms to steer the 
activities and advise the Secretary and Congressional committees of 
program progress.
    Most importantly, S. 1860 fully recognizes the need to apply the 
nation's best science and technology to ensure abundant energy and 
water to meet our country's future demands. As one of the lead national 
laboratories identified in the bill, Lawrence Livermore is committed to 
vigorously pursuing research and development of new technologies, 
working with U.S. industry to turn them into effective products for the 
user community, and to teaming with Sandia, Oak Ridge and the other 
national laboratories to meet this challenge. My testimony will include 
pertinent examples of LLNL's capabilities in fundamental and applied 
science, current research projects, and ongoing partnerships.

                        THE ENERGY-WATER LINKAGE
    Passed by Congress and signed into law by the President, the Energy 
Policy Act of 2005 provides the United States with its first national 
energy plan in more than a decade. The Act promotes investments in 
energy efficiency and conservation as part of a comprehensive plan to 
reduce the nation's dependence on foreign energy. Affordable and 
reliable energy is vital to the continuing economic growth of the 
United States and the well-being of its citizens. Greater energy 
security is a challenge that calls for a sustained effort in energy 
technology research, development of more energy-efficient products and 
new resources, and conservation. The Energy Policy Act is an important 
first step.
    The subject of this hearing is a proposed amendment to the Energy 
Policy Act of 2005. The bill (S. 1860) builds on Section 979 of the 
Act, which specifies that the Secretary of Energy shall carry out a 
program of research, development, demonstration, and commercialization 
to address energy-related issues associated with water and water-
related issues associated with energy. It also directs the Secretary to 
assess the effectiveness of existing Federal programs to address energy 
and water related issues.
    The energy-water nexus. Because the energy and water sectors are 
interdependent, water supplies may be curtailed by insufficient or too 
costly energy, and conversely, insufficient water can reduce the supply 
of and increase the cost of energy. This critical energy-water nexus is 
the subject of the proposed bill: ``to improve energy production and 
reduce energy demand through improved use of reclaimed waters, and for 
other purposes.'' The linkages between energy and water provide 
compelling areas for research and development that would substantially 
benefit both sectors and will require substantial and timely 
investments in both fundamental science and applied technology.
    Water-related issues associated with energy supply and management. 
Water is an increasingly strained resource, particularly in the West, 
where population is growing most rapidly and water is least available. 
More generally, freshwater supplies are dwindling in many parts of the 
U.S. due to extended droughts, and future supplies will be affected by 
long-term trends in regional and global temperatures. It is much more 
than a national issue; water has been and will continue to be a potent 
source of international conflict. Modernization of urban centers in the 
developing world, including expanding energy infrastructures, will 
demand tremendous amounts of water, making it vital to international 
security that we develop and share technologies with other nations to 
enhance and better manage their water supplies.
    U.S. Geological Survey data show that electricity production from 
fossil and nuclear energy requires 190,000 million gallons of water per 
day, or 39% of all freshwater withdrawals nationally. While only a 
portion of these withdrawals are consumed, the returned water is 
thermally and chemically affected by its use. Moreover, enough water 
must be available to sustain energy production and meet other needs. 
Much of the nation's energy fuel production is also dependent on 
adequate water supplies. Energy resource recovery and processing create 
large volumes of wastewater that require treatment for reuse or 
disposal. Future shifts to energy sources such as coal liquefaction or 
gasification, biomass, and hydrogen will place additional demands on 
water resources.
    Energy-related issues associated with water supply and management. 
Water pumping, treatment and conveyance use large amounts of energy--
equivalent to the energy used by the paper or refining industries 
(about 3% of national energy consumption and as high as 10% in 
California). Water sector use of energy will likely substantially 
outpace growth in other high-energy use sectors. There will be greater 
demand for water reuse and recycling as well as energy-intensive 
treatment of impaired or saline water sources, a greater need to tap 
deep groundwater sources, and higher requirements for water storage and 
transport--all significantly increase energy usage.
    The water sector's demand for energy will also grow due to a 
deteriorating infrastructure for treatment and conveyance of freshwater 
supplies, an increased need to treat for harmful natural constituents, 
such as arsenic and other contaminants introduced into the environment, 
and concerns over soil salinization and depletion of groundwater. 
Significant improvements in energy efficiency will require investments 
in research, development, demonstration and deployment of water 
treatment technologies for treating an ever-growing number of 
contaminants.

      THE ENERGY-WATER EFFICIENCY AND SUPPLY TECHNOLOGY RESEARCH, 
                   DEVELOPMENT, AND TRANSFER PROGRAM
    The proposed amendment to the Energy Policy Act of 2005 establishes 
the Energy-Water Efficiency and Supply Technology Research, 
Development, and Transfer Program. The bill (S. 1860) defines a program 
that provides a means for the Secretary of Energy to carry out 
responsibilities established in Section 979 of the Energy Policy Act, 
and it authorizes appropriations to execute the program.
    The Energy-Water Efficiency and Supply Technology Research, 
Development, and Transfer Program is designed to clarify issues at the 
energy-water nexus and to pursue the development and deployment of 
innovative technologies at this critical junction. The focus of the 
program will be more efficient or decreased use of water and energy, 
and creation of new water supplies through advances in treatment or 
management.
    Four features of the Energy-Water Efficiency and Supply Technology 
Research, Development, and Transfer Program--specifically called out in 
S. 1860--are important to long-term success. The program includes:

  <bullet> Initial development of a water-supply technology assessment 
        to guide the investment strategy.
  <bullet> A commitment to invest in research and development of needed 
        technologies together with their deployment for real-world 
        applications.
  <bullet> Effective use of the Department of Energy national 
        laboratories in partnership with universities, other research 
        institutions, industry, and governmental agencies to develop 
        and deploy technologies.
  <bullet> Appropriate mechanisms to steer the activities and advise 
        the Secretary and Congressional committees of program progress.

    Water-supply technology assessment. The proposed program fittingly 
begins with an assessment of the current state of energy-water 
efficiency and supply technology research and the development of a 
roadmap. Rapid completion of the assessment and roadmap development is 
challenging, but necessary and appropriate, given the urgency of the 
problem. Wide-ranging capabilities are needed to carry out the 
assessment, including knowledge about water supply and energy systems, 
expertise in state-of-the-art science and technology, access to systems 
analysis tools, experience working with technology end users, and an 
understanding of existing policy and sociological constraints.
    There are areas of significant synergy between the energy-water 
nexus program goals and those of existing programs within various 
federal, state, regional, and local agencies--and likely large gaps 
where new research and development investments will be required. 
Roadmap development needs to consider the perspective, needs, and 
equity of these agencies and other organizations that are responsible 
for water and energy issues. There are also important efforts in water 
research and development at regional, state and local levels, led by 
government agencies, universities, and other organizations. These 
contributions need to be integrated with the DOE efforts at the energy-
water nexus.
    Research and development and real-world technology deployment. A 
strength of the national laboratories is their ability to tackle a 
problem--from fundamental science to engineering development--and seek 
breakthroughs that offer dramatic improvements over current 
capabilities. Coupled with a multi-year commitment to work energy-water 
efficiency and supply issues, this attribute is important to long-term 
program success.
    Successful research and development projects alone are not the 
answer. The proposed program includes investments to ensure that the 
technologies created through energy-water research and development are 
deployed successfully by end-users. In addition to technology 
innovation, the program will support pilot testing and assessment, 
technology transfer and commercialization, and an assessment of the 
economic and policy constraints for regulatory and public acceptance. 
To be successful, a new technology must be economically viable, 
environmentally acceptable, easy to integrate into existing 
infrastructure or processes, and compliant with all applicable laws and 
regulations.
    National laboratories leading a broad partnership. The bill 
proposes that three national laboratories-Lawrence Livermore, Oak 
Ridge, and Sandia--be designated as ``program lead laboratories'' and 
shoulder principal responsibility for carrying out the Energy-Water 
Efficiency and Supply Technology Research, Development, and Transfer 
Program. Each lead laboratory will select one or more university 
partners to assist in program efforts. Based on the technology 
assessment and the developed roadmap, the program in future years will 
include appropriated funds for activities at the lead laboratories and 
program grants for research, development, and demonstration projects. 
Since at least 40 percent of the funding in FY2007 and beyond are 
earmarked for grants, the program will be inclusive--drawing on the 
best of ideas from universities, other research institutions and 
agencies, and industry.
    Concentration of program responsibilities in three DOE national 
laboratories makes eminent sense. Three is a number large enough to 
provide diverse viewpoints and a very wide range of expertise and 
technical capabilities; yet it is small enough to keep the program 
manageable and provide the laboratories funding on scale commensurate 
with the need to pursue large-scale multidisciplinary research and 
development activities. Each of the three selected lead laboratories 
brings to bear important attributes that will contribute to program 
success:

  <bullet> Broad ranging capabilities. As premier research facilities, 
        the DOE national laboratories are large repositories of 
        multidisciplinary expertise and home to many of the world's 
        largest computers and state-of-the-art experimental facilities. 
        They define the forefront of science and engineering in 
        materials and nanotechnology development, advanced 
        computations, numerical simulation, and detection and analysis 
        of hazardous chemical and biological compounds. These cross-
        cutting capabilities are essential to solving water challenges.
  <bullet> Relevant ongoing research and development activities. The 
        lead laboratories have been engaged in both energy and water 
        projects for many years. One particular source of special 
        expertise in water issues at Lawrence Livermore stems from long 
        standing efforts to characterize and cleanup groundwater at the 
        Laboratory (and other superfund sites). These activities in the 
        1990s led to the development and transfer to U.S. industry of 
        novel technologies for water treatment, including dynamic 
        underground stripping for rapid groundwater remediation, and 
        capacitive deionization (CDI) for removal of a variety of 
        contaminants. Lawrence Livermore's capabilities in materials 
        science, molecular modeling and separations science continue to 
        fuel develop and transfer of a wide variety of water-and 
        energy-related technologies, as discussed in the next section.
  <bullet> Interactions with a wide range of partners. The lead 
        laboratories routinely work with sister research institutions 
        including major universities, and transfer the technologies 
        they develop to U.S. industry for commercialization. In 
        addition, water technology programs at the laboratories entail 
        many partnerships with federal, state, regional, and/or local 
        water agencies.

    Advisory and review processes. The proposed legislation very 
appropriately establishes an Advisory Panel to review program progress, 
help the lead laboratories identify legal and other barriers to 
implementing technology options, advise the Secretary of Energy on 
energy-water issues, and recommend program grant awards. Composed of 
members with diverse expertise, background, and interests, the Advisory 
Panel will be most helpful to the lead laboratories responsible for 
carrying out the Energy-Water Efficiency and Supply Technology 
Research, Development, and Transfer Program. The laboratories will 
depend on their guidance, and they will support the panel as 
appropriate to help shape the grant program. The program peer reviews 
conducted by a National Academy of Sciences (NAS) group also will be 
important. In recent years, the NAS has completed a wide range of very 
insightful studies examining water quality and management issues.
             lawrence livermore's contributing capabilities
    Lawrence Livermore National Laboratory (LLNL) has a proven track 
record in applying its capabilities to the complex water issues facing 
its nearby communities, California, the West, and the nation. The 
Laboratory emphasizes bringing expertise from many scientific 
disciplines to its water technology projects. LLNL scientists and 
engineers have at their disposal unique facilities for analyzing trace 
amounts of hazardous compounds, some of the world's fastest computers, 
nanoscale characterization and fabrication capabilities, and special 
software and analytical tools developed for water and/or energy 
management.
    At the Laboratory, water treatment and monitoring technologies are 
at all stages of development, from new materials at design-stage, based 
on breakthroughs in separations science, to laboratory and field-scale 
pilots, to commercial units. These research and development activities 
are sponsored externally and internally and pursued in partnership with 
a variety of government agencies, water organizations, and 
corporations.
    Four areas of LLNL's technology research and development activities 
are briefly highlighted here: selective water treatment, desalination, 
advanced sensors, and monitoring/management tools. I also will discuss 
our partnerships that support and inform these efforts.
    Selective Water Treatment Technologies. Present water treatment 
technologies, such as membrane filtration or reverse osmosis, are 
energy-intensive and expensive, in part because they remove many 
compounds in addition to contaminants. Technologies that selectively 
remove only undesired contaminants can improve water treatment 
operating costs and energy efficiencies enough to allow many small 
communities and rural households to use local freshwater supplies that 
currently do not meet potable standards because of a single contaminant 
(e.g., arsenic, selenium, perchlorate, uranium, or nitrate).
    With the Laboratory's world-class computing facilities, which 
include three of the world's top 13 supercomputers, LLNL has made 
breakthroughs in the fundamental science of separations technology, 
developing complex molecular-level simulation models to understand the 
chemical transport of contaminants through different types of 
materials. The objective is to design materials that are ``tuned'' to 
selectively attach to and remove compounds of choice. Laboratory 
experts in advanced materials science then test these concepts using a 
diversity of media, including membranes, ion-exchange resins, aerogels, 
and aerogel composites. (An area of special expertise at LLNL, aerogels 
are high-surface area, low-density materials that can adsorb large 
amounts of contaminants per unit weight and volume.) To date, Livermore 
scientists have been able to identify, fabricate and test designer 
materials (e.g., chemical functional groups on membranes) to 
selectively remove arsenic, metals, radioactive compounds, and 
hydrocarbons from water. LLNL also has developed a spectrum of energy-
efficient portable treatment units. These units, designed to have low 
capital and operating costs and to operate at remote sites, can be 
configured to run on renewable energy sources such as solar power.
    The Laboratory is also helping municipalities in California's 
Central Valley that need to treat nitrate-or arsenic-contaminated 
groundwater. The water is naturally hard and prone to precipitating 
minerals, creating plugging problems in the low-cost filter media 
needed to eliminate the nitrate and arsenic. LLNL is using its 
geochemical modeling expertise to determine ways to prevent the 
minerals from forming, allowing these communities to efficiently use 
these low-cost media rather than higher cost alternatives to meet 
arsenic and/or nitrate standards.
    Desalination. LLNL has been developing technologies to improve the 
energy efficiency of desalination processes for over twenty years. In 
the 1990s, the Laboratory licensed an innovative approach to capacitive 
deionization (CDI) using aerogels to desalt water. In 1995, this 
technology received an R&D 100 Award as one of the top 100 technology 
innovations of the year. Next-generation and spin-offs from this 
original technology are under development, including a concept based on 
the electrodialysis (ED) process. ED is more energy efficient than 
reverse osmosis at removing salt from brackish water, but it is still 
not cost effective enough to treat large volumes of marginally impaired 
waters. Laboratory scientists are working on developing ``smart'' 
membranes for ED. They would be designed to selectively remove only the 
contaminant of interest. Accordingly, the process would be far more 
efficient and lower energy costs by 50 percent or more. California 
state agencies are actively supporting this research and development.
    Sensor Technologies. LLNL is applying its expertise in sensor 
technologies and its national and homeland security capabilities to 
help water utilities and agencies. In support of the U.S. Department of 
Homeland Security, LLNL has recently performed an assessment of sensors 
and systems currently available to utilities for detection of 
biological and chemical contamination in water distribution systems. 
More generally, unique facilities at Livermore are available for real-
time detection and response to hazardous releases. They include the 
National Atmospheric Release Advisory Center (NARAC), the Biosecurity 
and Nanosciences Laboratory, the Biodefense Knowledge Center, and the 
Forensic Science Center.
    In addition, Livermore is at the forefront of developing new 
sensors for chemical and biological hazards, including detectors for 
single molecules of deadly pathogens, and rapid biohazards detection by 
polymerase chain reaction (PCR). Over the past three years, three LLNL-
developed biological agent detection systems have earned R&D 100 
Awards. Coupling its expertise in electronics miniaturization and 
materials science, the Laboratory is also developing high-resolution 
portable chemical sensors, including a sensor for arsenic, based on 
selective membrane technology.
    Water Monitoring and Management Tools. LLNL is applying innovative 
analytical and modeling tools to monitor and manage water resources. 
For example, the Laboratory has state-of-the-art facilities for age-
dating tritium (helium-3) and methods for low-level detection of 
tracers and contaminants. Integrated with high-resolution hydrologic 
models, these capabilities are aiding California in assessing 
groundwater vulnerability to MTBE and other contaminants in the State's 
Groundwater Ambient Monitoring Assessment (GAMA) program. LLNL has and 
continues to assist the state of California in multimedia analysis for 
new transportation fuels. In support of the Orange County Water 
District, LLNL scientists used these methods to determine how long 
reclaimed water, which was injected to prevent seawater intrusion, 
would remain underground before withdrawal for potable use. LLNL has 
also helped stakeholders understand water management alternatives to 
meet Total Maximum Daily Loads limits in the Dominguez Channel, Long 
Beach, California. LLNL is supporting the U.S. Bureau of Reclamation by 
using these techniques to determine if an aquifer in California's 
Imperial Valley, fed by leakage from agricultural canals, is a 
sustainable water supply or could be used for water banking.
    LLNL also develops database management tools for water agencies to 
use to assess and manage contaminated water resources. GeoTracker, a 
GIS tool developed by the Laboratory and managed by the state of 
California, provides a public online database of groundwater 
compositions for all leaking underground fuel tank (LUFT) sites and 
public wells. Scientists are currently working with a California water 
agency and the National Water Research Institute on a tool to balance 
contributions from multiple water sources and manage arsenic loading to 
a municipal water supply. Another software tool allows water managers 
to visualize sources, uses, and disposal of water in systems from 
watershed to national scales, as demonstrated by use of U.S. Geological 
Survey data to diagram water flows in the U.S. and in some states. LLNL 
staff participated in the recent water energy relationship study 
conducted by the California Energy Commission as part of its 2005 
Integrated Energy Policy Report.
    Partnerships. Livermore researchers collaborate with a wide variety 
of partners including many universities across the nation and industry, 
ranging from large multinational to small companies that serve niche 
markets. Sponsors and federal, state and local agency partners include: 
U.S. Bureau of Reclamation, U.S. Environmental Protection Agency, U.S. 
Army Corps of Engineers, U.S. Geological Survey, California 
Environmental Protection Agency, California Energy Commission, 
California Department of Water Resources, and California State Water 
Resources Control Board.
    For example, LLNL researchers will investigate innovative brine 
disposal options in a joint project with two California water districts 
interested in pursuing brackish water desalination as a new water 
source. Also involving university researchers for membrane testing and 
an engineering firm, this project will receive state funding as well as 
contributions from the lead partners. Our many university/research 
institution partners include: Arizona State University, Hunter College, 
Santa Clara University, Stanford University, University of Arizona, 
University of California (UC) Berkeley, UC Davis, UC Los Angeles, UC 
Merced, UC San Diego Scripps Institute of Oceanography, UC Santa Cruz, 
UC Cooperative Extension, University of Texas, Austin, and Lawrence 
Berkeley National Laboratory.
    A significant fraction of public drinking water supply wells in the 
State of California are contaminated by nitrate, the single most 
reported contaminant in public wells. Using internal funding, LLNL 
researchers have been investigating nitrate transport and assimilative 
capacity in groundwater basins. Working with water agencies, academic 
institutions, an agricultural outreach organization, and supporting 
students, LLNL conducted studies in both urbanized groundwater basins 
and at dairy farms. The significance of the work has been recognized by 
follow-on funding from the State Water Resources Control Board. Our 
many water utility partners include: City of Modesto, Santa Clara 
Valley Water District, Zone 7, Dublin San Ramon Water District, East 
Bay Municipal Utilities District, Los Angeles Department of Water and 
Power, Alameda County Water District, City of Ripon, Grayson, San 
Benito County Water District, and Orange County Water District.
    A licensee of LLNL's capacitive deionization technology has just 
announced an agreement for development and manufacturing of the key 
aerogel material that is the heart of the company's product. Given the 
commercial viability of the technology, LLNL researchers are working on 
next-generation innovations to improve performance and efficiency. 
Private industry/consortia partners include: CDT Systems, Balance 
Hydrologic, Perlorica, Tetra Tech, Boyle Engineering, Malcolm Pirnie, 
Crystal Clear Technologies, RMC Water and Environment, and the National 
Water Research Institute.

                            CLOSING REMARKS
    Our Laboratory is fully supportive of S. 1860, the ``Energy-Water 
Efficiency Technology Research, Development, and Transfer Program Act 
of 2005.'' It is an important bill; America's current and future needs 
for abundant energy and water will only be met by pursuing innovative 
science and technology to address energy and water issues.
    S. 1860 establishes a well-designed program to assess the current 
situation, build a roadmap for future activities, and pursue energy-
water efficiency and supply technology research, development, and 
transfer to end-users. The program makes effective use of DOE national 
laboratories working in partnership with others to develop and deploy 
technologies. It also defines appropriate mechanisms to steer the 
activities and advise the Secretary and Congressional committees of 
program progress. S. 1860 is an important element in planning for our 
nation's water and energy future.

    Senator Bingaman. Thank you very much. Unfortunately, 
they're about to finish off this vote so I think I better put 
this hearing in recess until Senator Domenici returns. Then 
we'll hear from you, Dr. Roberto.
    [Recess.]

STATEMENT OF DR. JAMES B. ROBERTO, DEPUTY DIRECTOR FOR SCIENCE 
  AND TECHNOLOGY, OAK RIDGE NATIONAL LABORATORY, OAK RIDGE, TN

    Dr. Roberto. My name is James Roberto, and I am the Deputy 
Laboratory Director for Science and Technology at Oak Ridge 
National Laboratory, which is a Department of Energy multi-
program laboratory managed by UT-Battelle, a partnership of the 
University of Tennessee and Battelle Memorial Institute.
    The Water Technology Act would open an important area of 
research for our laboratory and for the Nation. Reliable energy 
and clean water are essential elements to the quality of life. 
When we lack one or the other, our standard of living suffers. 
We have a responsibility to safeguard these resources for the 
American people.
    In my testimony today, I will concentrate on two subjects. 
One, how energy/water issues are becoming acute in the 
Southeastern States. And two, how new science can make a 
difference. Population increases throughout the United States 
will drive demand for both energy and water into the 
foreseeable future. As energy production accounts for the 
largest withdrawal of freshwater in the United States, the 
growing demand for energy and the need to provide water for 
cities and industry will inevitably collide.
    Water Technology notes that Nevada will have a population 
of four million people by 2030, which is twice what it had in 
2000. The same trends are occurring in Southeastern States such 
as Georgia, and Florida where the growth rate is about the 
same. Most of Georgia's new water demand will be located in the 
Atlanta metropolitan area that is already struggling with water 
supply shortfalls.
    To meet future demand, many eastern coastal cities are 
turning to seawater desalination projects. For example, Tampa 
has been operating a seawater desalination plant since 2003 to 
augment its groundwater supplies. Tampa's experience is an 
important, leading example of how to provide new water sources 
for our cities, but desalination remains expensive, energy-
intensive, and environmentally challenging.
    In central Virginia, the expansion of a nuclear power plant 
is being delayed because of limited water resources. Lake Anna 
was created in 1971 to provide cooling water for the power 
station. Over the years, the lake has become home to marinas, 
subdivisions, and a State park. As is happening elsewhere in 
the United States, changing water-use values are putting 
pressure on water for energy uses.
    Expansion of the power station would lead to water loss 
through increased evaporation, putting fisheries in the 
reservoir-based recreation at risk. This and many other 
examples make it clear that water and energy are major resource 
development issues throughout the country, both in the West and 
the East.
    One example of a broad class of technologies that can have 
a transforming impact in the last two of these areas is the use 
of inorganic membranes. Depending on the materials used, 
inorganic membranes are resistant to corrosive liquids and 
gases, even at high temperatures over 1000 C.
    In seawater desalination applications, the increased 
durability and other properties would result in less costly 
operation and maintenance and less energy-intensive performance 
could be achieved.
    At ORNL, we have been exploring ways to build inorganic 
membranes for many years. The proposed Water Technology Act 
would enable us to develop this technology. DOE's laboratories 
have a wide range of capabilities that are well suited to 
tackle the most difficult challenges at the intersection of 
energy and water. These include new information systems, 
computational models, and monitoring technology to better 
understand demands for both energy and water. New materials, 
separation methods, and sensors/controls can be developed to 
create clean water and to increase water-use efficiencies. The 
biotechnologies and nanotechnologies that are being developed 
within the national laboratories will have many applications to 
cleaning water.
    DOE's national laboratory system is an excellent place to 
center a new water technology program, because of our multi-
disciplinary nature and our ability to carry out complex 
integrated projects. We need to draw on a broad range of 
skills, not only from the labs, but also from other agencies, 
academia and industry.
    We also must ensure that the new technology that is 
developed is transferred expeditiously to commercial end-users. 
A base technology program in labs and universities, combined 
with competitive grants, will produce effective directed 
research and the opportunity to incorporate the best new ideas 
from all sources.
    Thank you, Mr. Chairman, for your commitment to providing 
reliable energy and clean water to our Nation and the world. 
The scientific community appreciates the committee's leadership 
in this area and firmly believes that the future of our Nation 
depends on continued progress in science and technology, 
including the energy/water nexus.
    [The prepared statement of Dr. Roberto follows:]
Prepared Statement of James B. Roberto, Deputy Director for Science and 
        Technology, Oak Ridge National Laboratory, Oak Ridge, TN
    Mr. Chairman and Members of the Committee: My name is James 
Roberto, and I am the Deputy Laboratory Director for Science and 
Technology at Oak Ridge National Laboratory (ORNL). My role at ORNL is 
to oversee the Laboratory's science and technology programs, including 
physical and materials sciences, neutron sciences, biological and 
environmental sciences, advanced computing, energy and engineering, and 
national security. ORNL is a Department of Energy multiprogram 
laboratory managed by UT-Battelle, LLC, a partnership of the University 
of Tennessee and Battelle Memorial Institute. It is an honor to appear 
before the Committee in support of The Energy-Water Efficiency and 
Supply Technology Research, Development, and Transfer Program Act of 
2005 (referred to here as the Water Technology Act).
    The Water Technology Act would open an important area of research 
for our Laboratory and other parts of the federal and nonfederal 
research community in the U.S. As Senator Domenici has stated, reliable 
energy and clean water are essential elements in the quality of life of 
our citizens and those elsewhere in the world. When we lack one or the 
other, our standard of living suffers greatly. We have a responsibility 
to safeguard these resources for the American people.
    With your leadership and others, we are all getting better educated 
on the issues associated with unsafe water and unreliable energy--this 
is a hopeful sign. I will not repeat more water facts here, but I have 
attached a statement from the National Laboratory Energy-Water Nexus 
Team, a multi-laboratory team that has been working for more than two 
years to highlight these issues. This attachment is a concise statement 
of the relation between energy production and water resources and of 
how science and technology can contribute to new solutions to resource 
limitations. The Energy-Water Nexus Team is a broad collaboration among 
DOE's Laboratories that I hope will continue to function within the new 
Program you are proposing.
    In my testimony today, I will concentrate on two subjects: 1) how 
energy-water issues are becoming acute in the southeastern states, and 
2) how new science can make a difference. The first point shows that 
water problems are not restricted to the western U.S. The second shows 
some of the benefits that will come from the Water Technology Act.

                  ENERGY-WATER ISSUES IN THE SOUTHEAST
    Population increases throughout the U.S. will drive demand for both 
energy and water into the foreseeable future. As energy production 
accounts for the largest withdrawal of freshwater in the U.S., the 
growing demand for energy and the need to provide water for cities and 
industry will inevitably collide over limited freshwater. The 
competition for water between energy, municipalities, and industry is 
often compounded by the need to reallocate available water to 
environmental conservation. We are seeing these types of competitive 
problems in the eastern U.S. today.
    In the introduction of the Water Technology Act, Senator Domenici 
explains how Nevada will have a population of four million people by 
2030, twice as many as in 2000. The same trends are occurring in 
southeastern states such as Georgia, where the growth rate is about the 
same. Most of Georgia's new water demand will be located in the Atlanta 
metropolitan area that is already struggling with water supply 
shortfalls. Population growth rates similar to those in Nevada and 
Georgia are occurring all along the east coast of the U.S., in states 
from Florida to Virginia. It is clear that there are water technology 
needs throughout the country and that the R&D investments in this 
proposed legislation are needed as soon as possible.
    To meet future water demand, many eastern coastal cities are 
turning to seawater desalination projects. For example, Tampa has been 
operating a seawater desalination plant since 2003 to augment its 
groundwater supplies. Tampa's reverse osmosis plant is located next to 
a 2,000-MW, coal-fired power plant, where they share a water intake. 
Tampa's experience is an important, leading example of how to provide 
new water sources for our cities, but desalination remains expensive, 
energy-intensive, and environmentally challenging. Biofouling of water 
intakes and membranes; unexpectedly high costs for construction, 
operation, and maintenance; and environmental impact of disposal of 
concentrated brines are continuing problems. These unresolved technical 
problems are delaying water solutions at other cities in the East and 
the West.
    In central Virginia, the expansion of a nuclear power plant is 
being delayed because of limited water resources. The North Anna 
Nuclear Power Station near Mineral (north of Richmond) is located on 
Lake Anna, a 9,600-acre impoundment of the relatively small North Anna 
River. Lake Anna was created in 1971 to provide cooling water for the 
power station. Over the years, the lake has become home to marinas, 
dozens of subdivisions, a state park and thousands of recreational 
users. As is happening elsewhere in the U.S., changing water-use values 
are putting pressure on water for energy uses. Expansion of the North 
Anna Power Station would lead to water loss through increased 
evaporation of cooling water (either from the cooling reservoir or wet 
cooling towers), and that water loss would put plant safety, striped 
bass fisheries in the reservoir and downstream, and reservoir-based 
recreation at risk. This and many other examples make it clear that 
water and energy are major resource development issues throughout the 
country, both in the West and the East.

                  NEW SCIENCE AND TECHNOLOGY SOLUTIONS
    Can new science, technology development, and technology transfer 
help solve these problems quicker, cheaper, or better than existing 
technologies? I am confident that the answer is ``yes''--science and 
technology can make a real difference, and in a reasonable period of 
time. A combination of improvements to existing technologies and new 
technologies that we can expect from the dramatic advances occurring 
in, particularly, the materials sciences will help us use water more 
efficiently, produce water for human use from brackish or salt water, 
and reduce and often remove contaminants from water that we return to 
the environment. Let me illustrate the opportunities for progress 
through one example of a broad class of technologies that can have a 
transforming impact in the last two of these areas, the use of 
inorganic membranes.
    Reverse osmosis membranes can be constructed out of inorganic 
materials: ceramics or metals. Inorganic membranes would be much more 
versatile than existing organic membranes. Depending on the materials 
used, inorganic membranes are resistant to corrosive liquids and gases, 
even at high temperatures (over 1000 C). In seawater desalination 
applications, inorganic membranes would have distinct advantages. They 
could be selectively designed for use in the pre-treatment stage to 
remove biofouling organisms and other contaminants, or they could be 
designed for use in later treatment stages. The increased durability 
and other properties would be compatible with cheaper and more frequent 
and repetitive regeneration methods. Less costly operation and 
maintenance and less energy-intensive performance could be achieved. At 
ORNL, we have been exploring ways to build inorganic membranes for many 
years. The new Program that would be established by the Water 
Technology Act would enable us to develop new applications that could 
make a real difference, such as portable, low-power water treatment 
packages to supply clean water to disaster victims.
    DOE's Laboratories have a wide range of capabilities that are well 
suited to tackle the most difficult challenges at the intersection of 
energy and water. These include new information systems, computational 
models, and monitoring technology to better understand future supplies 
and demands for both energy and water. New materials, separation 
methods, and sensors/controls can be developed to create clean water 
and to increase water-use efficiencies in the energy sector. Increasing 
water-use efficiencies in energy, as well as in other industrial 
sectors, is an important priority, because it will delay the onset and 
the severity of unproductive competition between energy and water 
resources. As others have mentioned, the biotechnologies and 
nanotechnologies that are being developed within the national 
laboratories will have many applications to cleaning water that we hope 
will be more energy-efficient than current technologies.
    The proposed Water Technology Program would have many important 
benefits beyond providing for domestic water and energy needs. These 
additional benefits include homeland security, increased resilience 
against climate change and variability, and contributions to 
international stability in regions of the world that suffer from lack 
of clean water. New technology to improve energy and water efficiency 
will contribute directly to improvements in the use of resources and 
protecting quality of life domestically and internationally.

      THE BEST PATH FORWARD ON ENERGY-WATER TECHNOLOGY DEVELOPMENT
    DOE's National Laboratory system is an excellent place to center a 
new water technology program, because of our multi-disciplinary nature 
and our ability to focus on challenging missions, such as this. 
However, we know that we cannot do this alone. The full spectrum of 
basic to applied research, demonstration, and deployment will be 
needed. The new water technology program should be implemented in a way 
that is needs-based and merit-based, so that funding is allocated to 
the most pressing problems and work is done by the best researchers. We 
need to ensure that we draw on a broad range of skills from Labs, other 
agencies, academia, and industry. We also must ensure that the new 
technology that is developed is transferred expeditiously to commercial 
end-users, so that we impact energy and water resources as quickly and 
cost-effectively as possible. As the Water Technology Act implies, a 
base technology program in Labs and universities, combined with 
competitive grants, will produce effective directed research and the 
opportunity to incorporate the best new ideas from all sources. This is 
a strategy that has proved successful in delivering high-impact 
outcomes in a variety of arenas.
    Thank you, Mr. Chairman, for your commitment to providing reliable 
energy and clean water to our nation and the world. The scientific 
community appreciates the Committee's leadership in this area and 
firmly believes that the future of our nation depends on continued 
progress in science and technology, including the energy-water nexus.

                               ATTACHMENT
    The National Laboratory Energy-Water Nexus Team's answer to 
Question 4 of the Senate Committee on Energy and Natural Resources' 
Water Conference on April 5, 2005: What potential exists and what 
should be the federal government's role in enhancing the available 
water supply through the development of new technologies, conservation, 
metering, more efficient storage, water banking and other water 
transfers?

ENHANCING WATER SUPPLIES WHILE ADDRESSING ENERGY NEEDS THROUGH RESEARCH 
                       AND TECHNOLOGY DEVELOPMENT
    As highlighted in recent National Academy of Science reports, 
scientific research and technical innovation will be critical elements 
in resolving the impending water crises we face nationally and 
internationally. Achieving this will require increased investment, 
coordination among many federal agencies and collaboration among 
entities at federal, regional, state and local levels. There are a 
number of different areas where research and development could enhance 
water supplies.
    Water plays many essential roles in our lives and in our economies: 
maintaining public health and sanitation, producing food, protecting 
sensitive ecosystems, enhancing recreation and aesthetics, and playing 
a critical role in industry, energy production, and economic 
productivity. All of these are potentially at risk should water 
supplies fail. The challenges of maintaining water sustainability also 
are fundamentally important both to national security and global 
stability. In observance of the 2002 World Day for Water, U.N. 
Secretary General Kofi Annan noted that ``By 2025, two-thirds of the 
world's population is likely to live in countries with moderate or 
severe water shortages. Fierce national competition over water 
resources has prompted fears that water issues contain the seeds of 
violent conflict.'' In the U.S., competition also is growing for 
limited supplies of water of sufficient quality for use by 
municipalities, industries, agriculture, water and energy utilities, 
and others, including meeting ecosystem and recreational needs. 
Insecurity over water as a powerful source for conflict is evidenced by 
37 incidents globally since 1948; but, over the same time period, water 
has been a greater force for international cooperation, including 295 
negotiated water agreements (Shiffries and Brewster, 2004). Making 
sufficient alternatives available to negotiators depends in part on 
increased scientific understanding and new technological options that 
can increase the number of alternatives for enhancing water supplies to 
balance demands from competing water users.
    A particularly important place for science and technology 
investment is at the energy-water nexus. The needs for both energy and 
water are expected to grow substantially over the next 25 years, and 
while the separate challenges arising from these projections are 
recognized, little attention is given to the fact that the future of 
one of these resources may be compromised by a failure of the other: 
insufficient or too costly supplies of water can cripple energy 
production; insufficient or too costly energy can cripple water 
supplies. A stable U.S. energy portfolio requires adequate and 
dependable water. According to the USGS, electricity production from 
fossil and nuclear energy requires 190,000 million gallons of water per 
day, or 39% or all freshwater withdrawals nationally. In other words, 
U.S. households indirectly use as much or more water turning on the 
lights and running their appliances as they use directly for bathing 
and watering their gardens. Conversely, water pumping, treatment and 
conveyance use large amounts of energy, equivalent to energy used by 
the paper or refining industries, about 75 billion kWh/yr or 3% of 
national energy consumption. In the west, energy use for water is even 
higher: about 7% of California's electricity is used for water pumping 
and as much as 25% of electricity use is water-related (Gleick et al., 
2004).

      TARGETING RESEARCH AND DEVELOPMENT AT THE ENERGY-WATER NEXUS
    Energy-water linkages result in synergies for research and 
technology efforts at the energy-water nexus. Increasing efficient use 
of energy effectively extends both water supply and energy supply; more 
efficient use of water effectively likewise enhances supplies of water 
and energy. There is a clear need for research and technology to 
develop a better understanding of the energy-water nexus and to find 
the innovative technological solutions needed to address the challenges 
at this critical junction. Such efforts should include energy-efficient 
technologies for treating and using impaired water sources, scientific 
and technologic advances to reduce water usage in power generation, 
reuse of waters used or produced in energy resource recovery, and 
improving energy efficiency in water pumping and conveyance, as well as 
a long list of other areas that will result in more efficient or 
decreased use of water and energy.
    Water acquisition, management, movement, distribution, purification 
and post-use treatment are large users of energy (Anderson, 1999). 
Water sector energy demand also likely will substantially outpace 
growth in other high-energy use sectors. Increasing water demand, 
shifts to water reuse and recycling, more use of impaired water 
sources, tapping of deeper groundwater sources, and increased water 
storage and transport will significantly increase future energy demand. 
Energy demand for treatment and conveyance of freshwater supplies is 
increasing due to deteriorating infrastructure (American Water 
Resources Association, 2005), increased awareness of harmful natural 
constituents such as arsenic (Bitner, 2004), introduction of new 
contaminants into the environment (e.g., endocrine disruptors, 
disinfection byproducts), and concerns over soil salinization and 
depletion of groundwater (Lawford et al., 2003; McGuire et al., 2003). 
Addressing these factors will require long-term commitments of 
significant resources to research, develop, demonstrate and deploy 
water treatment technologies that can improve efficiencies for removing 
traditional compounds as well as treat an ever-growing number of new 
contaminants. Such research should include development of new energy-
efficient and selective materials for membranes, ion exchange resins 
and filters, innovative processes for desalination, and improved 
processes for handling concentrate waste streams.
    With inclusion of freshwater and saline water withdrawals for 
thermoelectric and hydropower, the energy sector is the largest water 
use sector. While these withdrawals are not completely consumptive, 
enough water still must be available to ensure sustainable energy 
production. With the exception of some renewable energy sources, and 
regardless of fuel sources, our electricity production is dependent on 
water supplies (Electric Power Research Institute, 2002; Brocksen et 
al., 1996). Additionally, much of our energy fuel production is 
dependent on adequate water supplies to obtain and process fuels (Wolff 
et al., 2004). Energy resource recovery and processing also create 
large volumes of wastewater that require treatment for reuse or 
disposal (Gleick et al., 2004). Future sources of energy such as coal 
liquefaction or gasification, biomass, and hydrogen will place new 
demands on water resources.
    Many factors are driving the current condition of increasingly 
strained water resources toward a severe water crisis, translating to 
negative results for the energy sector. Nationally, population is 
growing most rapidly where water is least available. Internationally, 
in addition to the water needed for growing populations, tremendous 
amounts of water will be needed to modernize urban centers and 
industrialize the developing world. Freshwater supplies are dwindling 
due to extended droughts in parts of the U.S. and in other countries 
throughout the world (Hirsch, 2004). Water will be foremost among 
resources affected by long-term trends in regional and global 
temperatures or other manifestations of climate change.
    All of these factors will contribute to increasing difficulties for 
the energy sector to obtain the water it needs for existing plants and 
for future expansion. Newspapers from throughout the country 
increasingly are reporting that drought, increasing competition among 
user groups for existing water supplies, and fears of negative impacts 
on ecosystems are causing denial of permits for new thermoelectric 
power generation or restrictions on existing electricity generation. 
For example, the Salt Lake Tribune reported that the drought now 
impacting the western U.S. has reduced hydropower production at Glen 
Canyon Dam by 25 percent, reducing output to just 124 megawatts out of 
165 megawatts of power capacity. Drought has also reduced hydropower 
output from numerous smaller projects throughout the state, lowering 
revenues for hydropower producers and making electricity more expensive 
for many of Utah's households. In Lassen County in northern California, 
concerns over water are causing residents and conservationists to 
oppose construction of a 1400-megawatt coal-fired power plant planned 
across the state line in Nevada. The plant would produce cheap 
electricity at 2 cents per kilowatt-hour compared to 5 cents per 
kilowatt-hour for gas-fired plants, however, experts think that the 
16,000-acre feet of water per year needed for the plant greatly exceeds 
sustainable withdrawals from the area's water resources. In both cases, 
water shortages result in increasing costs and decreasing supplies of 
electricity. In central Virginia, near Mineral, a siting permit to 
expand the North Anna Nuclear Power Station is being contested due to 
concerns over water. Lake Anna, a 9,600-acre river impoundment, was 
created in 1971 to provide cooling water for the North Lake Anna 
Nuclear Power Station. Over the years, the lake has become home to 
marinas, dozens of subdivisions, a state park and thousands of 
recreational users. The siting permit has encountered significant 
resistance from other water users, residents and environmental groups 
over the impact of reducing lake levels, especially during droughts, 
and the resulting risk to plant safety, as well as the impacts on 
aquatic species and recreation from impingement, entrainment and 
thermal discharges from expanding the facility.
    There are also energy implications resulting from choices in water 
resource utilization. For example, in California, where power shortages 
recently necessitated rolling blackouts and other extreme power 
conservation measures, water constraints are pushing industries and 
power plants to shift to wastewater reuse and recycling. Because energy 
as well as water may be limiting factors, the future availability and 
cost of the additional energy that will be required for wastewater 
treatment and conveyance should be considered in conjunction with the 
cost and availability of various water source alternatives, or 
switching to other options such as dry cooling or other low water-
intensity power generation such as solar and wind power. The cascading 
blackout that temporarily devastated many parts of the economies of 
regions in the Northeast and Midwest several years ago also resulted in 
suspension of Cleveland's water supply because electricity was not 
available for pumping stations. Future city planning is likely to 
consider a mix of energy resource alternatives or back-up generators to 
increase the reliability and security of both energy and water systems. 
Decision analysis and systems tools that allow coupling the energy and 
water sectors are critical for such integrated planning.
    Problems at the energy-water nexus are national in scope but there 
are profound regional differences in water issues and energy sources 
that dictate solutions be fit to regional and local needs. Water 
scarcity is most obvious in the arid West where surface water 
withdrawals are maximized and groundwater pumping rates exceed natural 
recharge rates, but even in the more humid Eastern states, limited 
storage, groundwater level declines, salt water intrusion and depletion 
of stream flow needed for aquatic ecosystems are common problems (NSTC, 
2004). The benefits from new investments should be maximized by 
focusing on technologies that can be deployed nationwide by virtue of 
their adaptability to a variety of regional water resource scenarios.
    Investment should also be made in a process to ensure that the 
technologies created through energy-water research and development are 
deployed successfully to end-users. Components of such a process should 
include technology innovation, research and development, pilot testing 
and assessment, technology transfer and commercialization, and 
concurrent studies of the economic and policy constraints that may 
impede regulatory and public acceptance. To be successful, a new 
technology must be economically viable, environmentally acceptable, 
should be easily integrated or substituted into existing infrastructure 
or processes, and comply with all applicable laws and regulations.

                                SUMMARY
    As highlighted in recent National Academy of Science reports, 
solving the national challenge of sustainable water and energy supply 
will require a coordinated and concerted investment in science and new 
technology development. There is an urgent need to increase research 
and development efforts to create science-based solutions to water-
related constraints on future energy supplies and energy-related 
constraints on future water supplies. Over the last decades, there have 
been investments in some water related areas, such as groundwater 
cleanup and environmental restoration, fossil energy produced water 
management, thermoelectric power efficiency, and in-home water and 
energy efficiency. All of these efforts individually fall within the 
energy-water overlap, but more integration and coordination is needed 
to provide a foundation for broader research and technology development 
specifically targeted to cover the scope of the nexus between national 
energy and water supply needs. Science and engineering expertise to be 
tapped include high-performance, high-resolution computer simulation 
capabilities, advanced sensors and controls, separations science 
including advanced materials development, impaired water treatment and 
water reuse technologies, improved water and energy efficiency 
technologies and systems, technology testing and demonstration 
facilities, tools for integrated analysis of complex interdependent 
systems, and tools for decision-support analysis and visualization. 
Finally, a regional approach to water resources is needed, so that new 
technology development is matched to local and regional needs and 
priorities. Regionally based efforts should foster cooperation among 
national laboratories, universities, other federal agencies, private 
industry, state and local agencies to target the most pressing national 
and regionally cross-cutting priorities. Creation of strong regional 
public/private partnerships that engage federal, state and local 
decision makers must be a key part of any solution.

    The Chairman. Thank you very much. Senator Bingaman went to 
vote, as I indicated, and he will probably return. Senator 
Salazar is here now. And Senator, we're going to start 
questions. These are the four panelist that have just spoken. 
If you have any questions, I'll give you a turn shortly. If you 
would like to make an observation regarding the hearings, you 
are free now to do that, whichever you prefer.
    Senator Salazar. I'm here just to support the committee and 
the chairman.
    The Chairman. All right. Let me just make an observation 
for a moment. There's no doubt in my mind that our country has 
grown used to waiting until a crisis before we do anything and 
I'm very worried on many fronts as to what's going to happen 
because of that. This is one of those.
    Second, I'm very concerned that we spend a lot of our money 
on things that are not going to take care of our future. And 
somehow we have to get out of that ethic some way, and spend 
some money on some things that apply to our future. I have many 
Senators on this committee and I'm so pleased they're here 
because they feel the same way.
    The Senator on my right feels that we're spending far too 
little on things we chose to call hardware, tangible things 
like new technology for water and the like. And we try to find 
money someplace. My worry is that we'll pass this bill--because 
if we work at it, we will--and then where do we get the money 
to do it? And it just won't happen, just because we wrote it.
    Having said that, Senator Craig, you will know these four 
are the first panel. We're finished with their testimony. I 
will start with questioning, followed by Senator Salazar, then 
you.
    So let's start with the representative of the Federal 
Government. Mr. Faulkner, you stated in your testimony that the 
appropriate Federal role in water supply and distribution is 
providing appropriate scientific and technology support for 
these efforts.
    Do you believe that S. 1860 generally promotes the Federal 
role articulated in your testimony as representative of the 
administration's position?
    Mr. Faulkner. Sir, I think there's widespread agreement, as 
you said, that the energy and water nexus is an important 
issue. We do believe there's an important Federal role to play 
in research and development on energy/water related 
technologies, as well as in the laboratories.
    Our laboratory systems have unique capabilities to bring to 
bear on that, to accomplish that mission. We do think that 
there are some specific things about the legislation, as I said 
in my testimony, that we have some concern about, mostly about 
providing sufficient flexibility to the Secretary of Energy.
    The Chairman. All right. You stated in the testimony that 
S. 1860 appears to leave out the private sector and its key 
role in the research and development, demonstration and 
commercialization.
    S. 1860 provides that at least 30 percent of the funding be 
made available for non-Federal competitive grants and provides 
for the private sector to be a full advisory panel member. 
Could you tell us, is this what you mean by excluding the 
private sector, or do you mean this is not enough for the 
private sector?
    Mr. Faulkner. I believe the latter, sir, would be my view. 
I think public/private partnerships in research and development 
are really the bedrock of what at least my office does, at the 
Department of Energy. Getting the private sector in early in 
research and development is critical to the development and the 
commercialization of those technologies.
    The Chairman. As I understand it, much of the DOE's water 
resources research has been done within the Office of Science, 
which focuses on basic research. And it's my belief that we 
should promote more applied research. What other offices within 
DOE should be brought to bear, if any, in carrying out S. 1860?
    Mr. Faulkner. As much as $20 million in research and 
development across the Department is on water-related topics. 
That's in the nuclear energy area, the energy efficiency area, 
the fossil energy area. And then there's some work going in my 
office also in terms of Federal energy management. They've been 
looking at water issues, reducing water use in Federal 
facilities for many years.
    And then we also have our Energy Star program, which looks 
at setting criteria for reducing water use. So there are a 
number of different parts of the Department engaged in this, 
and the technologies they pursue are important to this area.
    The Chairman. I have some other questions, but I want to go 
to Dr. Shephard, and then yield to the other side.
    Dr. Shephard, what unique research capabilities do you 
think Sandia Laboratories should or could bring to bear to 
carry out the purpose of S. 1860?
    Dr. Shephard. As you know, the Sandia National Laboratories 
has been, since its inception, a science-based engineering 
laboratory. We have a very strong industrial heritage that 
dates back to Bell Labs and AT&T and Western Electric. Those 
two attributes have continued through to this day.
    I believe that an important and--a very important aspect of 
this particular legislation is to assure that we remain focused 
on a systems perspective that allows us to understand how the 
various elements associated with research, development, 
application and commercialization are tied together from 
basically fundamental research and the investments that this 
country is making in a facility like Sandia, relative to our 
Center for Integrated Nanotechnology and our Microsystems and 
Engineering Science Applications facility, all the way through 
to the other end of the spectrum, which really relies very 
highly on probabilistic risk assessment methodologies and 
capabilities.
    When one couples that with our direct engagement with 
industry--and by all metrics, Sandia has traditionally led the 
Department of Energy complex in terms of technology transfer, 
in terms of patents, in terms of CRADA, in terms of moving 
technologies into the private sector--that sweep from systems 
engineering to basic research and development to a strong 
industrial heritage collectively contribute to provide Sandia 
the right set of capabilities for this.
    The Chairman. I have additional questions, as I do of the 
other laboratories, but I'm going to now yield. If I don't get 
time, I'll submit five or six questions to each of you.
    Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman. Let me 
ask about an issue. I guess I'll start with Dr. Shephard, since 
I know that you folks at Sandia have been focused on this. 
Maybe some of the other witnesses also have.
    The biggest problem that I hear about--and I'm sure Senator 
Domenici hears about it regularly, as we travel around New 
Mexico--is this problem of arsenic in the water. Of course, 
we've established a requirement that all of these municipal 
water systems meet a very, very high standard. I think it's 10 
parts per billion of arsenic. It used to be 50 parts per 
billion, then it was determined that that still was unsafe, and 
now it's 10 parts per billion.
    I know there's some research going on at Sandia about how 
to deal with this arsenic problem in a cost-effective way, and 
what kinds of technologies would assist in doing this. Could 
you give me an update on where that stands, whether there's any 
sort of comprehensive effort, or is this just sort of something 
that a few people are interested in, or----
    The Chairman. Dr. Shephard, would you please hold. Senator 
Bingaman, would you yield to me for just one moment? Senator 
Bingaman, starting back about 3 years ago, we started funding, 
and through Sandia's special efforts, they're getting very 
close to having a special institute that would be directed at 
this.
    But in the meantime, there are three laboratories, mobile, 
set up for arsenic research elimination. One is in Albuquerque, 
and I can't remember the other. And actually they are looking 
at three or four, five different technologies. They haven't got 
one that they can say is ready yet, and everybody here should 
know, I've talked with Senator Craig about it, you should know 
Senator, the deadline for meeting the standard is January of 
this coming year. And it's a very enormous problem, because 
most of them can't meet it. Albuquerque can, Senator, because 
they mix water with what they've minimized arsenic in the 
previous pool.
    I think he's going to explain in your answer what they're 
doing, and I would tell you that if we can keep it going for a 
while, we're going to find some terrific answers, but we have 
to be very worried about what happens the next couple of 
months. I will share with you and the committee what I think 
are some ways to get some help, but I don't have a way right 
now.
    Thank you. Excuse me for interrupting.
    Senator Bingaman. Sure.
    Dr. Shephard. Yes, sir, Senator Bingaman, and Mr. Chairman, 
Sandia has been actively engaged, as Senator Domenici has 
indicated, for a number of years, and actually looking at 
various technologies that you're aware of as well for 
addressing this particular problem. It is a widespread, 
ubiquitous set of issues for the Southwestern part of the 
United States, but other areas as well around the country.
    We have recently--in fact, as recently as the last 2 
weeks--convened an outreach program where we have brought 
together leaders from the various communities around the State 
of New Mexico explicitly to try to engage them and understand 
their specific needs and issues in terms of meeting the 
particular compliance requirements that, as the chairman has 
indicated, come into effect in January of next year.
    We are looking at the development of a pilot plant. Rio 
Rancho, New Mexico actually is actively engaged in 
commercialization-related activities as an end user, again, to 
provide feedback to our researchers internal to the laboratory 
to see what actual processes are most effective and most cost-
efficient overall in terms of treating locations and 
communities the size of Rio Rancho, to those much smaller 
locations which have similar problems in other parts of our 
State.
    Senator Bingaman. Thank you very much.
    Let me go to Mr. Faulkner with a question. You know, one of 
my pet peeves all along is it doesn't seem to me we have a very 
well structured system for monitoring developments in other 
countries that deal with some of these issues. I don't know 
what we have in the Department of Energy that focuses on this 
set of issues. You know, the need for ensuring water quality in 
particular, is much greater in many of the Third World 
countries than it is even in our own. And I know there's a lot 
of work going on in some of these other countries to try to 
deal with that problem, to try to solve that problem.
    Do we have any systematic way in the Department of Energy 
of tracking what other countries are doing, what the level of 
progress is, and their technology development?
    Mr. Faulkner. I don't know for sure, Senator, but my guess 
would be no. But what I'd like to do is go back and check on 
that and insert that for the record if that's okay.
    [The information follows:]

    The Department of Energy does not have a systematic way of tracking 
what other countries are doing in the field of ensuring water quality, 
nor are we aware of other agencies conducting such work.

    Senator Bingaman. I would appreciate that. It seems to me 
to make a lot of sense for us to do it. This is not just a 
United States problem. None of these are just United States 
problems. To the extent that we can come up with solutions, we 
need to share them with the rest of the world. To the extent 
that someone else comes up with solutions, we need to steal 
them, or borrow them, or whatever you want to call it. We need 
to take advantage of those solutions is the point I'm trying to 
make.
    There is one other question I wanted to ask. My 
understanding is the White House Office of Science and 
Technology was working on a comprehensive research plan to 
support fresh water availability. Mr. Faulkner, do you know 
when that plan is due out? Is that something that you're 
familiar with?
    Mr. Faulkner. Yes, sir. They've issued one report already, 
which is outlining sort of the bigger broader issue. They are 
working on finishing up another report, the one you're 
referring to, I think. But they're looking at six challenges 
and I'm told that will be early in this coming year. And then 
there's a third one following that, that they've only started 
conceptualizing. But the one I think you're talking about will 
be early in 2006.
    The Chairman. Senator Salazar.
    Senator Salazar. If I can just make a quick comment about 
your legislation, S. 1860. First, I think that all of the labs 
that you've identified there are wonderful labs that add 
tremendously to the technology and research of our country--
Sandia, Lawrence, and Oak Ridge Laboratory.
    And I think the subject of the bill with respect to water 
efficiency and technology is something that we have not given 
enough attention to. And so I'm just delighted to be in support 
of your bill, and I offer to co-sponsor your legislation and to 
help you get it through.
    The Chairman. Senator, would you mind, maybe we've already 
asked you, but check and have your staff communicate with us, 
if you have the arsenic problem in your State.
    Senator Salazar. There is indeed an arsenic problem in many 
of the communities in the southern part of Colorado. The town 
of Alamosa has probably 5,000 to 6,000 people in its population 
and they know they have to deal with the standard and the 
deadline and have had to spend millions of dollars trying to 
figure out what the solution is to meeting the arsenic 
standard.
    In fact, I think, from a water rights and water quality 
point of view, there are solutions available to the community 
that probably could be implemented at 1/100th of the cost, if 
it was only allowed to happen. But the arsenic issue is 
something that many of the communities in Colorado are very 
concerned about.
    The Chairman. Well, Senator, I think the same thing you 
just said applies to a lot of places. They need a little more 
time to find these alternatives. They're not going to find them 
by January, from what the experts have told me. I think we have 
to work collectively to see how we can ask in a reasonable way 
for an extension, and we're working on it, and we'll invite you 
to join us. Senator Bingaman's staff is in on it, Senator 
Craig's, and we'll ask other members.
    Senator Salazar. I'd be happy to help.
    The Chairman. Now we're going to yield to Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, first and foremost, thank you 
for your attention to this. I think the energy/water nexus is 
critically important. You talked about arsenic and you and I 
have had numerous conversations about that already. I don't 
know how many communities we have in Idaho, but the geology of 
Idaho, without question, says we've got arsenic, and we have it 
at much higher levels than even the scientists would agree is 
healthy and yet we have a very healthy population. In fact, it 
is interesting that Idaho--well, you know, the interesting 
thing, Senator Bingaman, is that Idaho--Idaho and Utah have 
some of the longest living people in the country. Maybe it's 
because of--instead of. I'm not sure.
    But anyway, beyond the reality is the reality, and the 
reality is we've got a law that many of our communities are 
trying to comply with, and can't get there. It's obviously very 
important that we extend time, but in extending time, get the 
technologies to them. The Senator and I--the chairman and I 
have also had conversations about a new treatment facility that 
is a spin-off from an incubator at the University of Idaho, 
that is now a standup company that is stripping additional 
phosphates out of the water and is doing very well, and is 
doing the heavy metals and arsenic very successfully.
    So there are technologies coming and developing, but I will 
simply get my oar in the water and suggest there is another 
fine and leading laboratory that happens to be in the mountain 
west, and that is important. And a great deal of work is going 
on at INL, and they've worked collaboratively with Sandia and 
Lawrence Livermore and others, as we work on this issue from 
hydropower engineering, geothermal generation, and of course 
nuclear.
    Idaho, and its laboratory, is unique in one respect. It 
sits on the world's largest active aquifer at the moment and is 
working cooperatively with all of the water interests of Idaho 
in that capacity.
    One of the areas also, as we look at nuclear hydrogen, the 
nuclear/hydrogen nexus, is the ability to reduce the amount of 
water necessary to generate nuclear power and hydrogen as we 
begin to rely increasingly on a finite resource in the West, 
maybe to provide the next generation of surface transportation.
    Obviously, that technology is part of what we're doing in--
and moving forward. But we've led in a couple of other areas 
that I think very well--the biochemical science of water. A lot 
of work has gone on in Idaho on that issue.
    And of course, the one that I think is working extremely 
well--when I was a freshman Senator, I was sitting on a tractor 
on a farm in Idaho, that was an INL tractor. I didn't know 
there was such a model. Actually, it was a John Deere tractor, 
but it had a national laboratory sign on it. And we had 
installed it with a GPS, and a program in which we were 
applying fertilizer to pieces of a field necessary to test the 
soil in the field, and the GPS was guiding us in doing that. 
The Idaho lab, along with these farmers, were pioneers in that 
which has now become a somewhat standard application in the 
area.
    But it not only increased production, it reduced the 
overall amount of water used, the amount used growing the 
crops. Better known as the whole crop utilization approach, 
that really is again a part of a very successful effort. So I'm 
very supportive of S. 1860, but for one small amendment. Thank 
you, Mr. Chairman.
    The Chairman. The problem is, that one amendment will yield 
another amendment, will yield another amendment, and we'll 
probably have to take all of them out.
    Senator Craig. That sounds also reasonable.
    The Chairman. We're speaking of the laboratories, 
obviously, in any event. Let's move ahead.
    Senator Martinez, did you have something?

         STATEMENT OF HON. MEL MARTINEZ, U.S. SENATOR 
                          FROM FLORIDA

    Senator Martinez. Sir, I appreciate very much you calling 
this hearing. And thank you, Ranking Member Bingaman. I believe 
it's a problem that our Nation faces. Certainly, the State of 
Florida very much faces this issue. It is one that is of great, 
compelling importance to us, as we grow as a State.
    You know, Mr. Chairman, the State of Florida in the next 
census is anticipated to surpass New York and be the third 
largest State of the Union. As that occurs, about 1,500 new 
people each and every day make Florida their home, and as they 
do, the demands for water in our State are dramatically 
increasing. So we are very concerned.
    I have a fuller statement that I would like to make a part 
of the record, if you don't mind, sir, but I just believe that 
it is important that we look at ways in which we can provide 
for agriculture, for consumption by new residences, and for 
business users, as well as for environmental protection.
    We have in Florida the tremendous environmental issues 
relating to the Everglades and Lake Okeechobee, which is a 
large body of water, but controlling that flow of water and 
maintaining the comprehensive Everglades restoration program, 
which requires an awful lot of water, are issues that concern 
us greatly.
    We have some utility entities in Florida that are looking 
to begin operation of desalination plants, but still don't find 
it cost-effective, because of the high cost of energy 
associated with that. And I just wondered if, in the research 
that any of you may be doing, or in the work that you're seeing 
others do, there is any anticipation on the horizon of how we 
can make cost-efficient the desalination of water?
    Dr. Roberto. I would like to take at least one brief shot 
at that. At Oak Ridge we've been working for a very long time 
on inorganic membranes, which could also be used in the reverse 
osmosis process. The difference is that these membranes are 
more robust, they can operate at a much higher temperature, and 
they have other properties, such as being much more resistant 
to corrosion.
    As a result, we believe that these membranes have the 
potential to lower the energy cost, lower the maintenance cost 
and increase the out time of these plants. And this could be 
one technology breakthrough that could help make the difference 
in those plants and others around the country.
    Senator Martinez. What is the horizon of that kind of 
research, that kind of breakthrough?
    Dr. Roberto. We know how to make the membranes now. The 
technology of applying them on that scale has not been 
developed. And so I think we're talking about a time scale in 
years, not a time scale in the next few months. But I think it 
is--as you know, a lot of coastal cities in the United States 
are looking very seriously at desalination now, and I think 
that this will be a key technology that will be considered in 
that process.
    Senator Martinez. Any others?
    Dr. Long. At Lawrence Livermore, we are also working in the 
area of desalinization, both in the electrostatic desalination 
technique, which is like electrodialysis, like an artificial 
kidney. And as well, our previous technology in this area, took 
a few years from benchmark to success. So I think it is a 
similar timeframe.
    As I mentioned before, we're also looking at selective 
membranes where Livermore's computational ability is being used 
to actually design the way the membrane works to target only 
the contaminants that you want to remove, so that you're not 
spending the energy on contaminants that you don't want to 
remove.
    And I think this is in an early stage, but it's very 
promising in terms of potential efficiency.
    Senator Martinez. That's great.
    Dr. Shephard.
    Dr. Shephard. If I may make a comment or two. In 2003, 
Sandia, along with several other agencies, jointly prepared 
what is called the Desalination Technology Roadmap, which is 
really an attempt to bring focus from a variety of different 
perspectives on a systems approach as to those innovative 
technologies that in fact must be invested in over the course 
of the next 20 years to address exactly the types of problems 
that you are finding in Florida today.
    This first roadmap in 2003 is now being updated with 
interactions with the Bureau of Reclamation, with the America 
Reuse Water, and the American Association of Water Users, 
collectively, and with the input from the National Academy of 
Sciences, to ensure that the five or six key objectives that 
must be met to address the problems being encountered in 
Florida and elsewhere, not only in this country, but elsewhere 
in the world, in fact are being addressed. And there is a 
direct linkage between the basic fundamental research that Dr. 
Roberto and Dr. Long have explicitly discussed, relative to 
their laboratories, work that's going on at the universities as 
well, to address this larger systems approach toward this 
particular problem.
    Senator Martinez. Thank you, Mr. Chairman.
    The Chairman. Senator, might I say, on many fronts, the 
United States has finally gotten on the bandwagon of trying to 
desalinate, in funding--putting some real money in for a 
change. I regret to tell you that, in my opinion, the lead 
money is being put in by the U.S. Navy, and it sounds kind of 
wild, but actually when you think about it, they really--they 
need to desalinate and have emergency equipment of large 
capacity. The most active major project is a U.S. Navy project, 
and it happens to be going on on a desalinization pond in New 
Mexico, very dry country.
    But nonetheless, they're putting it together and they're 
making headway. But they're right. It's a----
    Senator Martinez. You know, Senator, a little historical 
note about the Navy on that is Guantanamo Naval Base in Cuba, 
in the early 1960's, when our era of confrontation with Mr. 
Castro began, the water used to come to the Navy base from Cuba 
and it was cut off. And we, in a matter of a few days, put 
together a desalination plant there that still operates to this 
day. And so I guess that's where they got their beginning on 
that, I suppose.
    [The prepared statement of Senator Martinez follows:]
   Prepared Statement of Hon. Mel Martinez, U.S. Senator From Florida
    Mr. Chairman and Senator Bingaman, I want to thank you for 
willingness to hold this important hearing today. The Full Committee 
will hear testimony from water utility operators and representatives 
from our National Laboratories on a crisis that I believe is looming on 
the horizon--the availability of drinking water.
    Drought, increasing population, and competing demands from 
business, agriculture and the environment for limited water supplies 
has taken us to the brink. The economic, social, and environmental 
consequences of a water supply crisis are not local or regional in 
nature. Most experts, including the Department of the Interior, agree 
that large portions of the Untied States are facing a water supply 
crisis of potentially immense proportions as our population continues 
to grow and few new sources of water are developed. It is a national 
problem and I believe that it demands the attention of Congress.
    There is a critical shortage of water in Florida, because of the 
lack of access to waters that flow into the Everglades and the 
explosion in the state's population. The state of Florida consumes over 
8 billion gallons of freshwater a day, with 92 percent of it coming 
from aquifers and we are starting to run out of a once unlimited supply 
of water. It has been estimated that over 1,500 people a day move to 
Florida, which is putting an ever increasing strain on limited supplies 
of potable drinking water. In the next U.S. Census, it is expected that 
Florida will surpass New York as the third most populous state with 
over 21 million people. Complicating these problems for communities in 
Florida, is meeting their drinking water needs and carefully managing 
the levels of water in Lake Okeechobee in order to comply with the 
requirements of the Comprehensive Everglades Restoration Program 
(CERP); the largest ecosystem restoration recovery effort in our 
nation's history.
    It is my belief that the answer, in part, to averting future water 
supply crises and ensuring that water is available to families, farms, 
and businesses lies in desalinating seawater and brackish surface and 
groundwater and making that water available for municipal and 
industrial uses.
    To meet these challenges I introduced S. 1016, the Desalination 
Water Supply Shortage Prevention Act to encourage the development of 
environmentally sound and economically feasible desalination projects. 
I am proud to say that my colleague from California, Senator Feinstein, 
announced her support and has agreed to cosponsor this legislation.
    It will provide energy assistance grants to qualified entities such 
as local water agencies and public utilities in the amount of 62 cents 
per 14 Kilowatt Hours of electricity consumed by the facility for the 
initial ten years of a project's operation. 14 Kilowatt Hours in the 
amount of electricity needed to desalinate 1,000 gallons of water. The 
rationale for this approach is that while the cost of desalinating 
water has dropped dramatically over the last decade, the energy costs 
associated with desalination are still quite high. Waiting for the cost 
of desalination to go down is a luxury that, in my opinion, we cannot 
afford. A modest investment to jump-start the development of these 
projects today is the most prudent alternative.
    It is true that the approach suggested in my legislation is 
different from the traditional approach of providing construction grant 
funds. That difference is intentional. First, while the availability of 
energy assistance grants will encourage the development of desalination 
projects, these grants will be performance based. These facilities will 
not receive assistance until they are actually constructed. Under this 
legislation, only the very best projects that received all of the 
required permits and environmental approvals will get built by local 
sponsors and only those will receive financial support.
    All over the nation we have municipalities, cities, and utilities 
with the capability of making desalination from brackish water and 
seawater on a large-scale. Florida has historically been a leader in 
the development and use of desalination technology. I am happy that Jim 
Reynolds, Executive Director of the Florida Keys Aqueduct Authority, 
has come a long way to testify before this Committee on the importance 
of providing meaningful assistance to make desalination a viable 
alternative for cities struggling to meet their water needs.
    I want thank you again, Chairman Domenici, for your leadership on 
this issue and bringing water policy into a more prominent role for 
this Committee. Although we have different proposals to promote 
desalination, our objectives are the same. As our urban areas continue 
to grow, we must make a commitment to meeting our water infrastructure 
needs. I am committed to working with the Committee and our nation's 
scientists and water utilities to find solutions to the urgent lack of 
drinking water.

    The Chairman. Last Senator. Senator, you've got your 
laboratory here. Do you have any questions?
    Senator Alexander. Of course, Mr. Chairman. I want to begin 
by thanking you for putting the spotlight on the relationship 
between energy and water. And of course, I'm delighted that Dr. 
Roberto is here representing the Oak Ridge Laboratories, as 
well as representatives of the other distinguished 
laboratories.
    We've been talking a lot around here about clean energy, 
and I heard Senator Craig talking about it as well. And unless 
you've already discussed this, one of the things I've been 
impressed with about the Oak Ridge Laboratory is its ability to 
be a lead laboratory, that is to work with other laboratories, 
other universities and tackle a project. Neutron sources is a 
great example of that.
    But on the energy and water relationship, I've just got one 
question to any of you, but maybe I'll start with Dr. Roberto. 
What can you say to me about the importance of this research 
and development on the relationship of energy and water to our 
ability to produce the clean energies that we must have?
    I think those of us who are here right now all agree that 
the only way is to produce large amounts of clean energy, 
carbon-free energy in a reliable way. The amounts we need right 
now are nuclear and coal. And how will this research and 
development accelerate our ability to produce larger amounts of 
carbon-free, and low-emission energy from those two sources?
    Dr. Roberto. I think that what we understand is that clean 
coal and nuclear are very intensive water users. And so 
research of the energy/water nexus is very important in terms 
of trying to develop those technologies in a way in which we 
use the water most efficiently.
    When you get into cleaning the coal, whether it's removing 
the sulfur and nitrous oxides, or dealing with other emissions, 
you will find that those technologies are water intensive. And 
we need to develop new technologies that can do this more 
efficiently and use less water. I think one of the 
opportunities of this R&D effort is to make those new 
technologies that we're going to need for clean energy for the 
future more attractive and make them possible, because we will 
be using water at a rate that is sustainable.
    Dr. Long. I would like to add a little bit to that. As we 
begin to look at the energy/water problem, we need to look at 
the whole spectrum of energy/water problems as a system, as Dr. 
Shephard has pointed out. And one of the areas that I think 
will be fruitful for examination is what water you use for 
what.
    For example, we don't necessarily require as much for 
cleanliness as water for cooling, for power purposes, as we 
might use for drinking water. And to look at the whole system 
and to maximize the amount of water that's available for 
drinking and what quality that needs to be, versus what kind of 
quality you might need for other industrial and important 
energy uses is going to be part of the problem.
    The whole system involves more than energy and water. It 
also is linked to climate. As we produce the energy and the 
climate is affected by the energy use that we have, we have 
increased dryness, requiring more energy. So the system is very 
self-reinforcing. And to interrupt this cycle, we're going to 
have to be much more clever about how we manage that as a 
system.
    Dr. Shephard. The comment I would have is I'd go back to an 
earlier remark that this Nation responds well to crisis, and 
crisis management. And as I look back over 30 years, when we 
had the first oil embargo, of course, through the efforts--the 
sustained leadership, in fact--of this committee, we now have 
an energy policy act that was signed in August of this year.
    I believe we are at this same junction, relative to how we 
address the issues associated with water, and its coupling with 
advancements of technology in the commercialization process.
    One of the appealing aspects, I believe, of the current 
proposed legislation is, in fact, that strong focus on the 
coupling of commercialization with the initial concepts of 
research that must go on so that, in the longer run, that 
becomes much more effective and much more efficient, 
specifically to allow us to address the types of issues that 
you've pointed out in terms of climate change, and in terms of 
impacts to carbon emissions and greenhouse gas emissions.
    At the same time, it's important to recognize that as part 
of the review of our desalination roadmap, the National Academy 
of Science has explicitly identified your point: that unless we 
go forward and find other ways to reduce the release of carbon 
and greenhouse gases as part of this process of generating new 
supplies of water, we are not doing ourselves, as a society, 
the type of benefit that we deserve, so we can't leverage the 
investment that we need.
    Mr. Faulkner. Sir, I see you're out of time, but do I have 
time for a comment?
    The Chairman. Yes, you do.
    Mr. Faulkner. You're absolutely right, that to get the big 
amounts of power quickly, coal and nuclear are what's on the 
table now, but we should not lose sight of the fact that down 
the road, technologies like solar and wind can be used for 
desalination or producing power without a reliance on the heavy 
use of water. So it's important to keep our eye on that ball, 
too, as we go down the road.
    The Chairman. Very good point. Anybody else have anything 
here? I'm going to submit some additional questions to all of 
you, but before we let you go, Mr. Faulkner, S. 1016, with 
reference to the Florida Keys Aqueduct Authority, you commented 
on that briefly, indicating that the administration did not 
support it and you stated why; is that correct?
    Mr. Faulkner. I commented in general about the subsidy, 
sir.
    The Chairman. Yes, sir. What if there was a construction 
assistance, instead of subsidy, would that deserve another 
look?
    Mr. Faulkner. It could, sir. I don't know if I can give a 
definitive answer on that.
    The Chairman. So that's a little bit----
    Mr. Faulkner. I think, in general, the thought here is a 
concern in this tightening fiscal environment about resources 
and, you know, new missions, new responsibilities without maybe 
the resources to do that. And I know the Congress is looking at 
that, too, but that's a concern of the administration.
    The Chairman. I understand. Senator Martinez, you 
understand that legislation was directed at a problem you have 
and we will work with you and the administration to see what we 
can do. We understand the position that they took and it's 
probably--I assumed it was going to be forthcoming, not only 
because of what he said, but where do you stop? If you do it 
there, where else do you have to do it? So we'll work on that.
    Mr. Faulkner. Mr. Chairman, I appreciate that, and I hope 
that there's a way that we can accomplish what we're trying to 
do, which is kick start some projects so we can get this moving 
down the road. The research might come by the time that we've 
got so many people in Florida that we've got a crisis, not a 
problem.
    The Chairman. Okay. Let me say to all of you, thank you for 
coming. Sorry about the way things were split up today, but you 
understand that we very much appreciate the emphasis and help 
you give us by your presence and your testimony. We'll continue 
to inquire of you. You're excused and the next panel, please 
take the podium. Let me see if I can announce them here.
    The second panel is made up of Jim Reynolds, executive 
director, Florida Keys Aqueduct Authority, Key West, Florida; 
Edmund Archuleta, El Paso Water Utilities general manager, Dr. 
Pankaj Parekh, director of drinking water quality compliance, 
Los Angeles; and Colin Sabol, chief marketing officer, GE 
Infrastructure Water & Process. We've got you there now. Please 
take your seats and we'll start.
    Okay. Mr. Reynolds, same instructions. Your statement will 
be made part of the record. Summarize.

  STATEMENT OF JIM REYNOLDS, EXECUTIVE DIRECTOR, FLORIDA KEYS 
                AQUEDUCT AUTHORITY, KEY WEST, FL

    Mr. Reynolds. Chairman Domenici and members of the 
committee, my name is Jim Reynolds. I am the executive director 
of Florida Keys Aqueduct Authority and I serve on the board of 
directors of the U.S. Desalination Coalition. I very much 
appreciate having the opportunity to testify today in support 
of S. 1016, the Desalination Water Supply Shortage Prevention 
Act of 2005.
    The Florida Keys Aqueduct Authority is the sole provider of 
potable water for all the residents of the Florida Keys. As 
water resource managers throughout the United States, we are 
struggling to address the long-term challenges posed by 
drought, increasing population, and competing demands from 
business, agriculture, and the environment. These challenges 
led us to join together with water agencies and utilities from 
other States, including California, Texas, Hawaii, and New 
Mexico, to form the U.S. Desalination Coalition, a group 
dedicated to advocating an increased Federal role in advancing 
desalination.
    Drought, increasing population, and competing demands from 
business, agriculture and the environment for limited water 
supplies has taken us to the brink. The economic, social, and 
environmental consequences of a water supply crisis are not 
local or regional in nature. It is a national problem and I 
believe that it demands the attention of Congress.
    The recent hurricanes and the one now bearing down on the 
Florida Keys have highlighted, in the most dramatic way, the 
extraordinary importance and value that water plays in our 
lives.
    The ultimate goal of the U.S. Desalination Coalition is to 
encourage the Federal Government to create a new program to 
provide financial assistance to water agencies and utilities 
that successfully develop desalination projects that treat both 
seawater and brackish water for municipal and industrial use.
    The Desalination Water Supply Prevention Act of 2005, 
introduced by Senator Martinez, and co-sponsored by Senator 
Feinstein, will achieve this goal in a fiscally responsible 
way.
    Despite the tremendous advances in desalination technology 
that have reduced the costs of desalinating water, energy costs 
remain quite high and are responsible for more than 30 percent 
of the overall cost of desalinated water. S. 1016 directs the 
Secretary of Energy to provide incentive payments to water 
agencies and utilities that successfully develop desalination 
projects. This would be a competitive, performance-based 
program that will help to offset the costs of treating seawater 
and brackish water. The legislation would also ensure that 
there is a balance in the amount of money going to seawater and 
brackish water projects in any 1 year.
    Most experts believe that the cost of desalinating water 
will continue to come down over time and that desalination will 
eventually be widespread. But waiting for this to occur is a 
luxury that, in my opinion, we cannot afford. A modest 
investment to jump-start the development of these projects and 
stimulate advances in desalination technology today is the 
smart thing to do.
    It is true that the approach suggested in S. 1016 to 
encourage the development of seawater and brackish groundwater 
desalination projects is different from the traditional 
approach of providing construction grant funds. That difference 
is by design. While the availability of energy assistance and 
incentive payments will encourage the development of 
desalination projects, these grants will be performance based.
    In other words, the Federal Government will bear none of 
the risk of project permitting and construction as it does 
under the construction grant approach. Only those projects that 
are technically, environmentally and economically sound, and 
have actually been constructed will be eligible to apply for 
the incentive payments. I am proud that the Florida Keys has 
historically been a leader in the development and use of 
desalination technology. In fact, the very first seawater 
desalination plant ever built in the United States was 
constructed in the 1840's to provide water to Fort Zachary 
Taylor in Key West. Today, the FAA maintains desalination 
plants on Stock Island and in Marathon for use in case of 
emergencies or a disruption in service of our main pipeline 
that is 130 miles long and crosses 42 overseas bridges. These 
facilities produce freshwater from seawater, as a limited 
emergency source of potable water for the Lower and Middle 
Keys.
    Passage of S. 1016 is of vital importance to the future of 
the Keys. The Aqueduct Authority currently obtains its water 
from the fresh groundwater from the Biscay Aquifer in Dade 
County. However, because of skyrocketing growth in south 
Florida and the needs of Everglades National Park, the South 
Florida Water Management District is setting limits on the 
amount of water our agency can withdraw from the aquifer.
    As a result, we are moving forward with a plan to 
supplement our water supplies by building a new brackish water 
desalination facility in south Dade County that will produce 7 
million gallons per day of fresh drinking water. S. 1016 will 
allow us to meet the needs of the environment without 
subjecting our customers to a massive increase in water rates 
that would otherwise result.
    Mr. Chairman, the U.S. Desalination Coalition also supports 
the enactment of S. 1860. I support increased research in this 
area and believe that the goals of your legislation are 
consistent with and complementary to the goals of S. 1016.
    In conclusion, thank you again for holding today's hearing 
on these important pieces of legislation. We very much 
appreciate your leadership on this important issue and hope 
that the committee will move promptly to pass both S. 1016 and 
S. 1860.
    [The prepared statement of Mr. Reynolds follows:]
 Prepared Statement of Jim Reynolds, Executive Director, Florida Keys 
    Aqueduct Authority, on Behalf of the U.S. Desalination Coalition
    Chairman Domenici and Members of the Committee, my name is Jim 
Reynolds. I am the Executive Director of Florida Keys Aqueduct 
Authority and I serve on the Board of Directors of the U.S. 
Desalination Coalition. I very much appreciate having the opportunity 
to testify today in support of S. 1016, the Desalination Water Supply 
Shortage Prevention Act of 2005.
    The Florida Keys Aqueduct Authority is the sole provider of potable 
water for all the residents of the Florida Keys and presently serves 
over 44,000 customers in Monroe County. Like water resource managers 
throughout the United States, we are struggling to address the long-
term challenges posed by drought, increasing population, and competing 
demands from business, agriculture, and the environment. These 
challenges led us to join together with water agencies and utilities 
from other States including California, Texas, Hawaii, and New Mexico 
to form the U.S. Desalination Coalition, a group dedicated to 
advocating an increased Federal role in advancing desalination. 
Seawater and brackish water are virtually inexhaustible resources that 
can be tapped as a viable long term tool for meeting our Nation's 
growing water supply needs.
    Drought, increasing population, and competing demands from 
business, agriculture and the environment for limited water supplies 
has taken us to the brink. The reservation of fresh water for the 
natural systems to maintain a sustainable environment and protection 
against drought are concerns throughout the Country. The economic, 
social, and environmental consequences of a water supply crisis are not 
local or regional in nature. It is a national problem and I believe 
that it demands the attention of Congress.
    The ultimate goal of the U.S. Desalination Coalition is to 
encourage the Federal government to create a new program to provide 
financial assistance to water agencies and utilities that successfully 
develop desalination projects that treat both seawater and brackish 
water for municipal and industrial use. The Desalination Drought 
Prevention Act of 2005, introduced by Senator Martinez, will achieve 
this goal in a fiscally responsible way. Similar legislation has been 
introduced in the House of Representatives by Representatives Jim Davis 
of Florida and Jim Gibbons of Nevada and now has approximately 30 
cosponsors. I am delighted to be here today in support of this 
legislation and tell you how it will positively affect the Florida Keys 
Aqueduct Authority and the State of Florida.
    Despite the tremendous advances in desalination technology that 
have reduced the costs of desalinating water, energy costs remain quite 
high and are responsible for more than 30% of the overall cost of 
desalinated water. S. 1016 directs the Secretary of Energy to provide 
incentive payments to water agencies and utilities that successfully 
develop desalination projects. This would be a competitive, 
performance-based program that will help to offset the costs of 
treating seawater and brackish water. Under the proposed program, 
qualified desalination facilities would be eligible to receive payments 
of $0.62 for every 14 kW of electricity used for the initial ten years 
of a project's operation. The legislation would also insure that there 
is a balance in the amount of money going to seawater and brackish 
water projects in any one year.
    The rationale for this approach is that while the cost of 
desalinating water has dropped dramatically over the last decade, the 
energy costs associated with desalination are still quite high. Most 
experts believe that these costs will continue to come down over time 
and that desalination will eventually be widespread. But waiting for 
this to occur is a luxury that, in my opinion, we cannot afford. A 
modest investment to jump-start the development of these projects and 
stimulate advances in desalination technology today is the smart thing 
to do.
    It is true that the approach suggested in S. 1016 to encourage the 
development of seawater and brackish groundwater desalination projects 
is different from the traditional approach of providing construction 
grant funds. That difference is by design. While the availability of 
energy assistance grants will encourage the development of desalination 
projects, these grants will be performance based. In other words, the 
Federal government will bear none of the risk of project permitting and 
construction as it does under the construction grant approach. Only 
those projects that are technically, environmentally and economically 
sound, and have actually been constructed will be eligible to apply for 
the grants.
    I am proud that the Florida Keys has historically been a leader in 
the development and use of desalination technology. In fact, the very 
first seawater desalination plant ever built in the United States was 
constructed in the 1840s to provide water to Fort Zachary Taylor in Key 
West. Today, the FKAA maintains desalination plants on Stock Island and 
in Marathon for use in case of emergencies or a disruption in service 
of our main pipeline that is 130 miles long and crosses 42 overseas 
bridges. These facilities produce freshwater from seawater, as a 
limited emergency source of potable water for the Lower and Middle 
Keys.
    Passage of S. 1016 is of vital importance to the future of the 
Keys. The Aqueduct Authority currently obtains its water from the fresh 
groundwater Biscayne aquifer in Dade County. However, because of 
skyrocketing growth in south Florida and the needs of Everglades 
National Park, the South Florida Water Management District is setting 
limits on the amount of water our agency can withdraw from the aquifer. 
As a result, we are moving forward with a plan to supplement our water 
supplies by building a new, brackish water desalination facility in 
south Dade County that will produce 7 million gallons per day of fresh 
drinking water. S. 1016 will allow us to meet the needs of the 
environment without subjecting our customers to a massive increase in 
water rates that would otherwise result. I hope that you agree that 
potable water is not a luxury and that it is a necessity that must 
remain affordable especially too many of our citizens who are on low or 
fixed incomes.
    Mr. Chairman, the U.S. Desalination Coalition also supports the 
enactment of S. 1860, the Energy--Water Efficiency Technology Research, 
Development, and Transfer Program Act of 2005. We support increased 
research in this area and believe that the goals of Senator Domenici's 
legislation are consistent with and complementary to the goals of S. 
1016. As important as enhanced research of desalination technology may 
be, however, we do not believe that additional research should come in 
lieu of a federal investment of the development of actual projects that 
will provide clean and reliable water to families and businesses. In 
fact, a strong case can be made that we will learn a great deal about 
how to improve the efficiency of desalination technology through the 
development and operation of large-scale seawater and brackish 
groundwater desalination facilities.
    We are very supportive of the program grants that would be 
authorized under S. 1860. We would hope that a significant portion of 
the grant funds to be made available under this program would be 
directed to water agencies and utilities developing desalination 
demonstration projects. These projects are often a precursor to the 
development of full scale desalination projects. The information 
derived from such projects can be very helpful in the continuing 
improvement of membrane technology, energy recovery systems, and pre-
treatment techniques.
    In conclusion, thank you again for holding today's hearing on these 
important pieces of legislation. We very much appreciate your 
leadership on this important issue and hope that the Committee will 
move promptly to pass both S. 1016 and S. 1860.

 STATEMENT OF EDMUND ARCHULETA, GENERAL MANAGER, EL PASO WATER 
              UTILITIES, ON BEHALF OF WATEREUSE, 
                          EL PASO, TX

    Mr. Archuleta. Mr. Chairman and Members of the Committee, I 
am Ed Archuleta, general manager of the El Paso Water Utilities 
and I'm a current member of the board of directors of the 
WateReuse Foundation. I appreciate the opportunity to testify 
before you today on behalf WateReuse in support of S. 1860.
    We're a non-profit organization whose mission is to advance 
the beneficial and efficient use of water resources through 
desalination, recycling, reuse, for the benefit of our members, 
the public, and the environment.
    We've worked for a number of years with the Bureau of 
Reclamation, and a number of other agencies. And what I'd like 
to do, Senator, and members of the committee, is make certain 
points.
    In El Paso, we have to work with multiple agencies, with 
Mexico, with New Mexico, with other counties in Texas. We also 
face a growing population much like Senator Martinez indicated 
in Florida. So we're all looking for new solutions and I think 
this bill and the opportunity it brings will allow for that. So 
we're in very strong support of S. 1860.
    In El Paso--you talked a few minutes ago about arsenic. The 
Rio Grande has faced, for a number of years now, significant 
drought. Three years ago, we had to go beyond our surface water 
supplies from the river, plus the ground water. We knew that we 
had some wells that had had brackish ground water intrusion. 
They have been ``abandoned'' for some time.
    And we decided, why not put those back in service, 
installing skid mounted reverse osmosis. They also happened to 
be high in arsenic compared to the new standard. So we put in 
11 wellhead reverse osmosis units and we solved three 
problems--one of salinity, one of arsenic, and the third 
important one, which is, of course, drought.
    So we were able to get through the drought, simply by 
applying this type of technology. We purchased the--in this 
case, the General Electric Osmonic system, and they work 
perfectly fine. We started a few years ago to work with Fort 
Bliss, which is a military installation, to develop a large 
scale desalination plant. We just started construction of that 
in July, on what's going to be the world's largest inland 
desalination plant.
    We knew through geology that there were some areas within 
Fort Bliss property that would be ideal for concentrated 
disposal by deep well injection. And that's how we're going to 
be able to deal with that concentrated waste. But we are 
looking for the research that's going to give us better 
solutions to the disposal of this concentrate. And that's one 
of the prime reasons we support this type of legislation.
    We've worked, as have others, with the national 
laboratories, particularly Sandia National Laboratories, and we 
understand and appreciate the expertise that they bring.
    However, members of the committee, one of the things that 
we'd like you to consider is to partner with the water 
utilities that make up the WateReuse, as we have for example on 
the arsenic research, and involve us in this process so that we 
become part of the solution, if you will, with real-life-type 
implementation of the research to see if we can get these to 
market sooner.
    For example, we recently developed a partnership between 
our utility, El Paso Water Utilities, the New Mexico State 
University, the University of Texas at El Paso, and the city of 
Alamogordo, New Mexico, to develop a partnership with Sandia 
Labs on three initial projects. So the partnership could use 
the support of S. 1860.
    Certainly, in times of Federal deficits, we believe the 
best way to address these national priorities is to create this 
Federal/local research partnership. And WateReuse stands ready, 
both with its research expertise as well as a portion of the 
utility generated income, to support the goals of good 
legislation.
    Again, WateReuse thanks you, Mr. Chairman, and Senator 
Bingaman, who has left the room. I know, Senator, that both you 
and Senator Bingaman will be with us in Albuquerque in early 
December when the Multi-State Salinity Coalition, which is a 
national coalition of water agencies interested in 
desalination, meets in Albuquerque on December 8 and 9.
    So with that, Mr. Chairman, I would be pleased to respond 
to any questions you or the other members may have.
    [The prepared statement of Mr. Archuleta follows:]
Prepared Statement of Edmund Archuleta, General Manager, El Paso Water 
     Utilities, El Paso, TX, on behalf of the WateReuse Association
    Mr. Chairman and Members of the Committee, I am Ed Archuleta, 
General Manager of the El Paso Water Utilities and a current member of 
the Board of Directors of the Water Reuse Foundation (WateReuse). I 
appreciate the opportunity to testify before you today on behalf 
WateReuse in support of S. 1860, the Energy-Water Efficiency Technology 
Research, Development, and Transfer Program Act of 2005.
    The WateReuse Association (WateReuse) is a non-profit organization 
whose mission is to advance the beneficial and efficient use of water 
resources through education, sound science, and technology using 
reclamation, recycling, reuse, and desalination for the benefit of our 
members, the public, and the environment. Across the United States and 
the world, communities are facing water supply challenges due to 
increasing demand, drought, and dependence on a single source of 
supply. WateReuse addresses these challenges by working with local 
agencies to implement water reuse and desalination projects that 
resolve water resource issues and create value for communities. The 
vision of WateReuse is to be the leading voice for reclamation, 
recycling, reuse, and desalination in the development and utilization 
of new sources of high quality water.
    WateReuse assists its members in implementing projects that solve 
these water supply challenges for local communities by:

  <bullet> sponsoring research that advances the science of water reuse 
        and focuses on the Association's commitment to providing high-
        quality water, protecting public health, and improving the 
        environment;
  <bullet> reaching out to members, the public, and local leaders and 
        officials with information that communicates the value and 
        benefits of water reuse; and
  <bullet> encouraging additional Federal support for water reuse, 
        including funding for research and local projects.

    WateReuse members use advanced treatment processes and monitoring 
to produce water of sufficient quality for the intended purpose from 
treated municipal and industrial effluent, storm water, agricultural 
drainage, and sources with high salinity such as seawater and brackish 
water.
    The Association's membership is growing rapidly as more communities 
around the nation recognize the need to reuse water and develop 
alternative supplies. WateReuse now has more than 310 organizational 
members nationwide, including more than 150 local water and wastewater 
agencies.
    The Association has developed a successful cost-shared research 
program with the U.S. Bureau of Reclamation (USBR) and other research 
organizations through its WateReuse Foundation. The Foundation is 
engaged in conducting ``leading edge'' applied research on important 
and timely issues, including: 1) evaluating methods for managing 
salinity, including the disposal of concentrates from membrane 
treatment systems; 2) working cooperatively with USBR, Sandia National 
Laboratories, and through the Joint Water Reuse & Desalination Task 
Force (JWR&DTF) to implement the Desalination and Water Purification 
Technologies Roadmap developed in 2003 by Sandia and USBR; 3) 
evaluating ways to advance public acceptance of indirect potable reuse; 
4) understanding the occurrence and fate of emerging contaminants, such 
as endocrine disrupting compounds, in conventional and advanced water 
recycling systems; and 5) gaining a better understanding of water 
quality changes that might occur in aquifer storage and recovery (ASR). 
The WateReuse Foundation currently has a water reuse and desalination 
research portfolio consisting of more than 50 active projects with a 
value of more than $10 million.
    My utility in El Paso must work with multiple jurisdictions 
including the United States and Mexico, Texas and New Mexico, and 
multiple counties, all of which face the challenge of providing water 
resources to a growing population in an arid region of our country. 
This experience, and my service as Chairman of the AwwaRF Board of 
Trustees and as a Board Member of the Water Reuse Foundation has 
convinced me that it is essential for our nation to identify and 
develop new technologies to treat new sources of water, including 
brackish groundwater, and to do so in the most energy efficient manner 
possible. Senator Domenici, the water community is deeply appreciative 
of your leadership and vision as exhibited in S. 1860 that provides the 
framework for this crucial enterprise.

S. 1860 AND THE IMPORTANCE OF A COMPREHENSIVE APPROACH TO THE NATION'S 
                           ENERGY-WATER NEEDS
    The importance of the energy-water nexus has become apparent to 
water and energy professionals at all levels of government. Water is 
critical to the production of energy and, conversely, energy is needed 
for water production. Water and wastewater utilities consume 
approximately 3% of the nation's electrical energy to pump, treat, 
store, and distribute water.
    In the future, the nation will depend more and more on the 
availability of ``alternative water supplies,'' primarily reclaimed and 
reused waters and the desalination of seawater and brackish 
groundwater. In order for these two sources of ``new water'' to be 
cost-effective, research is needed to drive down the costs. For 
example, the new Tampa Bay Water desalination facility will produce 
water at a currently estimated cost of $2.54/1000 gallons. By contrast, 
the cost of wholesale water from the Metropolitan Water District of 
Southern California to its customers is approximately $1.50/1000 
gallons. It is this differential of about a dollar per thousand gallons 
that must be addressed through research.
    Similar research is needed for water reuse since many of its 
applications require membrane applications. For example, Orange County 
Water District in California currently is designing and constructing 
its Groundwater Replenishment System (GWRS) at a cost of $487 million. 
The technologies utilized are microfiltration, ultraviolet irradiation, 
and reverse osmosis--technologies that also are used in desalination.
    In El Paso, we are in the process of constructing what will be the 
world's largest inland desalination facility. One of the technologies 
featured will be reverse osmosis. One of the greatest challenges facing 
us will be the disposal of concentrate resulting from the removal of 
salts and other solids. The types of research envisioned in S. 1860 
would likely benefit El Paso in two very tangible ways: 1) reduction of 
the energy costs of the membrane technologies employed; and 2) 
development of better and less expensive means of the disposal of 
concentrate.
    WateReuse is strongly supportive of S. 1860 for two basic reasons. 
First, we believe that research will benefit the entire water community 
by driving down costs and facilitating the development of new 
technologies that will allow water utilities to resolve difficult 
challenges such as concentrate disposal. Second, in the arid West and 
Southwest, the annual rainfall ranges from about seven inches to 12 
inches per year. To accommodate the rapid population growth that is 
occurring in Texas, New Mexico, Arizona, Nevada, and southern 
California, we need to be able to reclaim and reuse our wastewater and 
we need to be able to desalinate water in a cost-effective manner. Only 
research will allow us to do that.
    According to the Desalination and Water Purification Technology 
Roadmap, ``by 2020, desalination and water purification technologies 
will contribute significantly to ensuring a safe, sustainable, 
affordable, and adequate water supply for the United States.'' For this 
to happen, however, a substantial research investment will be needed to 
find a way to reduce the capital and operating costs. Although 
desalination has several advantages, it will always have two huge 
technical challenges: 1) removal of as much as 35,000 milligrams per 
liter (i.e., 3.5% by volume) of salt and other impurities; and 2) 
disposal of the brine concentrate that is a by-product of the treatment 
process. The WateReuse Foundation, working in conjunction with Sandia 
National Laboratories and the U.S. Bureau of Reclamation through the 
JWR&DTF, is heavily engaged in conducting research on innovative, cost-
effective methods of concentrate disposal and sponsoring research on 
membrane technologies and alternative technologies.
    The scientific expertise of our national laboratories is something 
that we all recognize and we are excited over the prospect of having 
some of these capabilities focused upon developing new, energy 
efficient water treatment technologies. The purpose of my testimony 
today to better acquaint the Committee with what we consider the other 
crucial aspect of this enterprise which is to ensure that these new 
technologies are applicable to, and implementable by, water agencies. 
Based upon my experience in running a water agency and also in working 
with my fellow Board Members at WateReuse and Trustees at AwwaRF, there 
is often a wide gap between what seems to work in a laboratory and what 
does indeed work at a water treatment facility and also what will be 
approved for use by state regulatory agencies.
    S. 1860 challenges three of our national laboratories to identify 
groundbreaking new approaches to water treatment. I believe they will 
be successful in this endeavor. But it is also essential that the 
research expertise of the water community, as embodied by organizations 
such as WateReuse, should also be made a part of the research agenda. I 
am not referring here to technology transfer activities, but rather how 
S. 1860 can create the framework for a true working research 
partnership between the national labs and the water community. For 
example, within the past three months, a partnership of El Paso Water 
Utilities, New Mexico State University, Texas A&M, the University of 
Texas at El Paso, and the City of Alamogordo (CHIWAWA) have initiated 
three desal research projects with Sandia Labs. We will be meeting in 
Albuquerque in early December at the time of the Multi-State Salinity 
Conference to discuss the parameters of the research program and agree 
on our research schedule. This partnership could use the support of S. 
1860 could provide.
    CHIWAWA's (Consortium for High Tech Investigations of Water and 
Wastewater) work with Sandia is aimed at ensuring that cutting edge 
next generation technologies developed by the national laboratories 
also have the benefit of the practical research expertise offered by 
our research organizations. WateReuse has a proven track record of 
cooperation in developing and executing research that is of direct 
practical use by the very utilities that provide their financial 
support. For example, it has enabled water utilities to comply with an 
ever expanding regulatory scheme at a cost less than the expected 
compliance cost without such research. Direct involvement by utilities 
assures that research is driven by practical need rather than academic 
interest and increases dramatically the likelihood of adoption and 
implementation by the water community.
    In addition to WateReuse and research management capabilities, the 
financial support from our more than 1000 subscribing water and 
wastewater agencies allow us to provide local funding to leverage those 
of the federal government. The WateReuse Foundation, through 
contributions from its Subscribers, local water and wastewater 
agencies, and state agencies, has leveraged funds received from the 
U.S. Bureau of Reclamation by a factor of more than 3:1. We believe 
that in these times of federal deficits the best way to address the 
national priorities outlined in S. 1860 is to create a federal-local 
research partnership which includes investment from all levels of 
government. WateReuse stands ready with both its research expertise and 
a portion of its utility generated income to support the goals of your 
legislation.
    WateReuse notes that today's hearing is also examining innovative 
ways to finance desalination technologies. Specifically, S. 1016 would, 
if enacted, provide operating subsidies for facilities to subsidize 
energy costs. WateReuse has supported strong federal partnerships for 
water supply facilities and during these times of fiscal austerity, we 
believe that creative financing mechanisms hold the promise of 
maintaining a federal partnership. At the same time, the ability to 
drive down the overall costs of producing alternative water supplies 
ranging from technology to disposal of byproducts is equally important. 
Research and technology demonstration holds the promise of delivering 
on this priority. We hope that as the committee considers tools like 
operating subsidies that it also target research needs.
    Again, WateReuse thanks you, Mr. Chairman and Senator Bingaman, for 
convening this hearing. We would be pleased to work with you in 
addressing critical issues related to energy-water efficiency and water 
technology research. We strongly support the Committee's leadership 
efforts to ensure adequate and safe water supplies for the entire 
country in the 21st century. Also, I want to thank you both for 
agreeing to be speakers at the Multi-State Salinity Conference in 
Albuquerque on December 8 and 9.
    At this time, Mr. Chairman, I would be pleased to respond to any 
questions you or the other members may have.

 STATEMENT OF PANKAJ PAREKH, Ph.D., DIRECTOR OF DRINKING WATER 
 QUALITY COMPLIANCE, ON BEHALF OF THE AWWA RESEARCH FOUNDATION

    Mr. Parekh. Mr. Chairman and members of the committee, I am 
Pankaj Parekh of the Los Angeles Department of Power and Water, 
and also chair of the Awwa Research Foundation's committee for 
tailored collaboration.
    I appreciate the opportunity to testify before you today on 
behalf of the AwwaRF and in strong support of S. 1860. There is 
a consensus among the water supply community that it is 
essential for our Nation to identify and develop innovative 
technologies to treat new sources of water, including brackish 
groundwater and sea water, and to do so in the most energy-
efficient manner possible and with the least disruption of the 
environment. The water supply community is deeply grateful and 
appreciative of the leadership and vision as exhibited in S. 
1860 that provides the framework for this crucial enterprise.
    AwwaRF's priority is to address, through research, the most 
pressing needs of the water community. Over the past decade and 
a half, these challenges have included the control and 
reduction of disinfection byproducts, cryptosporidium, 
perchlorate, and arsenic, to name only a few.
    In each case, AwwaRF-sponsored research has taken a leading 
role in ensuring that water utilities have had the tools 
necessary to meet these challenges and to continue to fulfill 
their obligation to provide safe and affordable drinking water 
to the public. We believe that S. 1860 offers not just the 
vision and promise of how to achieve these ends, but also a 
practical roadmap for a Federal-local partnership that will 
allow the water supply community to meet its obligations to the 
public.
    AwwaRF is a member-supported, international, non-profit 
organization that sponsors research to enable water utilities, 
public health agencies, and other professionals to provide safe 
and affordable drinking water to consumers. Our more than 900 
subscribing water utilities in the United States and in seven 
foreign countries invest $2.05 per every million gallons of 
delivered water into the research subscription program 
administered by AwwaRF. This produces over $13,000,000 in 
income each year, which we leverage with in-kind contributions 
from researchers and in funding partnerships, which include a 
number of Federal agencies.
    Over the past quarter of a century, AwwaRF has invested and 
leveraged over $370 million in over 900 research projects which 
address desalination and water treatment other programs. This 
includes a number of projects which address arsenic treatment 
and treatment technologies, including our current research 
partnership with Sandia National Labs and WERC at New Mexico 
State University and our cooperative agreement with Sandia 
National Labs, U.S. Bureau of Reclamation and WateReuse through 
the Joint Water Reuse and Desalination Task Force to implement 
the Desalination and Water Purification Roadmap developed in 
2003 by Sandia and USBR.
    All AwwaRF research is done by sub-agreement with water 
utilities, universities, private research organizations, 
consulting engineering firms. This sub-agreement approach 
allows the Foundation to avoid the cost of equipping and 
maintaining separate laboratories and instead enables us to 
leverage existing facilities throughout the academic and water 
supply communities in support of our research.
    AwwaRF's staff of over 50 manages this research. The 
results are published in the form of a final report which is 
widely disseminated. AwwaRF also conducts an ongoing program of 
technology transfer conferences and periodicals that bring the 
latest in priority research directly to water agencies. AwwaRF 
holds no patents on any technology that is developed through 
our research but instead publishes and disseminates its 
research results to a wide audience.
    The scientific expertise of our national labs is well 
recognized and we are excited over the prospect of having some 
of these capabilities focused upon developing new, energy 
efficient water treatment technologies. The purpose of my 
testimony today is to better acquaint the committee with what 
we consider the other crucial aspect of this enterprise to 
ensure that these new technologies are applicable to, and 
implementable by, water agencies.
    Less than 2 weeks ago, AwwaRF, as part of the Arsenic Water 
Technology Partnership, was privileged to participate in an 
arsenic workshop in Albuquerque attended by you, Mr. Chairman. 
The topic of concern was the pending EPA arsenic regulation and 
how utilities, particularly smaller ones, are going to meet the 
new Federal standards.
    There were dozens of representatives from New Mexico water 
agencies at the workshop and it was obvious how much these 
agencies are in need of affordable technologies which will 
enable them to comply with the EPA-mandated arsenic standards. 
Their concern reminded us of how crucial it is that the 
knowledge that will be produced by S. 1860 be applicable and 
usable at the local level and with all sizes of utilities to 
solve water supply problems.
    But based upon my experience, both with my own water agency 
and with the larger water supply community, there is often a 
wide gap between what seems to work in a lab and what does 
indeed work at a water treatment facility, and also what will 
be approved for use by State and Federal regulatory agencies.
    S. 1860 challenges three of our national laboratories to 
identify groundbreaking new approaches to water treatment. But 
it is also essential that the research expertise of the water 
community, as embodied by organizations such as AwwaRF, be a 
partner in this research. I am not referring here to technology 
transfer activities, but rather how S. 1860 can create the 
framework for a true and dynamic working research partnership 
between the national labs and the water community.
    This ensures that cutting-edge, next-generation 
technologies developed by the national laboratories also have 
the concurrent benefit of the practical research expertise 
offered by AwwaRF. With more than a third of a billion dollars 
in either completed or ongoing research backed by hundreds of 
researchers and thousands of project advisory volunteers, 
AwwaRF offers this capability to the S. 1860 process at the 
outset of this journey.
    As a long-standing and familiar supporter of good and 
useful water research, I cannot overemphasize how much the 
early and direct involvement of utilities during technology 
research and development dramatically increases the likelihood 
of adoption and implementation of the new technologies by the 
water supply community.
    In addition, such collaboration expedites the application 
of research results in the field. In addition to AwwaRF's 
groundbreaking research, expertise and management capabilities, 
we offer the financial support of our more than 900 subscribing 
water agencies. Their annual investment in the research 
subscription program allows us to offer a local leverage for 
Federal funds.
    In closing, we wish to once again express our appreciation 
to you, Mr. Chairman, and the committee, for holding this 
hearing and for the introduction of S. 1860. We hope that this 
testimony has provided the committee with some food for thought 
with regard to the need to drive the research strategy to its 
ultimate application at a utility level, and also consider the 
readily available venue offered by AwwaRF to further leverage 
the cost-sharing potential with water utilities in support of 
the goals of S. 1860.
    The challenges and the vision embodied in this legislation 
are as important to the water community as those of a century 
ago when drinking water disinfection rapidly became the norm 
and saved countless lives. The resulting public good was 
crucial for our national well-being in the 20th century. We 
believe that S. 1860 is a true bridge to helping us meet the 
challenges of the 21st century in providing adequate water 
supplies and energy to the Nation and we thank you for the 
opportunity to present our thoughts.
    [The prepared statement of Mr. Parekh follows:]
       Prepared Statement of Pankaj Parekh, Ph.D., on behalf of 
                      the Awwa Research Foundation
    Mr. Chairman and Members of the Committee, I am Pankaj Parekh of 
the Los Angeles Department of Power and Water, and also Chair of the 
Awwa Research Foundation's committee for tailored collaboration. I 
appreciate the opportunity to testify before you today on behalf of the 
Awwa Research Foundation, [AwwaRF] and in strong support of S. 1860, 
the Energy-Water Efficiency Technology Research, Development, and 
Transfer Program Act of 2005. There is a consensus among the water 
supply community that it is essential for our nation to identify and 
develop innovative technologies to treat new sources of water, 
including brackish groundwater and sea water, and to do so in the most 
energy-efficient manner possible and with the least disruption of the 
environment. The water supply community is deeply grateful and 
appreciative of the leadership and vision as exhibited in S. 1860 that 
provides the framework for this crucial enterprise.
    AwwaRF's priority is to address, through research, the most 
pressing needs of the water community. Over the past decade and a half, 
these challenges have included the control and reduction of 
disinfection by-products, cryptosporidium, perchlorate, and arsenic, to 
name only a few. In each case, AwwaRF sponsored research has taken a 
leading role in ensuring that water utilities have had the tools 
necessary to meet these challenges and to continue to fulfill their 
obligation to provide safe and affordable drinking water to the public. 
S. 1860 focuses not just on drinking water contaminants but how our 
nation can access previously unusable water sources to meet the water 
supply challenges of the 21st century. One of the few certainties that 
we all live with is the fact that there is no ``new'' water on the face 
of the earth. Faced with this reality there is no alternative but to 
identify and develop cost-effective treatments that will allow our 
nation to make use of all available water sources to help us meet the 
21st century needs of our growing population. The prospect of cost-
effective and energy-efficient technologies to address this challenge 
is truly exciting to all of us. We believe that S. 1860 offers not just 
the vision and promise of how to achieve these ends but also a 
practical roadmap for a federal-local partnership that will allow the 
water supply community to meet its obligations to the public and to do 
so well into the 21st century.
    AwwaRF is a member-supported, international non-profit organization 
that sponsors research to enable water utilities, public health 
agencies, and other professionals to provide safe and affordable 
drinking water to consumers. Our more than 900 subscribing water 
utilities in the United States and in seven foreign countries invest 
$2.05 per every million gallons of delivered water into the research 
subscription program administered by AwwaRF. This produces over 
$13,000,000 in income each year which we leverage with in-kind 
contributions from researchers and in funding partnerships which 
include a number of Federal agencies. Over the past quarter of a 
century, AwwaRF has invested and leveraged over $370 million in over 
900 research projects on all aspects of drinking water treatment and 
supply. This includes a number of projects which address desalination 
and arsenic treatment, including our current research partnership with 
Sandia National Labs and WERC at New Mexico State University and our 
cooperative agreement with Sandia National Labs, U.S. Bureau of 
Reclamation (USBR) and WateReuse through the Joint Water Reuse and 
Desalination Task Force to implement the Desalination and Water 
Purification Roadmap developed in 2003 by Sandia and USBR.
    All AwwaRF research is done by sub-agreement with water utilities, 
universities, private research organizations, consulting engineering 
firms, and other qualified organizations. This sub-agreement approach 
allows the Foundation to avoid the cost of equipping and maintaining 
separate laboratories and instead enables us to leverage existing 
facilities throughout the academic and water supply communities in 
support of our research. AwwaRF's staff of over 50 manages this 
research. The results are published in the form of a final report which 
is widely disseminated throughout the water community and with federal 
and state agencies. AwwaRF also conducts an ongoing program of 
technology transfer conferences and periodicals that bring the latest 
in priority research directly to water agencies. AwwaRF holds no 
patents on any technology that is developed through our research but 
instead publishes and disseminates its research results to a wide 
audience. Interested parties are then free to use this knowledge and 
develop these technologies for commercial application that ultimately 
improve protection of public health.
    The scientific expertise of our national labs is well recognized 
and we are excited over the prospect of having some of these 
capabilities focused upon developing new, energy efficient water 
treatment technologies. The purpose of my testimony today is to better 
acquaint the Committee with what we consider the other crucial aspect 
of this enterprise to ensure that these new technologies are applicable 
to, and implementable by water agencies. Less than two weeks ago, 
AwwaRF, as part of the Arsenic Water Technology Partnership was 
privileged to participate in an arsenic workshop in Albuquerque 
attended by you, Mr. Chairman. The topic of concern was the pending EPA 
arsenic regulation and how utilities, particularly smaller ones, are 
going to meet the new federal standards. There were dozens of 
representatives from New Mexico water agencies at the workshop and it 
was obvious how much these agencies are in need of affordable 
technologies which will enable them to comply with the EPA mandated 
arsenic standards. Their concern reminded us of how crucial it is that 
the knowledge that will be produced by S. 1860 be applicable and usable 
at the local level and with all sizes of utilities to solve water 
supply problems. But based upon my experience both with my own water 
agency and with the larger water supply community, there is often a 
wide gap between what seems to work in a laboratory and what does 
indeed work at a water treatment facility and also what will be 
approved for use by state and federal regulatory agencies.
    S. 1860 challenges three of our national laboratories to identify 
groundbreaking new approaches to water treatment with particular 
emphasis on desalination technologies. I believe they will be 
successful in this endeavor. But it is also essential that the research 
expertise of the water community, as embodied by organizations such as 
AwwaRF, be a partner in this research. I am not referring here to 
technology transfer activities, but rather how S. 1860 can create the 
framework for a true and dynamic working research partnership between 
the national labs and the water community. This ensures that cutting 
edge next generation technologies developed by the national 
laboratories also have the concurrent benefit of the practical research 
expertise offered by AwwaRF. With more than a third of a billion 
dollars in either completed or ongoing research backed by hundreds of 
researchers and thousands of project advisory volunteers, AwwaRF offers 
this capability to the S. 1860 process at the outset of this journey. 
As a long-standing and familiar supporter of good and useful water 
research, I cannot over-emphasize how much the early and direct 
involvement by utilities during technology research and development 
dramatically increases the likelihood of adoption and implementation of 
the new technologies by the water supply community. In addition, such 
collaboration expedites the application of research results in the 
field.
    AwwaRF has pioneered the transfer of membrane technology from other 
industries into the water supply sector. Membranes hold the promise of 
drastically reducing the cost of utilities in meeting EPA's Surface 
Water Treatment Rule and are the backbone of desalination efforts in 
turning brackish waters into pure drinking water. AwwaRF research 
proved the efficacy of UV light to inactivate Cryptosporidium, which is 
a much more cost effective technology and will likely save water and 
wastewater utilities hundreds of million of dollars. When perchlorate 
threatened several California water supplies, AwwaRF research developed 
practical removal methods using available technology to save millions 
of dollars and provide safe water to affected communities.
    In addition to AwwaRF's ground breaking research expertise and 
management capabilities, we offer the financial support of our more 
than 900 subscribing water agencies. Their annual investment in the 
research subscription program allows us to offer a local leverage for 
federal funds. Since 1983, AwwaRF has provided a nearly seven to one 
match for EPA and DOE funding which it has received from the Congress. 
The goals embodied in S. 1860 are so important to water agencies 
throughout the United States and the world that AwwaRF would be willing 
to provide a substantial cash and in-kind match along with our research 
management expertise in support of the initiatives addressed in S. 
1860. We believe that in these times of federal deficits the best way 
to address the national priorities outlined in this legislation is to 
create a federal-local research partnership which includes investment 
from all levels of government. AwwaRF stands ready with both its 
research expertise and a portion of its utility generated income in 
support of the goals of your legislation.
    AwwaRF is also aware that the Committee is considering 5.1016 today 
and that this legislation provides for incentive payment to owners of 
qualified desalination facilities to partially offset the cost of 
electrical energy required to operate their facilities. S. 1016 calls 
attention to a large and growing concern among water utilities which is 
how to pay for the cost of electricity associated with water treatment. 
The development of innovative technologies under discussion today at 
this hearing will require ever growing amounts of electrical power 
which will grow increasingly expensive in the future. Funding 
partnerships between water agencies and the federal government, as 
proposed by S. 1016, are one option for addressing this challenge. 
AwwaRF has long been involved with the research aspects associated with 
the cost of electricity, including $6M invested in 18 projects and 
research partnerships with interested parties such as the California 
Energy Commission. Paying for the energy costs associated with water 
treatment is a major concern and priority throughout the water supply 
community and we appreciate the fact that the Committee is addressing 
this issue in its hearings today.
    In closing, we wish to once again express our appreciation to you, 
Mr. Chairman and the Committee for holding this hearing and for the 
introduction of S. 1860. We hope that this testimony has provided the 
Committee with some food for thought with regard to the need to drive 
the research strategy to its ultimate application at a utility level 
and also consider the readily available venue offered by AwwaRF to 
further leverage the cost-sharing potential with water utilities in 
support of the goals of S. 1860. The challenges and the vision embodied 
in this legislation are as important to the water community as those of 
a century ago when drinking water disinfection rapidly became the norm 
and saved countless lives. The resulting public good was crucial for 
our national wellbeing in the 20th century. We believe that S. 1860 is 
a true bridge to helping us meet the challenges of the 21st century in 
providing adequate water supplies and energy to the nation and we thank 
you for the opportunity to present our thoughts.

     STATEMENT OF COLIN SABOL, CHIEF MARKETING OFFICER, GE 
    INFRASTRUCTURE WATER & PROCESS TECHNOLOGIES, TREVOSE, PA

    Mr. Sabol. Thank you, Mr. Chairman, and members of the 
committee, for inviting me to appear here today before you. GE 
Water is a leading provider of water treatment systems and 
services, with over 6,000 working in 50 countries around the 
world.
    We create new sources of fresh water for millions of people 
living in water-scarce regions of the world and conserve 
billions of gallons of water annually. Membrane technology is 
the key to creating new water sources, but remains a costly 
alternative to surface water treatment.
    GE and others are making great strides in reducing the cost 
of these technologies, but we have a long way to go to achieve 
the levels that will drive broad adoption, and doing so 
requires much greater levels of investment.
    The 2,500 scientists at the GE Global Research Center are 
pursuing a number of longer-term water scarcity research 
programs that could substantially lower the overall cost of new 
water. Such programs include nanotechnologies, smart membranes, 
advanced pretreatment processes and remote monitoring and 
diagnostics. We have reviewed the two bills and would like to 
share our perspective on some aspects of each.
    With respect to S. 1016, we recognize the value of 
subsidies, and given the inflated cost of energy, short term 
assistance, via these subsidies, will help water-scarce 
communities more rapidly adopt today's current technologies. It 
seems possible, however, that S. 1016 could cause unintended 
consequences, such as encouraging communities to install 
current technologies that are less efficient and dissuade them 
from implementing more efficient technologies when they come in 
the future.
    The long term solution to producing economical sources of 
new water lies in developing advanced energy-efficient 
technologies, and S. 1860 represents an incredibly important 
step in that direction. We are confident that this funding is 
very likely to drive a 30 percent reduction in operating costs 
and a 25 percent reduction in capital costs in the next 5 
years.
    We believe that it is essential for the bill to focus more 
on the process of driving commercialization of funded research 
proposals. Based on GE's experience developing and 
commercializing technologies around the world, we'd like to 
suggest that you consider the following:
    No. 1, lead laboratories and advisory panel should select 
at least one industry partner to participate in every program, 
to guide and validate the commercial aspects from initiation 
through commercialization.
    No. 2, to encourage full engagement from companies with 
global commercialization experience and technical depth. Grants 
to these parties should be at least a million dollars per year.
    No. 3, a stage-gate development process. Administration of 
the research grants should be separated into phases, and 
aligned with a classic stage-gate product development process. 
GE's adoption of such a product development process has 
dramatically increased our commercialization success rate. 
Funding for each stage of the grant should absolutely be 
contingent on successfully meeting the requirements of each 
gate.
    GE looks forward to working with policymakers, users, and 
the technical community to create safe, affordable new water 
sources for this country and the world. Thank you, Mr. Chairman 
and members of the committee. I'm happy to take questions.
    [The prepared statement of Mr. Sabol follows:]
      Prepared Statement of Colin Sabol, Chief Marketing Officer, 
                           GE Infrastructure

                              INTRODUCTION
    Chairman Domenici, Senator Bingaman and members of the Committee, 
today it is my honor to share with you GE's thoughts on both the 
recently submitted ``Energy-Water Efficiency Technology Research, 
Development, and Transfer Act of 2005'' (S. 1860) and the 
``Desalination Water Supply Shortage Prevention Act of 2005'' (S. 
1016).

                               BACKGROUND
    By way of background, GE is a global leader in diverse technologies 
and one of the world's most recognized brands. Through our Research and 
Product Development programs, we consistently provide our customers 
with advanced technologies to generate power, purify and treat water, 
reduce emissions, increase energy efficiency, enhance safety and 
security, and improve health care.
    GE Water & Process Technologies is a leading global provider of 
water treatment systems and services. Our treatment systems create 
safe, affordable ``New Water'' for millions of people living in water-
scarce regions of the world from many sources, including ground water, 
surface water, sea water and recovered wastewater. In addition, water 
is the lifeblood of industry, and our products and services conserve 
billions of gallons of water annually for our industrial customers. GE 
creates this New Water using multiple technologies, including reverse 
osmosis, electrodialysis, and treatment systems that remove impurities 
and improve water quality.

                      WATER SCARCITY IS SPREADING
    As population increases and industrial development expands, the 
stress on water resources will continue to increase. According to the 
World Meteorological Organization, the number of people living in 
regions defined as ``stressed'' and ``high stress'' will increase from 
4 billion in 1995 to nearly 6 billion in 2025--an increase of 50% in 30 
years. (Figure 1).*
---------------------------------------------------------------------------
    * Figures 1-6 have been retained in committee files.
---------------------------------------------------------------------------
    This is a global trend that can also be felt in the U.S. due to 
shifts in population and impairment of existing water resources. For 
example:

  <bullet> Increasing populations and high demand are depleting 
        freshwater aquifers in the southwest U.S.;
  <bullet> Groundwater contamination is a growing problem in New 
        England;
  <bullet> Competition for water access in the Colorado river basin 
        have created far-reaching economic and political tensions in 
        that region;
  <bullet> Lead and bacteria contamination have affected drinking water 
        supplies in areas, including here in Washington DC.

    Paradoxically, many regions of high stress have abundant water 
supplies nearby. The problem is one of access to clean, usable water. 
There are technology solutions to this problem. GE and other companies 
are able to provide technologies to convert seawater, brackish water 
and recovered water into useful water supplies. As demand increases, it 
will become increasingly important to reduce the cost to treat and 
purify water.

             ECONOMICS OF WATER TREATMENT AND DESALINATION
    Water treatment costs vary by the amount of salt removal, cost of 
energy, size of plant, as well as the type of treatment technology. As 
shown in Figure 2, different water resources require different 
treatment technologies, and higher salinities have higher costs.
    Desalination costs are dominated by capital investment, energy and 
maintenance costs. (Figure 3) Reverse osmosis systems, which utilize 
membrane technology for water treatment, have the lowest cost of 
operations, especially in areas with high power cost.

          TECHNOLOGY ADVANCES HAVE REDUCED COST OF CLEAN WATER
    GE and others have made great strides in reducing the cost of 
desalinating seawater using membranes, from over $20/K-gal in 1980 to 
under $4/K-gal today (Figure 4).
    While membrane technology advances have resulted in significant 
cost reductions, energy still accounts for up to 60% of the operating 
cost (Figure 5). Further improvements in energy efficiency will deliver 
sustainable reductions in operating cost. Along with improvements in 
energy efficiency, improvements in membrane performance and membrane 
life through integrated treatment systems can reduce capital cost and 
life cycle cost.

         ROADMAP FOR SUSTAINABLE REDUCTION IN CLEAN WATER COSTS
    Membrane-based treatment solutions are essential to creating new 
water sources such as brackish water aquifers, seawater, and even 
wastewater. Membrane based desalination and reuse is a proven solution, 
but a broader application of these technologies to create meaningful 
new water sources requires investment to further reduce the energy 
consumption associated with the operation of membrane systems.
    Significant improvements in clean water cost can be achieved by 
investing in the development of:

  <bullet> New membrane and other separation technologies that require 
        less energy than today's best available technology.
  <bullet> New longer life membrane technologies that are resistant to 
        chlorine and other chemicals to reduce maintenance and 
        replacement costs.
  <bullet> Advanced membrane systems with increased capacity per 
        capital cost;
  <bullet> Higher efficiency of energy recovery systems to reduce 
        energy costs;
  <bullet> Integrated water-treatment, energy-generation systems to 
        increase overall energy and water production efficiency.

    GE is already investing in research to develop membranes that have 
lower energy consumption, improved life, and innovative integrated 
treatment systems such as the integration of membrane-based 
desalination and energy generated from wind turbines.
    GE is also evaluating whether to embark upon a number of far-
reaching, longer-term water scarcity research programs that could 
result in disruptive desalination and reuse technologies that would 
substantially reduce energy consumption, increase throughput, and thus 
substantially lower the overall cost of New Water. Such potential 
programs include nanotechnologies; ``smart'' membranes (with pores that 
adjust so that they can perform selective separation); a 10X 
simplification in pretreatment processes; and advanced remote 
monitoring and diagnostics.
    We are committed to continuing our efforts in these areas, but 
government support would enable us to accelerate existing programs, and 
to pursue altogether new research programs.

                      COMMENTS AND RECOMMENDATIONS
    We have reviewed the ``Desalination Water Supply Shortage 
Prevention Act of 2005'' (S. 1016) and the ``Energy-Water Efficiency 
Technology Research, Development, and Transfer Act of 2005'' (S. 1860), 
and we would like to share our perspectives on certain aspects of each.
    With respect to the ``Desalination Water Supply Shortage Prevention 
Act of 2005'' (S. 1016), we recognize the value of subsidies as 
effective means to encourage early adoption and deployment of water 
treatment solutions that exist today. And for communities in need, 
especially given the inflated costs of energy today, short-term 
assistance with energy subsidies will help those communities more 
rapidly adopt today's technologies.
    However, it seems possible that S. 1016 could inadvertently drive 
undesirable outcomes. For example, it is possible that energy subsidies 
would encourage certain communities to implement inefficient New Water 
technologies. Once such technologies are installed, they could dissuade 
a community from implementing newer, more efficient technologies.
    Consequently, we believe that the long-term, sustainable solution 
to producing economical sources of New Water lies in developing more 
advanced, energy-efficient technologies to treat multiple water 
sources. And, we believe that the ``Energy-Water Efficiency Technology 
Research, Development, and Transfer Act of 2005'' (S. 1860) would be an 
important step towards realizing such new energy-efficient 
technologies.
    As a practical matter, we believe that substantial incremental 
funding for research and development would significantly accelerate the 
development of economical sources of New Water. We further believe that 
the S. 1860 is focused on the right set of research and development 
programs. More specifically, we believe that a broad research and 
development program aimed at membrane advancements, improved `Total 
System' energy efficiency, and integrated water-renewable energy 
systems could lead to a 30% reduction in operating costs and a 25% 
reduction of capital costs in the next five plus years, with 
significant reductions achievable in the next one to three years. Such 
advances would be consistent with what GE and others in the industry 
have achieved in the past. (As Figure 4 showed, the cost of 
desalinating seawater using membranes has dropped from over $20/K-gal 
in 1980 to under $4/K-gal today.)
    We also believe that it makes sense to begin with a Technology 
Roadmap. However, the development of this roadmap could be expedited by 
building on the Desalination and Water Reuse Technology Roadmap that 
was published by the U.S. Bureau of Reclamation and Sandia National 
Labs in 2003. The new Roadmap should--in addition to definitively 
outlining the current state of best available technologies and near-
term technological advancements--take a longer-term view and explore 
potential breakthrough areas for energy-water efficiency technologies.
    In addition, we believe that it is absolutely essential for the 
Bill to focus more on the process of driving commercialization of 
funded research proposals. Based on GE's own experience developing and 
commercializing technologically advanced products around the world, we 
would like to share the following suggestions for enhancing the 
prospects for successful technology transfer and commercialization:

          1) Grant Size: Private sector grants should be at least 
        $1,000,000 per year. Such a grant size will encourage ``bigger 
        ideas'' and draw proposals from a wider base of experienced 
        research and development organizations.
          2) Industry Partners: The Lead Laboratories and the Advisory 
        Panel should select at least one Industry partner to 
        participate in each program. The Industry partners could 
        participate as advocates, advisors, joint research partners or 
        subcontractors to the principle research entity. The input of 
        such industrial partners would especially help guide and 
        validate the commercial aspects of the technology programs.
          3) Stage-Gate Development Process: Administration of the 
        research grants should be separated into phases and aligned 
        with a classic `Stage-Gate' product development process. GE's 
        adoption of a `Stage-Gate' product development process, which 
        is based on our leading efforts in Design For Six Sigma 
        practices, has dramatically increased our commercialization 
        success rate. Funding for each stage of the grant should be 
        absolutely contingent on fully satisfying the requirements of 
        each stage. This process could be simplified into the following 
        six Stages:

      <bullet> Market Development
      <bullet> Assessment & Initiation
      <bullet> Development
      <bullet> Scale-up & Sampling
      <bullet> Commercialization
      <bullet> Production

    Thus, for a given government grant, if the research entity fails to 
meet the requirements of any stage, the administrator would have the 
ability to terminate the remainder of the grant.
    As a leader in the industry, GE looks forward to working with 
policymakers, users, and the technical community to continue to improve 
desalination and reuse technologies and increase the availability of 
economical New Water and energy. Thank you, Mr. Chairman and members of 
this committee, for your time.

    The Chairman. Thank you very much. Let me apologize to you, 
Mr. Sabol. I had not read your testimony and I wrote down what 
I was going to ask you, and actually it was, how do we make 
sure that research is directed in areas that are most apt to be 
commercialized soonest and with some degree of success?
    I understand your suggestions as I see them, and are 
directed somewhat in that direction. We do need to end up with 
products. We need to end up with the technology that's usable, 
and the laboratories aren't going to use it, because they're 
not in the business of buying and selling and generating water. 
So we've got to have somebody with them to make sure we're 
doing the right thing.
    So your suggestions are going to be taken very seriously, 
and we'll see how they set with others. But clearly, they make 
sense to me. Let me say that I have about 10 or 15 questions. I 
think I'm going to submit them. First, I'm going to yield to 
the Senator from Florida and then come back for a couple here. 
Senator, would you like to make any comments or anything else 
you would like right now?
    Senator Martinez. Mr. Chairman, I would just real briefly 
say to Mr. Reynolds, I appreciate him traveling such a long 
distance, particularly when his home community is being 
threatened by Hurricane Wilma. Thank you very much for coming 
and lots of luck. I may see you down there. Let's hope that's 
not the case.
    Mr. Chairman, I think rather than ask any questions, 
because of the hour I will simply just make a comment that I 
recognize the point that Mr. Sabol makes, that it would be nice 
to wait until the new technology comes in. It's like I always 
do with my new computer. I say I'm not going to get this one 
with the video camera, because there's going to be a better one 
coming next week that will also sing music to me, and now in 
fact cell phones do that.
    The problem with that is in the meantime, you don't have a 
camera to take the video of your children as they grow. And so 
likewise, Mr. Reynolds and I think Mr. Archuleta's problem to 
some degree is that if you tell me there's going to be 
wonderful new technology available in a year, maybe that's 
fine. If it's 10 years, then what do we do with the people of 
Key West and the people of El Paso to provide a steady, 
available and frankly affordable supply of potable water?
    And so that's the dilemma we're in, Mr. Chairman, why it 
prompts me to want to jump start some of this with what S. 1016 
attempts to do to give the opportunity to these places which 
are strapped and in need of something now to be able to do 
something.
    Mr. Reynolds, I appreciate your pointing out in your 
testimony some of the difficulties. It's hard to conceive that 
too many communities in Florida have to pipe their water 145 
miles over the Florida Straights. It's not exactly over land, 
either. With how many--did you say 43 bridges?
    Mr. Reynolds. Yes.
    Senator Martinez. It's beautiful. I invite you all to come. 
But it is a tough way to get your water, and the reliability of 
that, frankly, with hurricanes in the area, becomes really a 
challenge and a problem. So, Mr. Chairman, thank you very much 
for your indulgence, I appreciate it.
    The Chairman. Mr. Archuleta, I failed to mention, and you 
corrected it without indicating that my statement needed 
correcting, when I talked about the largest desalinization 
effort, I should have said portable. The portable one is being 
built by the Navy. The permanent one, which is larger, is being 
built by the military, or the Army, and in partnership, or in 
community with your groups. And that is in El Paso and it's not 
the one that's at Alamogordo being done by the Navy, but the 
combination of the two means that right there in our area is 
probably the biggest expenditure by the Government of 
desalinization technology research money.
    Mr. Archuleta. Absolutely.
    The Chairman. We hope that yours succeeds. I look forward 
to coming down there. I have not yet, but I'm going to make an 
effort to do that. We'll probably see you there.
    Mr. Archuleta. That's great. Thank you, Senator.
    The Chairman. The laboratory people, I see most of them are 
still here. I want to talk with you a little bit more, Mr. 
Sabol. The primary purpose, I think, of the bill is to ensure 
that the Federal investment in water research resources is 
ultimately adopted and used by industry to address real-world 
problems.
    In your experience, what is the greatest impediment to the 
transfer of technology from the Government to the private 
sector, and how would you improve that, if you know, and how do 
you plan to evaluate technologies that are developed under this 
program to see if they have application?
    Mr. Sabol. Well, Senator, I think the area that I'm 
probably best qualified to answer this question is from inside 
of General Electric Company.
    The Chairman. Yes, sir.
    Mr. Sabol. We struggle with the same sort of issues that 
the Government transferring technology to the private sector 
struggles with. We have global research centers, very much like 
your national labs, and the business units are responsible for 
taking technology that they develop and bringing it to market.
    And what GE has done, and I've outlined a bit in my 
testimony, is connect those business units to our global 
research center very early in the process. Eighty percent of 
the money that that global research center spends is directed 
by the businesses toward projects that their customers are 
asking them to work on, and those 80 percent of the dollars 
that GE spends at the global research center have a very high 
hit rate in the marketplace once they get there.
    The primary reason is because they're connected to customer 
needs from the beginning, and the sales force and the business 
teams are engaged in the process and believe in it from the 
beginning.
    It is important to note, though, that 20 percent of the 
money is spent without guidance from the business, so that we 
have a creative engine that's not encumbered by what customers 
think they really want, but really looking beyond that.
    So I think it's important to have both. But connecting the 
business to the technical development very early on is the key.
    The Chairman. I think that maybe this is right--that you 
have raised concerns that there does not exist in the national 
laboratories an adequate review process of the success in 
obtaining, getting to research objectives. How would you 
suggest that we instill in this program that link, if it's 
missing? Are there any business models that you can suggest 
that might instill that kind of discipline?
    Mr. Sabol. I can't speak directly to how the process works 
in the national labs, I don't have visibility to it, but I do 
think that given the magnitude of some of the investment 
dollars contemplated in this bill, that it's important to make 
sure you get a return on that investment.
    And the way we've done it in GE, and many companies around 
the world have used a stage gate process that simply breaks the 
development and commercialization process into steps, where 
there's a rigorous review at each step to make sure that the 
project is still on track, that the customer still wants it 
when it comes out based on the way it's being developed and 
that there's adequate review at each step.
    Projects can go on far too long and spend too much money if 
they aren't reviewed at critical milestones. So we would 
strongly recommend that that same sort of process be 
implemented, if it doesn't exist already.
    The Chairman. Now, tell me about that review. Who does the 
review and what are you looking for?
    Mr. Sabol. The review is conducted with the technologists 
that are actually developing the technology, the sales force 
that's actually responsible for selling the technology and, 
importantly, with customers. The customers actually come in and 
give their own point of view based on what they're hearing. So 
getting that team, all three of those parties, engaged very 
early on, and at each critical step, there's little chance that 
the project can fall off the tracks.
    The Chairman. Thank you very much. Frankly, it's 
interesting. That question doesn't only apply to this. I have 
the same problem with big projects that are built for the 
Department of Energy, with high technology as a goal. It takes 
a long time to get from the start to the end, and we're getting 
fooled along the way into thinking we're getting where we 
aren't. And that ends up not achieving on time, sometimes not 
achieving at all, and sometimes costing way too much.
    The problem I'm stuck worrying about is this, how do I find 
that out as soon as possible, that what I just described is 
occurring? And we haven't solved that yet, but I've gotten my 
dander up because it's happened too much and I'm not going to 
let it happen anymore. I don't know how we're going to fix it, 
but we're going to stop at some points and take a real look.
    There's one thing that you have that we don't have in the 
regular science projects. Frankly, you have commercial users 
and that's really interesting, because they come along and they 
could stop something. Because you're making headway, but they 
could tell you, look, the door and that knob that you've got 
all the way, but that door isn't going to work. Right? 
Everything else is beautiful, but if you need that door--I'm 
just giving you something, they'll tell you. We're not sure we 
know that in the big science projects, nor do we know how to 
find out about it. We'll be conferring with you.
    Do any of you have comments regarding the issue I'm 
speaking of? Maybe it doesn't apply to your work. That is, how 
do we make sure that the money we're spending on research is 
being spent for something that is apt to achieve, and that we 
know as soon as we can whether it's on the right track?
    Mr. Reynolds?
    Mr. Reynolds. I think through constructing projects and 
having the water utilities use the technology to see how it 
actually performs in use is very beneficial. And even when we 
build projects with the Aqueduct Authority, we have all the 
users involved. The maintenance guys, the operations guys, 
everybody is involved, the engineers, get everybody's 
perspective to make sure what you're designing is really what 
you need and that's the----
    The Chairman. But you're not really doing research, are 
you? You're applying it all right now, when you're talking 
about it, aren't you?
    Mr. Reynolds. Yes, we're in application and we believe that 
by investing in desalination technology that the manufacturers 
will in turn also invest in trying to make more efficient 
products.
    The Chairman. Mr. Archuleta.
    Mr. Archuleta. Let me add to that, Senator. I mentioned 
this partnership that we have with the universities, and all 
that, you know we're really kind of a research triangle there 
involving our desert area there, the opportunities and 
challenges that we bring.
    But, for example, in brackish groundwater, silica is an 
issue in terms of feed water going into it. And that's one of 
the projects that we identified with Sandia. And I think that's 
very promising in terms of having a utility working with 
laboratories.
    The other one is in the concentrate disposal. There are 
issues about the downhole, you know, implications of that, and 
the whole regulatory scheme. I can tell you that one of the big 
challenges we have, too, is convincing the regulators that some 
of these things are not harmful to the environment. We can work 
with them and firm it, and streamline that process so we get 
there faster.
    The other issues on membranes, we don't see ourselves, we 
see more the General Electrics, and other kind of folks working 
on the next--and the laboratories working on the next 
generation of membranes, or some other device maybe besides 
membranes.
    So I think there's a little bit of a split between some of 
the local people--can work with others on some of those local 
problems. And I think the next generation of membranes is 
probably left more to the laboratories than to the private 
sector.
    Mr. Parekh. Mr. Chairman, I couldn't have framed the 
concern any better than you did. I think you're right on the 
mark with the challenge that is offered when you have Federal 
funding available for research. And I think it's absolutely 
essential that obviously the national labs be involved, because 
they have a tremendous knowledge base behind them to help us 
with this.
    The point I would like to make to help this along is not 
too dissimilar to what Mr. Sabol has said, to include--from the 
initiation of the funding, the inclusion of partnerships that 
are going to be most relevant to this research.
    And in our case, just like Mr. Archuleta explained, we 
think the American Waterworks Research Foundation brings a 
tremendous amount of history and expertise in terms of what is 
actually going to be applied and what is needed by the drinking 
water utilities that are going to ultimately use these 
products.
    The Chairman. Okay. Could I ask one last question of you, 
Mr. Sabol? You've explained in general terms what General 
Electric Water Resources Division or whatever its formal name 
is--in terms of people. What are the volume of sales? Did you 
tell us that?
    Mr. Sabol. The water business in General Electric is 
approximately $2.2 billion dollars in revenue. Of that, 
approximately half is in membrane-based equipment.
    The Chairman. So, in that regard, what do you do? You make 
it and sell it, is that it then?
    Mr. Sabol. We do. We engineer the pieces of equipment to 
the customer's specifications, and we build the actual devices, 
membranes, and equipment and then install it and operate it in 
some cases.
    The Chairman. Would you envision that your company could 
form some relationship, if we wanted it to go that way, with 
one of the research teams or entities that we're funding so 
that you would work together on research and toward an end?
    Mr. Sabol. Absolutely.
    The Chairman. Do you do that now, with pure institutional 
research institutions?
    Mr. Sabol. We do.
    The Chairman. Like?
    Mr. Sabol. General Electric works with everything from the 
national labs to State and local entities that do research to 
other companies that we work with to develop research. It's a 
fairly common process, and as long as the goals are aligned, 
it's very achievable.
    The Chairman. Do you think--if I heard you right, you're 
saying that certain projects that are being funded--that 
research projects they come and go, some are started and die, 
some are funded partially, but don't get completed, which I 
gather means, you make decisions, before you waste all the 
money, use all the money, that it just isn't going to work at 
different points; is that correct?
    Mr. Sabol. That's absolutely correct. It's very difficult 
to walk away from a project that's partially completed, but if 
the customer is saying we're not going to hit the cost point 
they need, or not going to meet the functional characteristics 
that they need, we pull the plug on the project.
    The Chairman. I'm going to say this right now, and then I'm 
closing the record, and if it goes in the ears of the 
laboratories and they worry about this segment--but you're 
going to have to think about it. I have a suspicion that one of 
the problems in funding big laboratories, national laboratories 
and projects like this, is it's very hard to stop a project 
midway and it's very hard to say this isn't going to work.
    Maybe I'm wrong, but I'm going to get that answered before 
we finish this legislation, because there's got to be a way to 
stop things without 10 years elapsing, and then finding that 
something else passed it by, and you could have found out 3 
years into it that it was moving in the wrong direction. I just 
think private sector does it--you've already said you make 
mistakes--so I'm not trying to tell the laboratories you never 
do and they always do, I'm not saying that. But I think it's a 
lot harder for the private sector to make--to continue to do 
it, because pretty soon you get fired.
    Mr. Sabol. Absolutely.
    The Chairman. I mean, they look at you and say every year, 
is this the right guy for this job, right?
    Mr. Sabol. That's right.
    The Chairman. And you're young, which means they look for 
young people, that means they got rid of somebody else. I don't 
know who, maybe they were old people. Anyway, maybe we need 
that. Maybe we need a way of holding those in charge, and 
letting them go, instead of the project. Maybe they get their 
job terminated. But we can't do that either. That's enough of 
me. We stand in recess until call of the chair. Thank you.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                           El Paso Water Utilities,
                                      Public Service Board,
                                     El Paso, TX, November 3, 2005.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Domenici: I wish to thank you and your staff for 
allowing me the opportunity to appear before the Senate Committee on 
Energy and Natural Resources on Thursday, October 20, 2005. As you 
know, I was there as a representative of the WateReuse Association and 
its Foundation, but also as the General Manager of the El Paso Water 
Utilities.
    The purpose of this letter is to respond to your letter of October 
24, 2005 on questions you asked me to respond for the record.
    Since I testified on behalf of the WateReuse Association and its 
Foundation, many of the questions that you asked will be responded to 
by Mr. Wade Miller, the Executive Director. However, the questions that 
you ask specific to El Paso Water Utilities, I am responding to per the 
attachment.
    Again, it was good seeing you and I am glad that I was able to 
perhaps provide some information to you and your Committee that is 
useful on these Bills. I also informed our Mayor and Public Service 
Board members of your interest in visiting El Paso some time in the 
near future as our Desalination Plant moves further into construction. 
We would welcome your visit any time your schedule permits. We do a lot 
of good regional planning with New Mexico and you are extremely well 
thought of and regarded in this region and this community for the 
outstanding leadership that you have provided on water policy and 
energy management. I also look forward to seeing you at the Multi-State 
Salinity Coalition meeting in Albuquerque in early December.
            Sincerely,
                                 Edmund G. Archuleta, P.E.,
                                                   General Manager.
[Enclosure.]
                    Questions From Senator Domenici
    Question 1a. The two bills we are considering today take two 
different approaches to meeting water supply challenges. It is my 
understanding that the City of El Paso recently began construction of a 
desalination facility which is expected to cost $87 million.
    Do you believe the federal government should focus its investment 
on subsidies or water technology research and development?
    Answer. The El Paso Water Utilities (``EPWU'') believes that 
federal investment in desalination should be in research and technology 
development because that is the most beneficial way to bring down the 
cost of ocean and inland desalination.
    Question 1b. Assuming that S. 1016 is passed before the El Paso 
facility begins producing desalinated water, how much help would S. 
1016 provide?
    Answer. Obviously, any subsidies would help, but because the energy 
costs of inland desalination are lower than ocean desalination, I do 
not believe that S. 1016 would have a substantial impact on the EPWUI-
Fort Bliss operation. The estimated capital plus operating costs of 
approximately $500 per acre-foot ($1.53 per 1000 gallons) is affordable 
to the consumer. Also, subsidies would send the wrong energy use 
signal.
    Question 2. What has been your experience in your past partnerships 
with the national laboratories?
    Answer. EPWU along with its CHIWAWA partners (New Mexico State, 
Texas A&M, UTEP and the City of Alamogordo) are currently developing 
three research programs related to inland concentrate disposal: deep 
hole injection, silica removal and salt tolerant plants. Initially, the 
CHIWAWA partners had hoped to gain some research funding through Sandia 
National Laboratories. Without an increase in Sandia's research account 
for this specific purpose, this will not happen in this initial phase 
of our collaboration.
    As the past Chair of the AWWA Research Foundation, I have worked 
with Sandia National Laboratories on cost-effective methods for arsenic 
treatment. This has been a great and positive partnership.
    Question 3. How would you recommend ensuring that the research 
undertaken pursuant to S. 1860 address real-world problems?
    Answer. In the El Paso region, both El Paso and Alamogordo are 
building large desalination plants (ours is under construction and 
Alamogordo's is under design), the biggest area that we want to cut 
costs and find a better approach is in concentrate disposal. Finding 
better, cheaper, perhaps more useful methods, will not only conserve 
water, but also save energy and better protect our environment.
    With the Tularosa Desalination Research Facility under construction 
and with El Paso's TecH20 Center under design, we are the perfect model 
to advance the science of concentrate management in an inland area. 
Technical advances in this area would be of great value to cities in 
this country and around the world.
    With the technical capabilities of national labs and universities, 
plus the practical need of cities, we believe our consortium. (CHIWAWA) 
is a good model to begin this work where the need is the greatest and 
the talent/human resources are there.
                                 ______
                                 
                                 GE Infrastructure,
                              Water & Process Technologies,
                                     Trevose, PA, November 4, 2005.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Thank you again for the opportunity to appear 
before the Senate Committee on Energy and Natural Resources on 
Thursday, October 20, 2005, to give testimony on S. 1016 and S. 1860. 
We were honored to appear before your Committee and provide our views 
on these two bills.
    We are also pleased to respond to the follow-up questions that 
Senator Bingaman submitted for the record, and we are attaching our 
responses, which we have written beneath each of his questions.
    Please let us know if we can provide any further information.
            Sincerely yours,
                                            Colin R. Sabol,
                                           Chief Marketing Officer.
[Enclosure.]
                    Questions From Senator Bingaman
    Question 1a. It appears that GE is already investing significant 
amounts in water technology research.
    Is most of GE's water technology research being done here in the 
United States?
    Answer. We conduct between 60-70% of our research here in the 
United States. We conduct most of our domestic research in two 
locations: (1) GE's Global Research Center in Niskayuna, New York; and 
(2) GE Water's headquarters in Trevose, PA. However, we are very 
interested in expanding our research presence in key water-scarce 
regions, including New Mexico, where we recently applied for a grant 
that would fund water scarcity research.
    Question 1b. To date, has any Federal funding been available to 
advance that research? If so, from what source?
    Answer. GE Water has responded to Request for Proposals (RFPs) from 
the Bureau of Reclamation, but the size of the grants we sought were 
too small to support meaningful R&D efforts in the areas of 
desalination and reuse.
    GE Water has in the past also solicited funding from DOE and NIST, 
but the RFPs that we have responded to have not been directly related 
to desalination or water reuse.
    Question 2. Your testimony in several places mentions ``integrated 
water-treatment, renewable energy systems''. I can think of a lot of 
potential applications for these type of systems--particularly in rural 
areas and Indian reservations in New Mexico.
    Are such systems readily available at the present time, or is more 
research needed to make them economically viable?
    Answer. We are very much aware of the need for integrated water-
treatment, renewable energy systems in rural areas and Indian 
reservations, and we are interested in implementing a number of 
demonstration projects, including at least one in New Mexico. However, 
we do believe that it is necessary to conduct further research focused 
on the electromechanical interfaces (i.e., pumps, controls, power 
storage & conversion) between the renewable sources and water systems.
    Question 3a. In your testimony you suggest that the ``Lead 
Laboratories and the Advisory Panel should select at least one industry 
partner to participate in each program.'' The bill calls for industry 
to be represented on the Advisory Panel and to be eligible for the 
competitive grant program.
    Do you think that a specific industrial advisory group is needed 
for each area of R&D that would develop under S. 1860?
    Answer. We do believe that a specific industrial advisory group is 
needed for each major area of R&D that would develop under S. 1860. We 
further believe that each of the groups should include participants 
from industry.
    In addition, we believe that projects run by the lead laboratories 
would benefit from industrial partnerships. Such partnerships would 
help to ensure that the research performed by the laboratory has 
commercial value.
    Question 3b. To achieve your goal of helping to guide and validate 
the commercial aspects of the technology programs, do you think it also 
necessary to include industry representatives in the process to develop 
the technology roadmap?
    Answer. We do believe that it is necessary to include industry 
representatives in the process to develop the technology roadmap. Such 
industry participation would increase the likelihood that the roadmap 
would result in commercially viable desalination and reuse products and 
services. GE Water participated in the development and refinement of 
the Desalination and Water Reuse Roadmap already completed by Sandia 
and the Bureau of Reclamation, and we found this to be a very positive 
experience.
                                 ______
                                 
                          University of California,
                    Lawrence Livermore National Laboratory,
                                   Livermore, CA, November 7, 2005.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Senator Bingaman: Thank you for the 
opportunity to appear before the Senate Committee on Energy and Natural 
Resources on Thursday, October 20, 2005, to give testimony regarding S. 
1016, to direct the Secretary of Energy to make incentive payments to 
the owners or operators of qualified desalination facilities to 
partially offset the cost of electrical energy required to operate the 
facilities, and for other purposes; and S. 1860, to amend the Energy 
Policy Act of 2005 to improve energy production and reduce energy 
demand through improved use of reclaimed waters, and for other 
purposes.
    I am pleased to submit the attached responses to your additional 
questions, to submit along with my written testimony for the record.
    Should you require any further information, please do not hesitate 
to contact me.
            Sincerely,
                                             Dr. Jane Long,
                                                Associate Director.
[Enclosure.]
                    Questions From Senator Domenici
    Question 1. A significant portion of this bill is dedicated to 
technology transfer and commercialization of water supply technologies.
    How do you plan to make the information garnered as a result of 
this bill available to the public?
    Answer. The success of the program depends wide dissemination of 
results as well informed input, so we will use a variety of means of 
communication. Of course, our detailed plans will be coordinated with 
other R&D centers in the overall national program. In addition to 
presenting research results at technical conferences, we plan to 
communicate the activities of the center to the user communities in 
less formal meetings with individual water districts, water agencies, 
power companies, and engineering firms. Widespread acceptance and use 
of new technologies for water treatment depends upon favorable 
recommendations from the responsible individuals in specific water 
supply utilities that have experience with the new technologies. 
Because of this, we will continue to work closely with water agencies 
and water utilities on a local level to stay informed of their 
technology needs, provide assistance and troubleshooting for pilot and 
demonstration tests of new technologies, and continue to help utilities 
to optimize treatment methods for cost and safety. In support of these 
outreach efforts to users, others in the technical community, and the 
general public, the Laboratory's R&D center will maintain a web site, 
which will provide our research results as well as the results from 
pilot and demonstration tests.
    Our R&D center will have an advisory board, separate from the one 
described in the legislation, with representatives from water and power 
agencies, water districts, industry and academia. This board will 
review the direction and progress of our research and development 
efforts, and provide guidance to ensure that the technologies and tools 
we develop will be adopted by the user community. An additional benefit 
to having a board is that the board members, chosen on the basis of 
their influence in the water resource community, will help to ensure 
wide dissemination of information about our activities.
    Question 2. Do you believe your past and present partnerships with 
industry, government agencies and water organizations help you promote 
the real-world application of technologies developed as a result of S. 
1860? If so, how?
    Answer. As I highlighted in my written testimony, we are working 
with local water utilities to test our own new technologies, and in 
troubleshooting current problems with contaminant removal. We are also 
partnering with several engineering companies, local water agencies and 
utilities on proposals for new technology development. These 
partnerships are absolutely essential to the viability of a R&D center. 
They are needed to focus technology development on areas of need, guide 
laboratory development of technologies that are most likely to be 
workable in real-world applications, and gain from the wealth of 
practical experience of individuals employed by industry and the 
utilities.
    Question 3. How can the technologies developed as a result of S. 
1860 address global water shortages?
    Answer. Providing cheap, potable water to reduce or eliminate 
global water shortages is a key goal of the program. For example, in 
our R&D center, we plan to develop inexpensive technologies to allow 
safe water re-cycling, to develop `smart' membranes to carry our 
selective extractions from `impaired water' contaminated for example 
with arsenic or nitrate, and to reduce the energy cost of desalination 
of brackish and ocean waters. Large reductions in the amount of energy 
needed for desalination are possible. Current technologies are at least 
a factor of 5 times higher in energy usage than what is 
thermodynamically possible. There is no global shortage of water--the 
shortage is of safe potable water. We need to reduce the cleanup cost 
to increase that supply. The development of commercially available, 
cost-effective, low-maintenance systems will constitute a significant 
contribution to the issue of safe global water supplies.
    Question 4. What application do the technologies that would be 
developed as a result of S. 1860 have with respect to homeland 
security?
    Answer. Real-time information on the quality of water entering and 
distributed in the public water supply system is a clear need both for 
accidental and intentional contamination. A focus area for our 
technology center will be the development of in-line sensors to replace 
conventional sampling and remote chemical analyses, which have up to 
several day turn-around. This is an area of synergy between current 
U.S. Department of Homeland Security (DHS) funded R&D, where sensor 
development for chemical and biological warfare applications is being 
carried out, and water supply R&D. The same methods used for Chem-Bio 
sensing can be modified for sensing contaminants of concern in water 
supply systems. This is already an active area at Livermore and other 
laboratories, but would be greatly accelerated through the 
establishment of an R&D center. Similarly, treatment systems developed 
through this program would be most useful for emergency response in 
instances where water supply has been compromised.
    Question 5. In your testimony, you state that the national 
laboratories have a proven track record of developing new technologies. 
How will you ensure that these technologies are engineered in an 
economically-viable manner?
    Answer. As in many past and current activities, we will partner 
with engineering firms that focus on construction and operations of 
water treatment plants, with public water providers and with agencies, 
utilities and private corporations in the energy arena. Guidance on 
economics and operational constraints will be obtained from industry/
agency partners and advisors at multiple stages of development. Each 
technology will require an economic assessment and comparison to 
conventional methods for efficiency, cost savings and overall benefit. 
Such assessments are likely to require updating as the technologies 
approach commercial technology transfer. In order to insure that our 
program's R&D results reach the public, our role must cross-cut from 
laboratory R&D through end user needs. We will use our center's 
resources and to help promising new technologies survive the so-called 
`Valley of Death', the difficult transition from proof-of-concept to 
commercialization.
    Question 6. It is my understanding that Lawrence Livermore National 
Laboratory currently has a significant amount of water resources 
research underway. What research capabilities does Lawrence Livermore 
National Laboratory have that are not available in the private sector?
    Answer. LLNL has specific capabilities not available in the private 
sector including unique computational and analytical laboratories as 
well as special expertise in particularly important, relevant areas of 
chemistry and materials science. I believe an even more important 
strength is the Laboratory's ability to integrate these capabilities to 
provide solutions to problems of national interest.
    As an example, LLNL licensed an innovative approach to capacitance 
deionization (CDI) to desalt water using aerogels. In 1995, this 
technology was selected as one of the top 100 technology innovations of 
the year (R&D 100 Award). Next-generation and spin-offs from this 
original technology are under development. Because electrodialysis (ED) 
processes have fundamental efficiency advantages over reverse osmosis 
(RO), LLNL is integrating its special capabilities in molecular 
modeling with membrane science and engineering expertise to improve 
energy efficiency potentially by an order of magnitude over current ED 
processes. We are pushing the ion selectivity and transport thresholds 
for ED closer to theoretical limits. (This effort was highlighted in 
the National Nanotechnology Initiative at Five Years: Assessment and 
Recommendations of the National Nanotechnology Advisory Panel, prepared 
by the President's Council of Advisors on Science and Technology, May 
2005 (pg. 37) (which can be found at http://www.nano.gov/html/news/
PCASTreport.htm)). In addition, using internal (LDRD) funds, LLNL has 
recently developed a new energy-efficient electrodialysis technology 
for selective removal of contaminants such as nitrate. With local water 
utilities, we are seeking outside funding for pilot-testing of this 
technology. We are also beginning a project, funded by the California 
Department of Water Resources, to develop a potentially very energy 
efficient desalination technology called `ion pumping'.
    These projects have clearly benefited from the broad range of 
technical capabilities that exist at a national laboratory such as 
LLNL, and that do not exist in the private sector. For example, we can 
call on experts in all aspects of technology development to help us; 
hydrodynamics experts to optimize fluid flow properties, synthetic 
chemists for membrane functionalization, polymer engineers to select 
durable membrane materials, and others. We also leverage off R&D in 
other areas. For example, we are able to modify sensor technologies 
currently being developed for DHS applications for water monitoring 
applications. We can apply computational fluid dynamics codes currently 
being used for a wide range of applications including nuclear testing, 
to model concentration polarization at membrane surfaces, a key 
limitation on the energy efficiency of membrane-based separation 
processes.
    In addition, we can take advantage of our world-class computational 
resources to carry out first-principles modeling of potential 
technologies to evaluate their potential performance before using 
resources for materials synthesis and laboratory testing. This is the 
approach we used to develop our new electrodialysis technology, and the 
approach is currently being used for our ion pump work. Modeling has 
not been used in this manner in the past. Technologies have mainly been 
developed through trial and error. We believe the computational 
approach is now sufficiently mature to significantly benefit future 
technology development for water treatment.
    (For more information on LLNL's water technology development 
capabilities, please see the short description, attached.)
    Question 7. Which of the missions contained in S. 1860 do you 
believe Lawrence Livermore National Laboratory would be best qualified 
to undertake?
    Answer. The key elements in S. 1860 include an advisory panel, 
assessment of current efforts, identification of research and 
development priorities, development of a technology roadmap to guide 
program activities, a directed research, development, demonstration, 
transfer and commercialization effort and a grants program. LLNL has 
led or participated in assessment, prioritization and technology 
roadmapping activities such as those described in S. 1860. We bring to 
the effort wide ranging expertise in many relevant science and 
technology areas. An equally important aspect of roadmap development is 
the involvement of a wide range of stakeholders from the energy and 
water communities. LLNL's partnerships span across the multiple 
stakeholder communities whose involvement will be necessary for these 
efforts. This familiarity with the stakeholders and their diverse 
perspectives will be important to the success of the roadmap developed 
and the program itself.
    With respect to the directed R&D program, LLNL has extensive 
capabilities and a strong track record in both the development and 
commercialization of technologies and management tools, including those 
in water treatment and energy arenas (please see other responses for 
details). We also have a proven track record in successfully 
collaborating with industry, universities and agencies at the diversity 
of levels described in S. 1860. The technology roadmap that will be 
developed as part of the S. 1860 activities will prioritize the 
missions of this legislation. LLNL will focus its efforts on identified 
high priority R&D topics.
    Question 8. How will you coordinate research currently underway 
with the authority provided by S. 1860?
    Answer. In its expanded role as part of the national program, LLNL 
will continue current activities in the area of water and energy supply 
technology, which are funded with a mixture of state and federal funds. 
We would expect these activities to broaden over time and address the 
priorities defined by the roadmap. An important aspect of our role as 
an R&D center would be to coordinate LLNL's R&D activities with program 
collaborators (partnering with universities and other national 
laboratories, public/private partnerships with industry, water and 
energy utilities and agencies). Efforts in all program elements--as 
well as work other agencies--need to be complementary. Working with the 
broader energy and water communities will ensure improved 
communication, and it will aid in leveraging other ongoing efforts. The 
roadmapping process will take into consideration other recent or 
ongoing research prioritization and roadmapping efforts (e.g., the 
USBR-Sandia Desalination Roadmap completed in 2003 and DOE's Water-for-
Energy roadmap currently in progress). (See also response to Senator 
Bingaman's questions).
    Our current activities would be enhanced by the authority provided 
by S. 1860 in that it includes commercialization issues, which are not 
supported through current funding.
    Question 9. How will Lawrence Livermore's significant super-
computing capability be brought to bear in carrying out S. 1860?
    Answer. As described above, our resident super-computing 
capabilities allow us to evaluate new ideas for treatment technologies 
by carrying out first-principles computer simulations, the results of 
which can be used to screen and select the best approaches for design. 
The same computational methods can then be used to optimize 
technologies that are undergoing laboratory and field testing. We 
believe the computational approach is now sufficiently mature to 
significantly benefit future technology development for water 
treatment.
    Question 10. What do you believe are the most promising 
technologies to accomplish the objectives of S. 1860?
    Answer. The roadmapping effort will integrate the prioritized needs 
of the energy and water communities, provide an understanding of 
existing efforts, and define promising areas to pursue. We have 
described some areas of technical promise both in this response and in 
the description of LLNL's water technology development capabilities, 
attached. Integration of energy efficiency will be essential (see our 
response to Senator Bingaman as well.) Perhaps the greatest benefit of 
the proposed national program is the integrated approach to 
simultaneously address energy and water issues.
    For example, the implementation plan for the USBR-Sandia 
Desalination Roadmap has defined several promising areas for R&D. Some 
of LLNL's efforts in these areas include the following:
    Energy costs for desalination can be reduced significantly. New 
technologies are needed that take advantage of new materials and new 
understanding of physical processes at the molecular level to reduce 
the energy use to levels two to three times lower than at present. 
Technologies that use electrostatic fields to manipulate and separate 
ions from water show great promise in this area.
    The use of species selective `smart' membranes for removal of 
contaminants is a promising more energy-efficient treatment technology. 
Such membranes have been developed for sensor applications. LLNL is 
evaluating promising separations technologies to identify those that 
could be modified to remove toxic species from water.
    Technologies are needed to minimize and dispose of concentrates 
(saline brines) produced from desalination. A promising approach 
combines selective extraction of contaminants and production of high-
purity, marketable by-products with computer-optimized brine reduction 
processes. Overall, the approach could significantly reduce the volume 
of produced brines, and enable efficient salt management in the 
watersheds of inland urban areas. Marketable by-products can offset 
treatment costs.
                    Questions From Senator Bingaman
    Question 1. Obviously with the existence of a National Laboratory 
Energy-Water Nexus team, the Labs have been looking at these water and 
related energy issues for some time.
    Given that, how long will it take to develop the technology roadmap 
called for in the bill, which is intended to establish the framework 
for investing the resources provided to the program?
    Is anything currently underway in this area? If so, does it include 
representatives from government, the academic community, and industry?
    Answer. The current legislation allows for a two-year window. As I 
stated in my written testimony, rapid completion of the assessment and 
roadmap development is challenging, but necessary and appropriate, 
given the urgency of the problem. The effort will greatly benefit from 
the fact that some aspects of this technology roadmap are already in 
various stages of development and involve members of the Energy-Water 
Nexus Team. Specifically, the USBR-Sandia Desalination Roadmap 
completed in 2003 and DOE's Water-for-Energy roadmap currently in 
progress will be available and need to be integrated into the Energy-
Water roadmap called for by this bill. Regional differences and 
synergies will need to be considered and included in a national 
roadmap. This will require review and integration of state and regional 
efforts. An example is the CA Energy Commission's white paper on the 
Water-Energy Relationship (which can be found at http://
www.energy.ca.gov/2005publications/CEC-700-2005-011/CEC-700-2005-
011.PDF), which is summarized in the Integrated Energy Policy Report 
(and can be found at http://www.energy.ca.gov/2005_energypolicy/
index.html).
    Question 2. S. 1016 focuses on the need to provide federal 
assistance to address the high energy costs associated with 
desalination. At the same time, GE's testimony indicates that over the 
past 25 years, the cost of seawater desalination has dropped from $20/
1000 gallons to $4/1000 gallons.
    Based on the current state of research and development, is there a 
significant chance that we will be able to significantly reduce 
desalination energy costs further in the next decade?
    Answer. There are opportunities to reduce energy costs in at least 
two ways: optimizing operations to lower energy costs by utilizing off-
peak or renewable energy sources, and through improving technologies 
that directly reduce energy requirements. As noted in the CA Dept. of 
Water Resources 2005 CA Water Plan Update, unlike every other type of 
water facility, where staffing edges out energy use as the main 
operating expense, desalination's primary operating cost is for energy. 
In a recent summary by the Joint Water Reuse and Desalination Task 
Force (2005), energy costs for currently operating brackish water 
desalination systems accounted for 11% of the total costs; for seawater 
desalination it was 44%. Most desalination plants operate continuously, 
so electricity is used during all seasons, and all times of the day. 
Current plants are operating 90 percent of the time to maximize return 
on capital costs, with downtimes only for maintenance. If financing 
schemes that consider entire life cycle costs for a plant (including 
energy costs for operation) could be devised, it would be feasible to 
run plants during off-peak power periods, and/or to utilize 
intermittent power sources such as wind or solar. Integrated energy-
desalination planning tools would optimize the performance of such 
systems so that desalination could take advantage of lower priced 
power, facilitate development of alternative energy sources, and 
relieve peak grid demand periods.
    In addition, in spite of the many improvements in membrane design 
that have increased the energy efficiency of RO, we are still at least 
5 times above the theoretical energy minimum for salt removal. For RO, 
there also are energy improvements to be made in other parts of process 
train (e.g. pumps, alternative power systems, waste heat, energy 
recovery devices). For example, current energy recovery devices in RO 
systems recover only about 40% of the energy. There are also many 
opportunities to move away from RO altogether, to improve other 
existing technologies such as ED/EDR, to explore innovative concepts, 
and to improve water recovery (thereby increasing water/energy ratio). 
Water recovery is limited by mineral scaling issues and concentrate 
disposal options. It is a fruitful area for technology research and 
development.
    [Attachments]*
---------------------------------------------------------------------------
    * Attachments have been retained in committee files.
---------------------------------------------------------------------------
                                 ______
                                 
                      Sandia National Laboratories,
          Energy, Security & Defense Technologies Division,
                                 Albuquerque, NM, November 7, 2005.
Hon. Pete Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: I am pleased to provide the answers to your 
questions relating to my testimony of October 20, 2005. The attached 
document contains the responses to your questions as requested in a 
letter to me dated October 24, 2005.
    Again, thank you for the opportunity to participate in this very 
important process. If you have any questions, please feel free to 
contact me at (505) 845-9064.
            Sincerely,
                                           Les E. Shephard,
                                                    Vice President.
[Enclosure.]
                    Questions From Senator Domenici
    Question 1a. In your testimony, you suggest that without 
significant technological advances, we may not be able to meet our 
energy and water needs in the next 20 years.
    Will you please explain?
    Answer. In simple terms, water and energy production are 
interdependent. An inadequate supply of one often affects the supply 
and cost of the other. Estimates show that the energy demands of the 
United States will increase by approximately 30% over the next 20 
years. Today, thermoelectric power production accounts for 
approximately 40% of the freshwater withdrawals in the United States, a 
number roughly equal to the agricultural sector. In a growing number of 
regions in the United States, all available water is completely 
allocated. Without some combination of significant new water supplies 
and more water-efficient power generation technology, the United States 
cannot economically meet the projected growth in power generation 
capability
    The energy required for the withdrawal, conveyance and treatment of 
water is 4% of the total U.S. electric power generation. In the future, 
the projected energy requirements for water and waste water treatment 
for non-traditional water resource utilization, including desalination 
and waste water reuse, are projected to increase to 6-10% of the total 
electricity generated. Populations continue to grow, particularly in 
water stressed areas such as the west, southwest, and Florida. A major 
factor in creating affordable new water to meet these growing 
population demands is reducing the amount of energy required to pump, 
treat and distribute impaired water.
    The interdependency can be simply summarized, no water--no 
electricity. Clearly technology advancements are required to keep 
energy costs and water costs, both in terms of actual dollars and 
competition amongst sectors, from derailing continued economic growth.
    Question 1b. How would S. 1860 help meet this need?
    Answer. The proposed legislation, S. 1860, would provide a 
systematic approach to solving to this problem by designating the 
authority for the Department of Energy (DOE) to engage in this critical 
mission space, by drawing on the assets of the national labs and 
universities and, by leveraging other research and development efforts 
through a grants program with other federal agencies and private 
industry. A key element of the program established by S. 1860 is the 
inclusion of an explicit commercialization and tech transfer task. 
Coordinating this work through road mapping activities will enhance the 
impact of the federal investment by prioritizing activities to get the 
greatest return for the federal investment dollar today and into the 
future. This bill will create breakthrough technologies by tightly 
coupling research, development and technology transfer in the energy 
and water sectors. For example, considering inland brackish water or 
other impaired sources, the water supply could be dramatically 
increased through research on advanced technologies with the potential 
for significant reduction of water desalination or treatment costs and 
energy requirements, followed by pilot scale testing of the most 
promising technologies, followed by active technology transfer and 
commercialization.
    Question 2a. Since Fiscal year 2002, Congress has appropriated over 
$23 million for Sandia National Laboratories to undertake research on 
arsenic removal, advanced desalination, to aid in the planning of the 
Tularosa Desalination Facility and to undertake an energy-water supply 
roadmap.
    Has the funding you have received for water technology enhanced 
Sandia National Laboratory's ability in this area, and how?
    Answer. Yes. This funding has solidified a water program at Sandia 
that is strongly focused on key water technologies and strong 
partnerships, both inside and outside of the government, with industry, 
and with end-users. The program has significant leveraging of diverse 
capabilities across the labs, pulling significant technological 
advances from areas such as computational methods, nanoscience 
technologies and microsystems. This program has attracted the 
engagement of top researchers at Sandia, including one of the three 
Sandia Fellows, several Senior Scientists and Distinguished Members of 
the Technical Staff to develop advanced concepts. This investment has 
enabled us to focus our historic water-related research in radioactive 
waste management, environmental remediation, basic geosciences, sensor 
development, vulnerability analysis and other security technologies, 
and modeling of complex and interdependent systems, such as energy and 
water, on the problem of domestic and international water supply 
shortages and conflicts. Our leadership in this area continues with our 
road mapping activities. As a result of the growing program in 
desalination and treatment, several laboratories have been refocused 
and reconfigured to focus exclusively on advanced water treatment 
technology development. Finally, Sandia senior management has made 
strategic decisions to support the development of this integrated water 
initiative with Laboratory Directed Research and Development (LDRD) and 
program development funds.
    Question 2b. What is the status of each of water technology-related 
activities currently being undertaken by Sandia National Laboratories?
    Answer. Sandia National Laboratories has provided leadership and 
has had impact in five major areas: 1) Desalination roadmap development 
and design and development of the Tularosa Desalination Facility with 
the Bureau of Reclamation, 2) Advanced desalination technology 
development, 3) Arsenic treatment technology development and 
demonstration, 4) Energy and water interdependencies including 
technology road mapping and developing a report to congress and, 5) 
Engagement with the Office of the State Engineer (OSE) in New Mexico. 
Each of these is described in more detail below.
    The original funding allowed the creation of the Desalination and 
Water Purification Technology Roadmap which was published in 
partnership with the Bureau of Reclamation and reviewed by the National 
Research Council. A second generation Desalination and Water Reuse 
Roadmap is currently being developed with four of five scheduled 
workshops completed. This roadmap will be completed in May 2006. An 
additional part of the original funding supported Sandia's leadership 
in the development and design of the Tularosa Desalination Facility. 
The Bureau of Reclamation now has total responsibility for this 
project. Groundbreaking for the facility was June 29, 2004 and the 
first experiments using the Office of Naval Research system are 
underway.
    In the desalination program arena, we are pursuing fundamental 
desalination research in such areas as biomimetic membrane 
nanomaterials, clathrates (``freeze distillation''), and capacitive 
deionization here at Sandia. We are working with Los Alamos to develop 
subsurface wastewater injection strategies and expect in the next year 
to begin working with University of Texas at El Paso researchers to 
identify new silica removal strategies (the latter project will be 
joint funded by Sandia and the City of El Paso). In the coming year, we 
will have ready for pilot-testing new technologies using centrifuges 
and electrodialysis to remove salts from inland brines. In addition, we 
have several projects underway with universities and industrial 
partners.
    In the area of arsenic removal, Sandia National Laboratories, in 
partnership with the American Water Works Association Research 
Foundation (AwwaRF) and WERC: A Consortium for Environmental Education 
and Technology Development, have made significant progress in helping 
communities deal with the new Environmental Protection Agency (EPA) 
standard. Sandia has fielded three pilot tests (Soccoro, Desert Sands, 
and Rio Rancho) which have begun to yield results. Additional pilots 
are planned in New Mexico and at other locations around the country. 
While some media performs better than others, all of the commercially 
available media that have been tested in the Soccoro pilot have not 
performed to expectations. The media were chosen from peer reviews as 
part of the Arsenic Vendors Forums, the third such forum was held Nov. 
2-4, 2005 in Albuquerque. Sandia has worked with some of the vendors to 
help diagnose production issues. Regional workshops have been and are 
continuing to be held around the state in order to help New Mexico 
communities assess the proper approach that they should take in 
addressing compliance with this issue. The research at AwwaRF has 
yielded new materials that will be included in the second phase of 
pilots at the New Mexico sites. The Sandia developed SANS material will 
also be tested in the second phase of the pilots. In addition, Sandia 
in partnership with the New Mexico Environment Department (NMED) has 
begun an individualized rural outreach program where Sandia will 
analyze water quality in local communities and help them decide which 
technology or other management approaches may be best for them.
    The energy water technology roadmap process is underway. Regional 
workshops across the country are scheduled for November, December and 
January. The executive board, a collection of key individuals from 
government including DOE, academia, and industry, have met and are 
helping to guide the road map process. A technical innovation workshop 
is scheduled for April 2006 based upon needs from the Regional 
workshops and the final roadmap detailing research priorities will be 
published in September 2006.
    A report to congress, to be published by DOE in February 2006, is 
being written under the leadership of Sandia National Laboratories. 
Significant engagement with Los Alamos National Laboratory and National 
Energy Technology Laboratory as well as advice from the rest of the 
multi-lab team supports this effort.
    Finally, locally in New Mexico, in collaboration with the Office of 
the State Engineer (OSE) and Interstate Stream Commission, we are 
currently developing decision support models to assist in water 
resources management planning for the Gila River Basin, a critical 
basin in southwestern New Mexico. We have worked closely with the OSE 
to help train staff in the use of this modeling tool. We have developed 
web based tools to allow real-time collaboration with geographically 
separated institutions as they jointly develop complex water system 
models.
    Question 2c. What missions contained in S. 1860 do you believe 
Sandia National Laboratories would be best qualified to undertake?
    Answer. As noted in the previous two answers, Sandia National 
Laboratories extensive and diverse water program qualifies us for a 
lead lab role within this new program including the technology transfer 
mission and allows us to partner effectively and engage in the grants 
portion of this legislation. Specifically, we have demonstrated success 
in developing a systems approach to understanding water that enables us 
to identify technology needs early and systematically in a prioritized 
manner. We have actively and successfully engaged with a broad 
community on arsenic. We are actively and successfully engaged with 
industry at a very early stage in our desalination research and we are 
a DOE complex leader in technology transfer. Our qualifications are 
based in our successes in building a national partnership with the 
water treatment community; in addressing water needs in conflict-rich 
but water poor regions; in undertaking and coordinating fundamental 
research taking place at multiple universities, private companies, and 
national labs; in moving technologies from bench-scale to pilot-
testing; developing strategies and designs for the Tularosa 
Desalination Facility; and, in leading three water technology road map 
activities.
    Sandia National Laboratories is well qualified to lead and engage 
in water treatment areas to reclaim and improve access to previously 
unusable and non-traditional water sources. By developing and piloting 
technologies that increase the amount of available water for human uses 
(e.g. inland desalination and produced water treatment) Sandia National 
Laboratories can impact the supply of water. Sandia's record in the 
road map arena demonstrates our ability to partner and to lead 
activities with multiple organizations, including the coordination and 
integration of research. Our leadership in developing water resource 
management models to aid decision-making in water-short regions is also 
an area where we have outstanding capabilities. Our ability to 
effectively model complex systems qualifies us for the systems analysis 
role called out in the legislation. This activity, coupled with sensor 
development activities, will impact water quality issues. Sandia 
National Laboratories has an outstanding track record for technology 
transfer creating real-world applications. While we are still at a 
relatively early stage, technology transfer and substantial industry 
engagement is already under way. A major Cooperative Research and 
Development Agreement (CRADA) for commercialization of microchemlab 
technology for real-time water monitoring is about to start Phase II 
activities. Desalination jump start activities and arsenic treatment 
pilot testing both have substantial industry engagement focusing on 
bringing new technologies in to application.
    Question 3a. A large portion of S. 1860 is dedicated to technology 
transfer and commercialization of technologies to ensure that the 
technologies can be used in real-world applications.
    Do you feel that this bill goes far enough to encourage the 
commercialization, technology transfer and dissemination of 
information?
    Answer. The true measure of success for this activity will be the 
technology transfer from the research institutions evidenced in the 
deployment of new technology by the end-user community. The bill 
addresses key issues which can be barriers to technology transfer. 
First, the technology development is guided by an end-user identified, 
needs-driven roadmap which is created with a partnership amongst 
industry sectors, national labs and universities, and other federal 
agencies. Secondly, the identification of a percentage of funds to 
support technology transfer and deployment is crucial. In the 
accounting of percentages within the bill, there is five percent of the 
funding that is not directly allocated and these funds should be 
applied to the technology transfer mission. Thirdly, the research from 
the grants program must reach the end-users through a technology 
transfer process. The identification of lead labs to provide the 
connection with the technology transfer mission and our ability to 
provide technical integration creates a stable technical maturation 
process in this program. Finally, the guidance of the advisory panel, 
which can enhance connection to influential market drivers, also 
supports the technology transfer mission.
    Question 3b. How do you plan to partner with communities to ensure 
that technologies developed under S. 1860 address real needs?
    Answer. Partnership with communities is essential to understanding 
real needs. Our arsenic program has given our scientists and engineers 
the ``on the ground'' understanding of the real world needs and 
constraints. While individual contact with every community is not 
possible in a national program, some amount of direct community 
interaction is quite valuable. In order to extend the insights gained 
from individual community engagement to a much larger number of 
communities, we draw on our relationships with industrial organizations 
that serve these communities, such as AwwaRF, WateReuse and the Rural 
Water Users Association, to broaden our impact. By involving 
organizations such as these in the roadmap development, the real needs 
can be identified. This coupled with our working knowledge and 
individual experiences will make Sandia National Laboratories effective 
in developing the right technology.
    Question 3c. How do you plan to coordinate your activities with 
water resources research being undertaken by other agencies and 
research undertaken by entities that receive grants under S. 1860?
    Answer. Partnerships are foundational to the successful development 
and deployment of technology in this area. Sandia believes this and it 
is shown in our actions as seen in our previously stated response on 
the description of the status of the congressionally funded water 
projects. We have many partnerships within the water initiative 
including work with government agencies, state agencies, national labs, 
universities, and industry. For example, in our water treatment program 
alone, Sandia National Laboratories is formally partnering with many 
research foundations: the American Water Works Association Research 
Foundation (AwwaRF), the WateReuse Foundation and National Water 
Research Foundation, the Water Environment Research Foundation, and 
WERC: A Consortium for Environmental Education and Technology 
Development. In addition, we also partner with the Bureau of 
Reclamation, the Office of Naval Research, and the Tank Automotive 
Research, Development and Engineering Center (TARDEC). Further, we have 
further formed partnerships and linkages with the California Energy 
Commission, the California Department of Water Resources, and the Texas 
Water Development Board. We are working with the Interstate Stream 
Commission and the Office of the State Engineer in New Mexico. Our 
industry alliances include the General Electric and Dow. Partnerships 
with universities include Massachusetts Institute of Technology, 
University of New Mexico, Arizona State University and, the University 
of Illinois WaterCAMPWS, a consortium of 10 university partners. A 
complete list can be found at our website www.sandia.gov/water. Working 
closely with the grant recipients, we can enhance the impact of each 
organization's effort in this area.
    Question 4a. You state in you testimony that the program created by 
S. 1860 must engage end-users early to define research priorities.
    Do you feel that this can be accomplished by their participation in 
the advisory panel created by the bill?
    Answer. Yes, provided that the advisory panel has the right people, 
has well defined processes for review of the program and effective 
communication of the future needs of the program, and is well connected 
to the lab research development and the grants portion of the program. 
The diversity of opinion, the connectedness to the realities of water 
and energy supply, including the constraints of the regulatory 
environment, and the continued engagement that can be realized with an 
active advisory panel warrants the creation and continuation of this 
body. This advisory panel can provide a continued perspective on all 
parts of the research to development to demonstration to application 
cycle. These perspectives include keen insight to the future direction 
of research and early engagement of the market makers, the key leaders 
of industry that will be essential in the successful introduction of 
high impact technology. While the initial road mapping activities will 
provide a basis for the program execution through the identification of 
research priorities, the advisory panel will be able to provide a 
periodic and continuous feedback and guidance to the DOE to enhance the 
probability of success of this effort. Participants in the roadmap 
guiding executive councils will likely provide an important source for 
advisory panel membership.
    Question 4b. Should industry and end-users also be included in the 
road mapping called for by S. 1860?
    Answer. Yes, for two primary reasons. First, a road mapping 
activity that includes industry and end-users has the potential for 
completely identifying the true needs of the industry. Secondly, the 
roadmap activity energizes and creates a new community, from research 
institutions to end-user organizations, who are involved in the road 
map development. This is particularly important in this diverse area of 
the energy and water interdependency. Our experience with the first and 
second desalination roadmaps has strongly demonstrated the value of 
industry and end-used involvement. The identification of key research 
areas and the broad community engagement in the process, including the 
formation of key partnerships to address key areas, are some of the 
major outcomes of these activities.
                    Questions From Senator Bingaman
    Question 1. Obviously with the existence of a National Laboratory 
Energy-Water Nexus team, the Labs have been looking at these water and 
related energy issues for some time. Given that, how long will it take 
to develop the technology roadmap called for in the bill, which is 
intended to establish the framework for investing the resources 
provided to the program, is anything currently underway in this area? 
If so, does it include representatives from government, the academic 
community, and industry?
    Answer. Yes, there are currently two roadmap activities underway 
addressing energy-water related issues and both have representatives 
from government, academia and industry. The first is an updating of the 
Desalination and Water Purification Technology Roadmap which we and the 
Bureau of Reclamation first issued in 2003. That Road map was favorably 
reviewed by the National Research Council in 2004. Sandia, AwwaRF, the 
WateReuse Foundation, and the Bureau of Reclamation will issue the 
updated Desalination Roadmap in May, 2006. The second roadmap effort is 
focused on evaluating the issues surrounding future water availability 
for energy production and electric power generation. Like the 
Desalination Road map efforts, this roadmap effort includes industry, 
university, and federal and state agencies in definition of needs and 
technology direction needed. This second roadmap was initiated in 
August 2005, with needs definition workshops in November, December and 
January. This roadmap will be published September, 2006. Building on 
these two roadmap efforts, a third roadmap to address energy-for-water 
issues could be developed and completed in 12-18 months, as identified 
in the current legislation. Including all stakeholders in problem 
identification and recommendations of solutions has been shown to be a 
valuable process and should be included and continued in future 
efforts.
    Question 2. S. 1016 focuses on the need to provide federal 
assistance to address the high energy costs associated with 
desalination. At the same time, GE's testimony indicates that over the 
past 25 years, the cost of seawater desalination has dropped from $20/
1000 gallons to $4/1000 gallons.
    Based on the current state of research and development, is there a 
significant chance that we will be able to significantly reduce 
desalination energy costs further in the next decade?
    Answer. Yes. While the science and engineering associated with the 
desalination of sea water have made significant advancement over the 
past 25 years, the rate of decrease in cost has been approximately 4% 
per year. At $4/1000 gallons, the cost of desalinated water is still 
too expensive, prompting a need for incentives to cover energy costs. 
When published in 2003, the Desalination and Water Purification 
Technology Roadmap called for a goal of a 5 times reduction in the cost 
of reclaimed waters before 2020. Reduction in energy costs and brine 
disposal costs, particularly for inland desalination, are required to 
bring the cost of water to competitive levels. The Desalination and 
Water Purification Road map highlighted many advanced concept 
improvements capable of revolutionizing the science and practice of 
desalination. Following the road map principles, we are pursuing those 
concepts with the combination of the highest likelihood of success and 
highest impact. Examples of potential major breakthroughs in the long 
term include the development of nanostructured membranes based on the 
same principles used in the human body and the development of a lower 
energy intensive, zero liquid discharge system which would greatly 
enable inland desalination by reducing or eliminating the brine 
disposal problem.
    Question 3a. Please briefly explain some of the promising 
technologies that are being developed for assisting communities with 
arsenic removal.
    Answer. During the Environmental Protection Agency's (EPA) review 
of the new arsenic standard, the best available technologies included: 
Ion Exchange, Activated Alumina, Reverse Osmosis, Modified Coagulation/
Filtration, Modified Lime Softening and, Electrodialysis Reversal. In 
addition to these processes, the EPA identified other emerging 
technologies, including conventional iron removal processes, manganese 
greensand process, coagulation-assisted microfiltration, and iron-based 
media adsorption.
    Projected costs associated with these technologies were 
prohibitively high, especially for small systems. Reduction of these 
costs requires improvements in treatment processes including 1) fixed 
bed adsorbent media with higher selectivity and greater capacity and 
durability 2) batch systems with superior coagulation/flocculation or 
membrane filtration efficiencies, or 3) electrochemical systems with 
increased efficiencies and lower power requirements.
    Question 3b. Will any of those technologies be deployable on a 
commercial basis within the next 5 years?
    Answer. Yes, but the issue is about cost and the appropriateness of 
the treatment technology for each water system. New EPA regulations go 
into effect on January 1, 2006, with a provision for approved delays in 
implementation for cases where improved technology will be available at 
a later date. This regulation provides the market driver and 
commercially available technologies are available now to address this 
market. However, the issue is not commercial availability. The issue is 
cost. Sandia National Laboratories continues to develop technology-
specific improvements, primarily using fixed bed absorbent media, 
targeting cost reduction in this area through the arsenic partnership 
with WERC and AwwaRF and our rural outreach program.
    Question 3c. Are the issues faced with affordable arsenic removal 
systems similar to the issues being faced in the area of desalination? 
For example, are energy costs and concentrate disposal prominent issues 
in developing arsenic removal systems?
    Answer. While the issues facing arsenic removal and desalination 
are similar, there are striking differences in the relative importance 
of the various factors. Energy consumption is a major factor in current 
desalination technologies (ranging from 40% for seawater desalination 
to 5 to 10% for the total cost for inland desalination). Energy 
consumption is a smaller concern for current arsenic removal 
technologies (ranging from 2 to 4% of the total cost for arsenic 
adsorptive technologies). Disposal costs profiles are also very 
different for arsenic and desalination technologies. Disposal costs for 
desalination vary from 5 to 50% of the total depending on regulatory 
barriers and accounts for 10 to 20% of the total for arsenic adsorptive 
technologies. The key target research areas to reduce cost in treatment 
of water involve reduction of energy use, reduction of disposal costs 
and cost effective material development for the treatment methods.
                                 ______
                                 
                                  Awwa Research Foundation,
                                      Denver, CO, November 8, 2005.
Hon. Pete Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Domenici: Attached please find the responses of AwwaRF 
to the questions submitted by you and Senator Bingaman in follow-up to 
the public hearing held you held on October 20th with regard to S. 
1860.
    We believe that S. 1860 is a visionary legislation that will help 
the water community, along with local, state and federal governments to 
address the water supply challenges of the 21st century. New and energy 
efficient water technologies that can be adopted for daily use at water 
agencies and approved by state regulatory agencies hold the potential 
for us to make use of previously unusable sources of water including 
brackish groundwater and our oceans.
    This will not be an easy task, either in identifying the most 
promising new technologies or in making sure that they are actually 
installed and made operational at the local level. S. 1860 is one of 
the most exciting developments in the water supply community for many 
years. Its potential impact ranks with the introduction of treated 
drinking water in the early 20th century and other milestones that have 
had such a positive impact on the life of our nation.
    We believe that AwwaRF's experience in managing over a third of a 
billion dollars in drinking water research and over 900 projects will 
be a useful support in this process and we look forward to putting this 
expertise at the service of the goals of your legislation. It our hope 
that our answers to your questions will help to support the S. 1860 
process and move it towards becoming law. Thank you again for the 
introduction of this bill and for the opportunity to share our ideas 
with you.
            Sincerely,
                                       Robert Renner, P.E.,
                                                Executive Director.
[Enclosure.]
 Awwa Research Foundation Responses to Questions From Senator Domenici 
                          and Senator Bingaman
    On October 20, 2005, the Awwa Research Foundation (AwwaRF) provided 
testimony, through Dr. Pankaj Parekh, Los Angeles Department of Water 
and Power, to the Senate Committee on Energy and Natural Resources, 
chaired by the Honorable Pete Domenici.
    Following this testimony, Chairman Domenici provided additional 
questions to Dr. Parekh to supplement AwwaRF's testimony regarding 
Senate Bill 1860.
    To better understand AwwaRF's response to the Chairman's questions, 
it is essential to first be aware of the important and unique 
capabilities of AwwaRF, which would ensure that the energy-water 
objectives of S. 1860 are achieved. AwwaRF's long-term success in the 
direct application and commercialization of promising technologies by 
water utilities in a timely manner is particularly relevant.
    AwwaRF has a 40-year history of conducting research for the water 
supply community. AwwaRF has worked in partnership with all 
stakeholders associated with drinking water, including water utilities, 
consultants, academic researchers, manufacturers, national 
laboratories, industry associations, and regulatory agencies. To 
achieve the objectives of this bill, all of these stakeholders must be 
involved. Because of the good working relationships AwwaRF has already 
forged with each of these stakeholder groups, it is at the center of a 
wide stakeholder network.
    AwwaRF has communication mechanisms in place to reach decision 
makers throughout the water supply community. We also work 
cooperatively with trade and professional societies that help establish 
the best practices and standards for the industry. AwwaRF is considered 
a reliable source of credible scientific information by water 
utilities, consultants, state regulatory agencies, EPA, and 
international groups.
    Through AwwaRF research, emerging technologies such as ozone, 
membranes, and ultraviolet treatment were proven to be reliable and 
affordable drinking water treatment processes. These technologies are 
now widely accepted by utilities. AwwaRF not only supported the 
groundbreaking research on these technologies, but also performed the 
necessary research to prove efficacy and reliability so that water 
utilities, regulators, consultants, and equipment manufacturers had the 
confidence to implement them. AwwaRF's comprehensive research addressed 
not only the technical aspects of these technologies, but also how they 
work with existing processes, potential secondary impacts (waste 
products, etc.), and other implementation barriers that are apparent 
only by being intimately aware of the needs of the user community. The 
rapid commercialization and deployment of membranes and ultraviolet 
treatment processes was a direct result of AwwaRF's comprehensive 
research and the unique relationship that AwwaRF has with the various 
stakeholders and organizations.
    AwwaRF's experience has determined that successful deployment and 
commercialization of new technologies require three components: 1) 
developing a viable, tested technology, 2) gaining acceptance by 
stakeholders (users, consultants, and regulatory agencies), and 3) 
rewards or other incentives for trying an innovative technology. 
Deploying a new technology vs. using a ``tried and true'' proven 
technology entails substantial risk. Therefore, all three components 
are necessary to minimizing the risk. Working with a trusted 
organization that has strong ties to the user community is essential. 
AwwaRF's 40-year history of conducting scientifically credible research 
in partnership with key stakeholders is essential for success of this 
program.
    While it is important to identify and fund research on promising 
treatment technologies, it is equally important to address real-world 
issues of implementation and operations so that developed technologies 
will indeed operate as envisioned for end users. Such real-world 
research validates the actual performance of technologies, their energy 
requirements, operation and maintenance issues, and any unforeseen 
problems. The ability to understand the user community's needs in all 
aspects of the research--from concept identification through 
commercialization--is required.
    AwwaRF has established a much-emulated model for managing and 
administering research projects. Stakeholders are involved from the 
planning phase through to project completion. AwwaRF has a proven peer 
review process that obtains stakeholder input throughout a project's 
course. This allows for any corrections or adjustments to be made 
during the course of the research, not after the research is complete. 
AwwaRF has deployed an innovative approach for obtaining in-kind 
contributions to research projects that ensures end-user involvement 
while increasing the resources available to conduct the research.
    AwwaRF would bring the critical component of active stakeholder 
involvement to S. 1860 by identifying the needs of the user community, 
funding and managing research that addresses the ``real-world'' issues 
of the water supply community, and communicating the results of the 
research findings to the water supply community and other key 
stakeholders. AwwaRF would ensure a robust synergy between the national 
laboratories and the end users of new energy-efficient, environmentally 
sound technologies.

             RESPONSES TO THE QUESTIONS ARE PROVIDED BELOW
    Question 1. How will your experience partnering with water 
suppliers be brought to bear in carrying out S. 1860?
    Answer. AwwaRF has a long history of working with stakeholders in 
addressing barriers that can prevent or delay new technologies from 
reaching the market place. AwwaRF would provide a trusted link with the 
research and water supply community. In addition, AwwaRF can attract 
national experts and organizations that can bring expertise to bear 
because of first-hand experience working with them.
    An important factor in the successful application of new 
technologies is the confidence of water suppliers that a new technology 
will solve their specific problems. An example is cost-effective 
compliance with meeting the new Maximum Contaminant Level for arsenic. 
Confidence in a new technology is based on case studies that 
demonstrate how the technology performs under the various stages of 
real-world conditions: treating the actual source water, monitoring the 
process, assessing the level of operation and maintenance needed to 
ensure the technology is working, ``de-bugging'' equipment, determining 
maximum and sustainable water production to meet water quality goals 
and community needs, waste products and projected disposal cost, the 
pilot and full-scale evaluations necessary to generate data needed, 
etc. AwwaRF understands the need to develop this real-world knowledge 
so that utilities, consultants, regulators, and manufactures will 
accept new technologies. For the past two decades, AwwaRF has involved 
these stakeholders in demonstration/field studies.
    AwwaRF's proven expertise in partnering with the water supply 
community on new technologies is a vital element in ensuring the 
success of S. 1860.
    Question 2. Based on your experience, does this bill go far enough 
to encourage relationships with water suppliers?
    Answer. AwwaRF does not believe that S. 1860, as introduced, 
guarantees that the drinking water community's critical involvement 
will occur in the desired manner. Without the early inclusion of the 
major drinking water stakeholders, there is little chance that 
technologies identified by the national laboratories will rapidly move 
from the concept stage to commercialization. The national laboratories 
acknowledge that they currently have limited experience working with 
the water supply community and have approached AwwaRF in the past to 
help them forge that link.
    AwwaRF's multi-staged research program has resulted in 
commercialization, wide-spread use, and world-wide acceptance of 
technologies as evidenced by the rapid deployment of membrane and 
ultraviolet technologies by the water supply community. For both these 
technologies, AwwaRF developed a long-term research strategy with key 
stakeholders to identify essential research before these technologies 
could be implemented by water suppliers. Using ultraviolet (UV) 
treatment as an example, the AwwaRF research strategy included: 1) 
proof that UV was effective in killing protozoans (Cryptosporidium, 
Giardia), 2) evaluation of UV lamps that were best suited for 
disinfection, 3) evaluation of on-line UV sensors to ensure the 
prescribed UV dose needed to achieve disinfection, 4) assessment of UV 
reactor design, 5) operation and maintenance of UV systems, and 6) 
development of a guidance manual to assist in the decision on use of UV 
to meet utility water quality requirements and compliance with EPA. In 
all stages of the research, the stakeholders (researchers, public 
health agencies, water utilities, regulators, manufactures, and other 
research organizations) were involved to help ensure that UV treatment 
for drinking water would become a reality.
    To best ensure that the objectives of S. 1860 are realized, AwwaRF 
should be specifically identified as an integral partner in the 
research effort with the national laboratories.
    Question 3. Do you believe that a provision requiring outreach 
should be contained in S. 1860 or can this be accomplished by the 
advisory panel?
    Answer. S. 1860 should include a provision requiring outreach in 
all aspects of program development. As described above, effective 
outreach is necessary for new technology to gain acceptance.
    In this area, AwwaRF can greatly assist in meeting the objectives 
of S. 1860. AwwaRF has a long track history of communicating with water 
utility decision makers and other stakeholders and working in 
partnership with industry trade and professional associations. AwwaRF 
has proven mechanisms in place to obtain stakeholder feedback and has 
developed outreach projects based on this feedback.
    Question 4. S. 1806 is intended to result in the development of 
economically viable products that are ultimately adopted by the water 
community. S. 1860 has a significant focus on technology transfer and 
commercialization of technologies.
    Do you feel that S. 1860 goes far enough in this respect?
    Answer. AwwaRF believes that additional attention should be given 
to the issue of technology transfer and commercialization. As currently 
introduced, S. 1860 describes the technology roadmap but not a 
commercialization roadmap. The terms for commercialization are not 
clear. Will the private sector or the national laboratories be 
responsible?
    The commercialization of economically viable products or 
technologies is determined by a number of variables: 1) sufficient 
pilot-and full-scale utility-based experience that a technology is 
proven to justify commercialization, 2) a sufficient potential long-
term market (i.e., public water suppliers) that could and would 
purchase a new treatment technology, 3) the technology is affordable 
and can be used with confidence by the expected user community, and 4) 
there are no unreasonable regulatory or other barriers in states where 
this technology would be best suited. AwwaRF understands these 
variables can significantly impact commercialization of technologies. 
The publication of reports or holding workshops on promising 
technologies is not adequate for the private sector to consider the 
commercialization of a new technology. S. 1860 should earmark 
appropriate resources to develop sufficient real-world knowledge on 
promising technologies so that the private sector can adequately 
determine economic feasibility.
    Question 5. Based on your partnerships with communities, how would 
you bridge the gap between research and commercialization of 
technologies?
    Answer. AwwaRF has been intimately involved in bridging the gap 
between research and the implementation of research findings by the 
water supply community. In 1994, AwwaRF launched an innovative research 
applications program to ensure that research on promising technologies 
will lead to adoption and commercialization of these technologies. 
AwwaRF has also established the trust of key stakeholders in providing 
credible, scientifically defensive, and practical research findings.
    Other keys to closing the research/commercialization gap are as 
follows:

          1) Know the audience and make sure the research addresses 
        their needs. AwwaRF has analyzed the barriers to the 
        implementation of new technologies. AwwaRF also has in place 
        two-way communications mechanisms for gaining water community 
        input through all aspects of the research program, from idea 
        conceptualization to outreach.
          2) Involve stakeholders in all aspects of the research 
        program. It is critical to identify key stakeholders and then 
        involve them in all aspects of the research program.
          3). Use communication and outreach through multiple channels. 
        In today's internet age, it is essential to provide information 
        in user friendly formats. AwwaRF has developed ``user friendly 
        communications tools using with stakeholder feedback.
          4) Work with trade groups, professional societies, and 
        regulatory agencies to establish standards and industry ``best 
        practices'' that promote the use of innovative technologies.
          5) Work with different organizations through different phases 
        of development and implementation. For example, most pioneering 
        theoretical research is conducted in academia. Design and 
        operations research is often lead by consultants or water 
        utilities. AwwaRF's network of researchers covers all phases of 
        development.

    To restate, the drinking water stakeholders, including water 
suppliers, regulators, and consultants, need unequivocal proof and 
confidence that a new technology will perform as expected. For this 
reason, AwwaRF has historically funded pilot and full-scale projects on 
emerging technologies to provide stakeholders with the assurance they 
need to purchase, install, and operate new treatment technologies.
    Question 6. Do you believe that more money appropriated to S. 1860 
should be dedicated to competitive grants?
    Answer. Yes. The evolution from research to commercialization 
requires many different skill sets, and no single organization can have 
the expertise on hand to address all aspects of the development cycle. 
Competitive grants provide the opportunity to involve the best and 
brightest experts and organizations. Also, because one of the most 
expensive aspects of research is capital equipment, the competitive 
process can bring in organizations that already have pre-existing 
capital equipment, staff, and facilities to perform the research on 
energy-efficient technologies. Competitive grants can optimize multiple 
resources.
    AwwaRF has a much-emulated project management and competitive 
research program that complies with all government requirements. We 
have been contracting out research for over 25 years with major 
universities, consulting firms, and utilities.
    Given the need for end users to field-validate promising energy-
efficient technologies to better ensure future commercialization, 
AwwaRF believes that sufficient competitive grants are necessary. While 
the national laboratories, in concert with AwwaRF, can identify and 
manage projects on promising energy-efficient technologies, they may 
not have the long-term expertise that AwwaRF has in managing real-world 
demonstration projects that involve water supplies, consultants, state 
regulators, and manufacturers. AwwaRF has track record of bringing 
these stakeholders to develop, manage, and publish the results of both 
pilot and full-scale technology evaluations. AwwaRF recommends that S. 
1860 stipulate that appropriate funds--$4-5 million annually--be 
allocated for competitive grants for the purpose of evaluating 
promising technologies in the field.
    More may be necessary if the technical panel agrees it is needed to 
adequately evaluate promising technologies.
    Question 7. In what areas should the federal government focus it 
research?
    Answer. S. 1860 established an Energy-Water Efficiency and Supply 
Technical Advisory Panel to identify and recommend research priorities. 
AwwaRF believes that this panel would be best qualified to determine 
the research focus, with the following consideration.
    The language of S. 1860 is not clear as to whether the AwwaRF is to 
be specifically included on this panel. Given AwwaRF credentials as the 
world's largest drinking water research organization and the 
inclusiveness of the drinking water community (utilities, consultants, 
researchers, health agencies, manufactures, water supply professionals) 
in AwwaRF research programs, We believe that AwwaRF should be named as 
a standing organization on this advisory panel.
    Question 8. Do you believe that the scope of research authorized by 
S. 1860 is broad enough or should it include additional research areas?
    Answer. AwwaRF believes that the scope of research authorized by S. 
1860 should be broad given that the advisory panel, with appropriate 
representatives for the drinking water community, will provide the 
research focus and direction. The recent hearing, however, made it 
clear that S. 1860 should focus on new treatment technologies for ocean 
and brackish water desalination and also on energy technologies that 
will reduce the amount of power needed for treatment of these waters.
    Question 9. Do you believe that the peer review required by the 
bill is adequate?
    Answer. AwwaRF believes that the technical panel should be charged 
with ensuring that there is appropriate peer review of projects, 
whether conducted by the national laboratories or organizations 
receiving grants under this bill. The technical panel should have the 
authority to seek outside experts to provide peer review during project 
scope of work development, periodic review of project progress, and 
technical review of final reports. AwwaRF has had great success with 
building ongoing peer review processes that include both technical 
expertise and stakeholders. AwwaRF strongly recommends that 
stakeholders be included in the peer review process.
    Question 10. In your testimony, you mentioned legal and regulatory 
barriers to using new technologies in real-world applications. S. 1860 
directs an advisory panel to identify these barriers.
    Do you believe that this bill goes far enough in addressing this 
issue? What additional steps would you suggest?
    Answer. AwwaRF agrees that the panel should be charged with 
identifying promising technologies and addressing barriers to 
implementation. AwwaRF has investigated the barriers to new 
technologies and could bring this expertise to the technical panel.
    Since AwwaRF has been involved in the development of emerging water 
treatment technologies and is fully aware of the difficult and lengthy 
road to acceptance and commercialization of these technologies, AwwaRF 
understands the many barriers that need to be overcome. In general, 
barriers include: 1) cultural barriers--water suppliers and regulators 
are cautious about new technologies, 2) lack of rewards for 
innovation--there is little incentive for water suppliers, consultants, 
or regulators to champion new technologies, 3) disconnect between 
organizations involved in technology development--a justification why 
AwwaRF is an integral component to the success of S. 1860, 4) market 
barriers--minimum venture capital and low return on investment, 5) 
regulatory barrier--states independently approve new technologies for 
drinking water, and 6) information explosion--multiple new technologies 
to address different and sometimes conflicting drinking water 
regulations.
    It is recommended that S. 1860 consider approaches for eliminating 
some of these barriers, e.g., a national certification of new 
technologies that will enable states to more quickly approve these new 
technologies or possible economic incentives to the private sector for 
commercialization of new technologies where the potential market is 
unknown or uncertain.
    Question 11. There are many utilities or local governments serving 
low-income communities that are facing significant water supply 
challenges in the future.
    Does AwwaRF currently have a program in place to reach-out to these 
communities to help the water suppliers serving them take advantage of 
new and cost-effective technologies that are developed as a result of 
AwwaRF's research?
    Answer. AwwaRF's membership consists of approximately 900 water 
utilities that serve approximately 80% of the U.S. population. AwwaRF 
also works closely with other water industry associations such as the 
American Water Works Association (and its local sections), National 
Association of Water Companies, and Association of Metropolitan Water 
Agencies to widely disseminate the results from its research efforts.
    AwwaRF and its utility subscribers are keenly aware of the need to 
provide safe, affordable, and reliable drinking water to all citizens. 
The results of a large number of AwwaRF projects enable water utilities 
to improve water quality, optimize operations, and provide better 
customer service while maintaining affordable water rates. While AwwaRF 
does not have a research program specifically related to low-income 
communities, a report entitled Water Affordability Programs describes 
affordability/rates programs offered in the U.S. as well as case 
studies and criteria for establishing water rates.
    In addition, many AwwaRF projects provide direct benefits to small 
and rural communities. Examples include the suitability of affordable 
membrane and ultraviolet technologies to treat drinking water for small 
communities, regionalization strategies, and innovative water 
distribution rehabilitation techniques. AwwaRF also provides copies of 
reports to all state drinking water agencies so that all public water 
systems can benefit from AwwaRF research.
                                 ______
                                 
   Responses of the Oak Ridge National Laboratory to Questions From 
                            Senator Domenici
    Question 1a. Oak Ridge National Laboratory has been very successful 
in producing products that have great commercial value.
    Do you believe that you will have similar successes in the 
commercialization of products with the authority provided by S. 1860?
    Answer. If the proposed Water Technology Program is established, it 
will bring new programmatic direction from the U.S. Department of 
Energy (DOE) that will allow ORNL researchers to focus their efforts on 
important energy-water topics. Given the emphasis on technology 
transfer defined in the proposed Act, we would expect significant 
success in commercial end-products. ORNL is the nation's most 
successful multi-disciplinary science laboratory relative to partnering 
with industry to achieve commercialization of new technology and 
providing general technical assistance. Currently ORNL maintains 990 
separate industrial partnerships where industry provides direct 
support, industry support is leveraged with federal support, or ORNL 
and an industry compete successfully together for sponsor support for 
technology development work. ORNL is second only to General Electric in 
the number of R&D 100 awards it has won--this ``Oscar of Invention'' 
recognizes both technical innovation and future value to the 
marketplace. Commercialization of technology for public benefit is an 
integral part of the corporate philosophy of Battelle, one of the 
managing partners of ORNL. Our commitment to this philosophy will be 
important to the success of this new Program.
    Question 1b. Based on your experience, which would be the best 
office within DOE to foster the application of new technologies for use 
in real-world applications?
    Answer. There are several DOE Offices that need to be involved in 
the new Program, each of which has its own unique responsibilities and 
capabilities. The relevant offices include Science, Energy Efficiency 
and Renewable Energy, Fossil Energy, and Nuclear Energy. Because 
multiple offices are involved, coordination across several Assistant 
Secretaries will be essential to success. The current roadmapping 
exercise will better define the scope of the program and should be used 
to determine the appropriate lead DOE office for the program.
    Question 1c. Which of the missions contained in S. 1860 do you 
believe Oak Ridge National Laboratory is best qualified to undertake?
    Answer. We assume the missions are those listed under Section (b) 
Establishment. Although ORNL is well prepared for all of the missions, 
we are best qualified for: 1) R&D to promote the sustainable use of 
water for energy production activities, and 2) commercialization of 
newly developed energy-water efficiency and supply technologies. Our 
qualifications in the water-for-energy mission are based on our 
existing programs in Basic Energy Sciences for DOE's Office of Science 
and Energy Efficiency and Renewable Energy, as well as on related work 
for the Nuclear Regulatory Commission, the Federal Energy Regulatory 
Commission, and DOE's Fossil Energy and Nuclear Energy offices. ORNL is 
DOE's largest energy R&D laboratory, and our staff has excellent 
credentials in sustainable water research. ORNL is DOE's leading 
laboratory for energy efficiency R&D, which is interrelated to water-
use efficiency. For example, in support of DOE's Industrial 
Technologies Program, ORNL has developed Best Practices tools, 
training, and information resources for energy efficiencies in 
industrial pumping, steam, process heating, fan, and motor systems. 
This expertise, combined with other water management experience at the 
Laboratory, is directly applicable to technological improvements in 
water-use efficiencies in many parts of the energy sector. In addition, 
ORNL is one of DOE's leading laboratories for hydropower R&D, where we 
are completing a state-of-science review on water-use efficiencies. In 
three decades of work for DOE, FERC, and EPRI on hydropower and 
thermoelectric cooling issues, ORNL staff have developed a unique 
understanding of the multiple-use challenges of water resource 
management in the U.S.
    ORNL's qualifications for commercialization end-points stem from 
our strong commitment, experience, and performance in technology 
transfer, as well as our existing capabilities and experience in 
program evaluation, performance measurement for government programs, 
economic and policy analysis, and technology assessment. For example, 
ORNL has long and continuing experience in assessing economic, social, 
institutional, legal, and regulatory factors relating to the 
introduction and adoption of a variety of technologies. Much of that 
work has focused on energy-efficiency and supply technologies, 
primarily for DOE's Office of Energy Efficiency and Renewable Energy. 
Moreover, that work currently involves analysis of the limits to the 
penetration of a suite of energy-efficiency technologies that are, or 
are anticipated to be, in the market over the next 100 years. In 
addition, ORNL had developed and implemented models and metrics for 
ascertaining the benefits of varied DOE energy efficiency programs and 
initiatives. ORNL also has experience in a variety of natural resource 
assessment topics that includes analysis of fuels and renewable 
resources and tools to address related issues of public policy. Water 
policy studies that would impact commercialization activities would 
follow directly from this experience.
    Question 1d. What research capabilities does Oak Ridge National 
Laboratory have that are not available in the private sector?
    Answer. ORNL has research and development capabilities for 
inorganic membranes that exists nowhere else, advanced computational 
science capabilities for applications ranging from modeling 
nanostructures and microfluidics to regional forecasting of water and 
energy supplies and demands, multidisciplinary staff that can be 
directed to mission-critical activities that are long-term and high-
risk, and unique strengths in separations R&D, neutron science, 
nanomaterials design, manufacturing and testing facilities, and 
experience running large multidisciplinary programs.
    Compared to the private sector, ORNL offers a number of unique 
research facilities that would be very valuable in developing new water 
technology R&D. Our advanced user facilities are the most obvious of 
these, but not the only relevant ones. The official DOE-designated User 
Facilities applicable here include the Buildings Technology Center; the 
Center for Nanophase Materials Sciences; the Cooling, Heating and Power 
Integration Laboratory; the High Temperature Materials Laboratory; the 
Physical Properties Research Facility; the Power Electronics and 
Electrical Machinery Research Laboratory; the Shared Research Equipment 
Collaborative Research Center; the National Center for Computational 
Sciences and its subsidiary parts, such as the Computational Center for 
Industrial Innovation and the Material Research Institute; and the new 
Spallation Neutron Source. We also have other, non-designated 
facilities that are applicable to water technology research, such our 
Seaflow Process Simulator, where we are studying gas hydrate formation 
at depths up to 2000 m, processes which can used to separate salts from 
freshwater. Each of these facilities contains the latest analytical and 
testing equipment to support cutting edge research. ORNL's uniqueness 
goes well beyond our physical facilities to the multi-disciplinary 
staff that we have working on the most challenging problems. We have a 
solid track record for successfully managing large, interdisciplinary 
research programs, and we have scientists experienced in solving water 
resource problems. Because our staff is relatively free from market-or 
profit-driven pressures, we can provide long-term continuity needed for 
success in high-risk research missions. ORNL's most important asset is 
the combination of outstanding facilities and highly qualified research 
staff.
    Question 2a. S. 1860 emphasizes coordinating water resources 
research among federal agencies.
    How do you plan to coordinate your activities with water resources 
research being undertaken by other agencies and research undertaken by 
entities that receive grants under S. 1860?
    Answer. The specific means of coordination would depend on DOE 
direction and the organization of the new Program. However, we can 
speculate on several possible mechanisms, based on proven approaches 
from successful programs at ORNL. Different approaches would be needed 
for coordination among agencies, especially above the working level, 
and for coordination among other entities (e.g., academic institutions) 
and active researchers. In the case of agencies, an Interagency Working 
Group consisting of federal employees should be set up with DOE in the 
lead, to develop and implement something like a five-year coordination 
plan. The CENR Subcommittee on Water Availability and Quality (SWAQ) 
already appears to be headed in this direction on the broader topic of 
Grand Challenges in water information and research. Water technology 
development should be one of the SWAQ Grand Challenges.
    To coordinate among active researchers, including the other 
entities to be funded, we recommend following successful models that we 
have participated in or led. One example is the current Environmental 
Remediation Sciences Division (ERSD) Field Research Center, supported 
DOE's Office of Science at ORNL. The ERSD FRC conducts subsurface 
science studies in the field or in the laboratory with field-collected 
samples. The ERSD holds annual Principal Investigator workshops to 
bring laboratory and academic researchers together with agency 
personnel to discuss progress. We also form topical working groups that 
meet semiannually to coordinate specific research. Another good example 
of research coordination was the DOE Environmental Management's (EM) 
Science and Technology Program that studied critical R&D needs for 
clean up of DOE facilities and sites. The equivalent of ``roadmapping'' 
was accomplished with DOE, Labs, Industry, and university 
participation. Various ``lead labs'' were selected for topical areas 
(robotics, subsurface science, separations, characterization/
monitoring, etc.). Integrated demonstrations of new technologies were 
implemented with teams of several Labs and universities. The methods 
were tested and evaluated to determine the best practices. The safe and 
effective removal of radioactive tanks and residual contaminants at 
ORNL directly benefited from a robotic effort across several Labs, 
universities, and industries. Basic science on chemical separations at 
ORNL resulted in new methods implemented at the Savannah River Plant to 
process high-level waste in storage tanks for ultimate disposal.
    Question 2b. Please describe the nature of the memorandum of 
understanding you recently entered into with the Corps of Engineers. 
How has this agreement promoted ORNL's relationships with other 
agencies?
    Answer. The MOU is between ORNL and the two main Corps of Engineers 
laboratories: the Engineering Research and Design Center (ERDC) in 
Vicksburg, MS, and the Institute for Water Resources (IWR) at Fort 
Belvoir, VA. The MOU covers mutual interests in water resources, energy 
security, and environmental sustainability. It was signed on September 
12, 2005, in Oak Ridge,. The first step in its implementation is to 
develop a white paper that will describe research opportunities in 
analysis, assessment, prediction and decision support, basic science, 
and technology innovation, all relevant to the energy-water nexus. A 
joint business plan will be completed over the next several months. We 
expect that ORNL will add scientific value to the engineering and 
environmental services that ERDC and IWR now provide and that ORNL's 
role in successful joint projects will be evident to other agencies 
associated with Corps activities. ORNL has already earned a strong 
reputation for science-based problem-solving with the Corps and other 
agencies, including NRC, FERC, EPA, and environmental NGO's. We hope to 
bring this positive reputation to bear on future joint projects with 
the Corps.
    Question 3. In your testimony, you state that technology that would 
be developed as a result of S. 1860 would ``have many important 
benefits beyond providing for water and energy needs.''
    What broader application would these technologies have?
    Answer. Providing for the water and energy needs of citizens and 
industry is a critical part of national economic security and Homeland 
Security, including disaster response/recovery. One example of how new 
technology could help improve national security comes from the recent 
hurricane disasters on the Gulf Coast, where water and power were lost 
in large areas. Portable, low-power water treatment packages that could 
include new separations methods and new filtering materials from this 
Program would improve the response to these types of disasters by 
restoring critical services to disaster victims. On the international 
front, new cost-effective solutions for clean water are likely to come 
from this program, for example using inorganic membranes. New water 
sources in resource stressed regions of the developing world can 
improve public health, reduce political tensions, and ultimately help 
stabilize governments. New energy-water technology could also help 
Department of Defense facilities be more operationally secure and 
sustainable, both inside the U.S. and in other countries. These 
technologies would be applicable to military bases, reducing local 
competition over scare water resources, reducing the environmental 
footprint of bases, and ensuring dependable water resources.
    Question 4a. Oak Ridge National Laboratory would contribute a 
different regional perspective than the other lead laboratories.
    How would you bring your past and present partnerships to bear in 
solving regional water problems?
    Answer. ORNL has well-established working relations with key 
organizations in the Eastern U.S. that will be critical in developing 
new water technologies. For example, in September of this year, ORNL 
signed a Memorandum of Understanding with the U.S. Army Corps of 
Engineers' Laboratories for cooperative work on energy, water, and 
environmental sustainability. An integral part of UT-Battelle's 
management structure for ORNL is a set of Core Universities that 
include Duke University, Florida State University, Georgia Tech, North 
Carolina State, Vanderbilt, the University of Virginia, and Virginia 
Tech, as well as the University of Tennessee and Oak Ridge Associated 
Universities. This established university network will be an important 
mechanism to bring the skills of academic institutions to bear on water 
problems. We have already begun to identify key researchers at these 
institutions and to involve them in the EWN Roadmapping to stimulate 
their interest in water technology.
    ORNL has collaborative water-related research activities with many 
other entities, such as TVA, EPRI, USGS, NOAA, DOD and its Office of 
Naval Research, FERC, and others. ORNL also has a proven track record 
of cooperation with other DOE laboratories, as well as with the 
university-based Water Resources Research Centers in Tennessee, 
Georgia, and elsewhere in the southeast. We would take advantage of 
these relations in implementing any new water technology program.
    Question 4b. What do you offer that the other laboratories do not?
    Answer. Some of the answers to this question were provided in our 
response to Questions 1(c) and 1(d) above. ORNL is DOE's largest Office 
of Science Laboratory and one of the two leading Energy Efficiency and 
Renewable Energy labs (along with NREL). ORNL has a unique combination 
of expertise in materials science and separations science that is well 
aligned with the R&D needs for energy-water technology. ORNL is among 
the world's largest materials science laboratories, and our inorganic 
membrane technology does not exist anywhere else. Separations science 
has long been an ORNL leadership area, and our separations technology 
is being deployed on an industrial scale. With our private-sector 
partners, we recently completed a strategic planning report on 
``Materials Research for Separations Technologies: Energy and Emission 
Reduction Opportunities'' that is very relevant to new water technology 
development. ORNL also has considerable expertise and experience in 
``closing the loop'' between technology deployment and its effective 
use within social and institutional settings. We have been developing 
decision support tools, providing continuing decision support training 
and information, and meshing science and technology with users' needs 
for many water-related projects, including work for the Army National 
Guard, Department of Education, Department of Homeland Security, 
Department of Energy, and the multi-agency Strategic Environmental 
Research and Development Program. We are unique in having the full 
range of water-relevant capabilities together with strong regional and 
national partnerships to advance the Water Technology Program.
   Responses of the Oak Ridge National Laboratory to Questions From 
                            Senator Bingaman
    Question 1a. Obviously with the existence of a National Laboratory 
Energy-Water Nexus team, the Labs have been looking at these water and 
related energy issues for some time.
    Given that, how long will it take to develop the technology roadmap 
called for in the bill, which is intended to establish the framework 
for investing the resources provided to the program?
    Answer. Work has already started on an Energy-Water Technology 
Roadmap, coordinated by Sandia National Lab, by an independent 
Executive Committee with representatives from industry, academia, and 
other agencies (see: www.sandia.gov/energy-water/). The roadmapping 
process will produce an initial roadmap by the end of September 2006. 
We expect that this roadmap will define technical directions for new 
R&D relevant to at least the ``water for energy'' part of the Energy-
Water Nexus. Vetting of these recommendations is expected by DOE 
offices and perhaps the National Academies. A technology roadmap 
suitable for guiding R&D investments of a new Water Technology Program 
should be achievable by mid-2007. That plan should be re-examined 
annually.
    Question 1b. Is anything currently underway in this area? If so, 
does it include representatives from government, the academic 
community, and industry?
    Answer. As stated above, roadmapping is underway. Representatives 
from other state and federal government agencies, academia, and 
industry have strong roles on the Executive Committee that will provide 
guidance and oversight to the roadmapping process and as participants 
in the regional Needs Assessment and Technology Innovation workshops 
that are part of the process. The federal agency representatives on the 
Executive Committee were chosen to provide continuity and coordination 
with the multi-agency planning that is happening in parallel within the 
Council on Environmental and Natural Resources' Subcommittee on Water 
Availability and Quality. ORNL staff serve on the roadmapping Advisory 
Panel of DOE national laboratory representatives, to provide planning 
and review support on all aspects of the needs assessment and technical 
innovation workshops.
    Question 2. S. 1016 focuses on the need to provide federal 
assistance to address the high energy costs associated with 
desalination. At the same time, GE's testimony indicates that over the 
past 25 years, the cost of seawater desalination has dropped from $20/
1000 gallons to $4/1000 gallons.
    Based on the current state of research and development, is there a 
significant chance that we will be able to significantly reduce 
desalination energy costs further in the next decade?
    Answer. There are significant opportunities to reduce desalination 
energy costs. In addition to reduced dollar cost of desalination, the 
benefits of new water technology R&D will also include reduced carbon 
emissions and reduced energy use in the water treatment sector. ORNL 
staff recently participated in a Task Force on Joint Water Reuse and 
Desalination. The consensus of that meeting was consistent with the GE 
testimony: current best practices in desalination yield costs of $4-5/
1000 gallons. Near-term incremental improvements with currently 
available technology and no additional R&D investment will likely 
reduce costs further to about $2.5-3/1000 gallons. Challenging, but 
realistic, goals for future R&D are to reduce costs to $1/1000 gallons, 
to reduce energy use to 5 kwh/1000 gallons of water, and to reduce 
associated carbon emissions to 40% of current levels. It is noteworthy 
that brackish waters could become potable resources with even less 
energy input and lower cost, given new R&D investments. To achieve 
these ambitious goals, we need to apply substantial intellectual 
capital, including fundamental research and collaborative government-
industry demonstration and testing. Advances beyond current technology 
are needed in: 1) control of biofouling and scaling, 2) treatment of 
mixed-quality waters, 3) new membrane design and construction, 4) new 
techniques for membrane regeneration, 5) reduced energy consumption and 
O&M costs, and other areas. An integrated, long-term, coordinated R&D 
program such as the new Water Technology Act is needed to meet these 
challenging goals.
                                 ______
                                 
    Responses of Edmund Archuleta to Questions From Senator Domenici
    Question 1a. The two bills we are considering today take two 
different approaches to meeting water supply challenges. It is my 
understanding that the City of El Paso recently began construction of a 
desalination facility which is expected to cost $87 million.
    Do you believe the federal government should focus its investment 
on subsidies or water technology research and development?
    Answer. The El Paso Water Utilities (EPWU) believes that federal 
investment in desalination should be in research and technology 
development because that is the most beneficial way to bring down the 
cost of ocean and inland desalination. It will also provide benefits to 
other communities by allowing such stakeholders to rely on effective 
research results.
    Question 1b. Assuming that S. 1016 is passed before the El Paso 
facility begins producing desalinated water, how much help would S. 
1016 provide?
    Answer. Obviously, any subsidies would help, but because the energy 
costs of inland desalination are lower than ocean desalination, I do 
not believe that S. 1016 would have a substantial impact on the EPWU/
Fort Bliss operation. The estimated capital plus operating costs of 
approximately $500 per acre-foot ($1.53/1000 gallons) is affordable to 
the consumer. Also, subsidies would send the wrong energy use signal.
    Question 2a. S. 1860 provides that 40 percent of the funding made 
available for the bill would be for competitive research and 
demonstration grants while 30 percent of the funding would be made 
available for national laboratory research.
    Do you believe that this allocation of money is correct?
    Answer. Although there is substantial and unique expertise in the 
national laboratories, there is also a significant amount of existing 
and focused experience and expertise that can be utilized in non-profit 
water research foundations (e.g., the WateReuse Foundation and the Awwa 
Research Foundation), universities, and in local water/wastewater 
agencies. The WateReuse Association thus suggests that the allocation 
for competitive research and demonstration grants be increased 
slightly, perhaps to as much as 50%.
    Question 2b. What technologies are the most promising to accomplish 
the objectives of S. 1860?
    Answer. The Joint Water Reuse & Desalination Task Force (JWR&DTF), 
comprised of Sandia National Laboratories, the U.S. Bureau of 
Reclamation, the WateReuse Foundation, and the Awwa Research 
Foundation, recently convened three technical workshops on desalination 
technologies. The workshops focused on both membrane technologies 
(e.g., reverse osmosis) and alternative technologies (i.e., next 
generation technologies.
    According to numerous experts from both the public and private 
sectors, membrane technologies will continue to be the most efficient, 
effective, and affordable technologies for many years. Many 
improvements can be made in the current generation of membranes to 
improve efficiency. The Task Force agreed, however, that work should 
begin now on identifying next generation ``alternative technologies.'' 
Dr. Tom Mayer of Sandia prepared an excellent state-of-the-science 
paper on alternative technologies for use at the workshops. The Task 
Force would be pleased to make a copy of this report available to the 
Committee.
    Question 2c. What has been your experience in your past 
partnerships with the national laboratories?
    Answer. EPWU, along with CHIWAWA partners (New Mexico State, Texas 
A&M, UTEP and the City of Alomogordo) are currently developing three 
research programs related to inland concentrate disposal: deep hole 
injection, silica removal and salt tolerant plants. Initially, the 
CHIWAWA partners had hoped to gain some research funding through Sandia 
National Laboratories. Without an increase in Sandia's research account 
for this specific purpose, this will not happen in this initial phase 
of our collaboration.
    As the past chair of the Awwa Research Foundation, I (Ed Archuleta) 
have worked with Sandia National Laboratories on cost-effective methods 
for arsenic treatment. This has been a great and positive partnership.
    The WateReuse Foundation has partnered with Sandia National 
Laboratories as members of the Joint Water Reuse & Desalination Task 
Force (JWR&DTF) for about the past two years. The working relationship 
with the scientists and engineers at Sandia has been extremely 
positive. Members of the Foundation Board and staff also worked with 
Sandia on the development of the Desalination and Water Purification 
Technologies Roadmap. The working relationship with Sandia was 
excellent; they listened to input and suggestions and reacted 
positively.
    Recently, Wade Miller, Executive Director of the WateReuse 
Foundation, was invited to serve on the Executive Committee of the 
Water-Energy Roadmap being developed by Sandia. The Foundation is 
pleased to be a part of this important effort to develop a roadmap that 
will define and characterize the energy-water nexus.
    Question 2d. What research capabilities do the national 
laboratories have that are not available elsewhere?
    Answer. Perhaps the greatest asset of the national laboratories is 
the collection of top scientists in fields ranging from geochemistry, 
physics, engineering, microbiology and other physical and biological 
sciences. These scientists possess in-depth expertise in basic and 
applied research and the breadth and depth of their collective 
capabilities is virtually unparalleled in the U.S. Examples of the 
``cutting edge'' technologies in which the national laboratories have 
good expertise include nanotechnology and the computational chemistry 
needed for making designer materials. In aggregate, the national 
laboratories are an extremely valuable asset to the nation, both in 
terms of human capital and their ability to solve complex scientific 
and engineering problems.
    Question 3. You state in your testimony that you have partnered 
with local entities to help them meet their water supplies. This 
relationship is very important to the success of S. 1860.
    How would you recommend ensuring that the research undertaken 
pursuant to S. 1860 address real-world problems?
    Answer. In the El Paso region, both El Paso and Alamogordo are 
building large desalination plants (El Paso's is under construction and 
Alamogordo's is under design), the biggest area that we want to cut 
costs and find a better approach is in concentrate disposal. Finding 
better, cheaper, perhaps more useful methods, will not only conserve 
water, but also save energy and better protect our environment.
    With the Tularosa Desalination Research Facility under construction 
and with El Paso's TecH20 Center under design, we are the perfect model 
to advance the science of concentrate management in an inland area. 
Technical advances in this area would be of great value to cities in 
this country and around the world.
    With the technical capabilities of national labs and universities, 
plus the practical needs of cities, we believe our consortium (CHIWAWA) 
is a good model to begin this work where the need is the greatest and 
the talent/human resources are there.
    From the WateReuse Association and Foundation's perspective, S. 
1860 should be modified to develop a mechanism to ensure that 
technologies are transferred to the entities that will utilize them, 
namely water agencies, wastewater agencies, and water management 
districts. Involving these organizational entities in the research and 
technology demonstrations envisioned in S. 1860 will help to promote 
``ownership'' and acceptance by water/wastewater agencies. An emphasis 
should be placed on public-private partnerships; involving large 
stakeholders such as GE and Dow who have substantial expertise in 
membranes and membrane technology systems will ensure that whatever is 
developed will truly be ``cutting edge'' and applicable in local water/
wastewater systems.
    Question 4a. Constructing desalination plants is out of reach for 
many communities. The capital outlays required are too expensive for 
many small communities.
    What are the major costs associated with in-land desalination?
    Answer. The two major costs associated with inland desalination are 
concentrate disposal and energy. Capital costs account for 
approximately 50% while operating costs account for the remaining 50% 
of total costs. In southern California, total costs of a brackish 
groundwater desalting facility range from $650 to $800 per acre-foot 
(approximately $1.99-2.45/1000 gallons).
    Question 4b. What breakthroughs in desalination technology would be 
required to allow more communities to adopt the technology?
    Answer. Desalination is currently more expensive than other 
available sources of water. In terms of actual costs to produce and 
deliver, it may amount to as much as $1/1000 gallons. One of the 
initiatives of the Joint Water Reuse & Desalination Task Force 
(JWR&DTF) is to develop and implement a long-term integrated 
desalination research program that will ultimately result in 
substantially lower costs for desalination. At the recent workshops in 
San Diego, various desalination experts postulated that ``step 
function'' decreases in the costs of desalination are possible. 
Estimates of what can be achieved in cost reduction through research 
ranged from 20% to as much as 50% decreases. The working hypothesis of 
most water experts is that a significant decrease in desalination costs 
would result in more widespread use by communities.
    With respect to impediments related to the advancement of 
desalination and reuse, one avenue of research involves the federal 
definition of concentrates otherwise known as brine residue produced 
through membrane dependent processes. These by-products must be 
disposed of in an environmentally protective manner. However, federal 
regulations have classified these waste products as industrial wastes. 
This regulatory designation requires disposal options that are more 
commonly applied to hazardous waste management and disposal. The 
disposal options under this scenario represent some of the most costly 
technologies to contain the disposed of wastes. The issue for 
desalination and reuse water production is that a project sponsor must 
design and manage a disposal facility where the costs of disposal far 
exceed the environmental threats posed by the disposed waste or 
concentrate. This situation raises the cost of producing alternative 
water supplies because the costs of disposal must be imputed into the 
produced water price. We recommend that any final legislation should 
provide for an explicit statement that among the top priorities for 
research and technology demonstrations (and subsequent 
commercialization assistance) are efforts to develop processes and 
technologies that would either minimize or neutralize the production of 
concentrates. This kind of priority would hopefully lead to reduced 
concentrate production. This advancement would then reduce the costs of 
disposal and result in a reduction in the cost of alternative water 
supplies. It should also be noted that such advances in this area would 
enhance efforts to reduce arsenic removal costs because of the 
production of salts in this activity.
    Responses of Edmund Archuleta to Questions From Senator Bingaman
    Question 1. Both the WateReuse and AwwaRF testimony seem to 
indicate that the bill could do better job of integrating the private 
sector or water user community into the RD&D program? S. 1860 tries to 
do this through representation on the Advisory Panel, as well as 
eligibility for the competitive grant program.
    Are there additional areas where you think that changes need to be 
made to address your respective concerns?
    Answer. As noted in a response to a similar question by Senator 
Domenici, WateReuse would recommend the involvement of water agencies, 
wastewater agencies, and water management districts in the conduct of 
the actual research and technology demonstrations. The WateReuse 
Foundation, in its research program with the U.S. Bureau of 
Reclamation, requires a 25% cost-share by the successful research team. 
This requirement ensures participation by local water agencies since 
consulting engineering firms and universities have difficulty in 
providing this large a match. The cost-sharing requirement has the 
benefit of promoting collaboration between and among water agencies, 
the university community, consulting engineers, and even private 
manufacturers.
    WateReuse very strongly supports the concept of public-private 
partnerships. In both of the coalitions in which our Foundation 
participates (JWR&DTF and the Global Water Research Coalition), we 
involve manufacturers such as GE and Dow Chemical to assure the public 
sector entities that the research being advocated is indeed ``cutting 
edge'' and will have a practical application. On the global front, 
Veolia Water and Suez Environment (both of France) are active 
participants and contributors to our Global Water Research Coalition.
    Question 2a. Your testimony refers to a new desalination facility 
in Tampa, FL that produces water at an estimated cost of $2.54/1000 
gallons, and compares that to the wholesale cost of water in California 
which is $1.50/1000 gallons. If the average household uses somewhere in 
the neighborhood of 12,000 gallons per month, it appears that 
desalination adds only about $12/month to the average household bill.
    Is this correct (i.e. comparing apples to apples)? If it is 
correct, the desalination rate appears to be fairly reasonable given 
the long-term security of the supply--do you agree?
    Answer. The comparison of $2.54/1000 gallons for desalinated Tampa 
Bay Water to the Metropolitan Water District's (MWD) wholesale price of 
$1.50/1000 gallons is really not a very good apples-to-apples 
comparison since one is a wholesale price and the other is a cost of 
production. What we were trying to illustrate in the testimony is that 
desalination costs would have to decrease by approximately $1.00/1000 
gallons in order to be competitive with MWD wholesale water.
    The average household generally consists of an average of 2.8 
people and each person uses 125 per day. Thus, the 12,000 gallons per 
month per household number cited above is accurate. While $12/month 
seems palatable when one considers that 16 ounces of bottled water 
costs about $1.50, neither water utilities nor local politicians have 
done a good job of convincing the public of the value of water. In 
fact, water utilities deliver safe water of a very high quality on a 
24/7 basis and the consuming public takes this valuable service for 
granted. In pricing water, economists often talk about the economic 
concepts of ``ability to pay'' and ``willingness to pay.'' Consumers 
obviously have the ability to pay more for water, but do not have the 
willingness until and unless the water industry is able to demonstrate 
the value.
    Question 2b. What type of monthly increase do you anticipate will 
have to be borne by the local ratepayers in El Paso as a result of the 
desalination facility you are bringing online?
    Answer. El Paso Water Utilities increased water rates in 2004 to 
pay the anticipated debt service on the bonds plus expected operating 
costs. The average residential water bill increased by $4.01 from 
$20.57 to $24.58, or 19.5%.
                                 ______
                                 
      Responses of Jim Reynolds to Questions From Senator Domenici
    Question 1a. As communities run out of readily accessible fresh 
water, in many instances, desalination is the only option. S. 1016 
would make payments to qualified entities for energy consumption 
associated with desalinating water.
    Would the Authority be able to afford the construction and 
operation and maintenance costs of a desalination facility without the 
subsidy that S. 1016 would provide?
    Answer. The rate payers living in the Florida Keys will ultimately 
be forced to shoulder the cost of desalinated water without the help of 
the federal government, due to the fact that the islands have no other 
means of providing water to meet their growing demands.
    Question 1b. Would construction assistance be of greater assistance 
than an operational subsidy?
    Answer. While we are not opposed to construction assistance grants 
from the federal government, we acknowledge the risk the taxpayers take 
when providing up-front costs for infrastructure improvement projects. 
S. 1016 provides assistance to facilities that have assumed the burden 
of such costs, as well as met all permitting guidelines and are 
actually producing water for public consumption.
    Question 1c. If the Authority were to construct a facility in 
reliance on the subsidy provided by S. 1016 and funds were not 
available, would the authority be able to afford the operation and 
maintenance of the facility?
    Answer. Again, the unfortunate truth is that the citizens of the 
Florida Keys will be forced to shoulder the cost of desalinated water 
whether we like to our not. As a utility, we have no other alternative 
due to the need to balance fresh water supplies in the fragile south 
Florida ecosystem with our demands, and the geological location and 
make up of the Florida Keys. That is, the islands of the Keys are 
remains of a once vibrant coral reef. Because of its extremely porous 
nature, the islands themselves are unable to retain fresh water.
    Question 1d. What are the main costs of desalination?
    Answer. The main difference in producing desalinated water opposed 
to drawing from fresh water sources is the high cost of electricity 
involved in the reverse osmosis process used to remove the saline and 
other minerals from the water. These costs can run as high as 40% of 
the overall cost of producing the water.
    Question 1e. What breakthroughs in desalination technology would be 
required to allow more communities to adopt desalination technology?
    Answer. The research and development of more efficient membranes 
and energy recovery systems have advanced the technology and lowered 
the cost significantly over the last twenty years. The ability to 
partner with corporations such as GE in the development, design and 
construction of working plants today, will go a long way in advancing 
the technology and lowering the cost of producing desalinated water in 
the future.
    Question 2a. S. 1860 provide grants for projects demonstrating new 
technologies in real-world applications.
    Would the development of cheaper desalination benefit the 
Authority? If so, how?
    Answer. As I mentioned before, the Authority is limited by the 
amount of fresh water that is available for public consumption and 
because of our need to adopt alternative water supplies to meet our 
growing needs, advances in membrane technology and energy recovery 
would provide the most cost effective returns to the overall cost of 
producing desalinated water.
    Question 2b. How would the Authority benefit from the grants 
provided in S. 1860?
    Answer. We do not believe that the Authority would be eligible to 
receive the grants provided in S. 1860. The Authority is not an entity 
``with expertise in conduct of energy-water efficiency and supply 
technology research, development, and demonstration projects.''
    Question 2c. What has been the greatest difficulty in operating the 
Authority's two desalination plants?
    Answer. The greatest difficulty in operating the plant is the cost 
of maintenance and our ability to hire skilled tradesmen such as 
mechanics and electricians to keep the plants operational in such a 
corrosive environment.
    Question 3a. In your testimony, you state that an operational 
subsidy is favorable to a construction subsidy. This is different than 
traditional federal support.
    Why is an operational subsidy preferable in providing Federal 
assistance for desalination?
    Answer. While the availability of energy assistance grants will 
encourage the development of desalination projects, these grants will 
be performance based. In other words, the Federal government will bear 
none of the risk of project permitting and construction as it does 
under the construction grant approach. Only those projects that are 
technically, environmentally and economically sound, and have actually 
been constructed will be eligible to apply for the grants.
      Responses of Jim Reynolds to Questions From Senator Bingaman
    Question 1a. Is it your view that valuable desalination projects 
will not be able to go forward in the near future if federal assistance 
is not provided to help pay for Project operating costs?
    Answer. We believe the grants in S. 1016 will provide communities 
with the much needed financial assistance to compensate for the 
exorbitant costs currently associated with producing desalinated water, 
and in turn provide minimal rate increases to consumers while further 
research and development is taking place.
    Question 1b. How was the $0.62/14 kilowatt-hour payment figure 
derived?
    Answer. It takes approximately 14 kilowatt hours of electricity to 
desalinate 1000 gallons of seawater. We would recommend that the 
legislation be amended to correspond with H.R. 1071 to make the formula 
$0.62 per 1000 gallons. This would translate to $200 per acre-foot.
    Question 1c. What happens after 10 years? Will the desalination 
plants developed pursuant to S. 1016 be able to operate without 
significant cost increases to local water users at the end of the 
incentive payment period?
    Answer. The technological advances over the next decade in 
conjunction with the invaluable opportunities that lie with studying 
and refining actual production aspects of multiple working facilities 
throughout the U.S. will ultimately lower the cost of producing 
desalinated water.
                                 ______
                                 
                              Department of Energy,
               Congressional and Intergovernmental Affairs,
                                 Washington, DC, February 16, 2005.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: On October 20, 2005, Douglas L. Faulkner, Acting 
Assistant Secretary, Energy Efficiency and Renewable Energy, testified 
regarding S. 1016, to direct the Secretary of Energy to make incentive 
payments to the owners or operators of qualified desalination 
facilities to partially offset the cost of electrical energy required 
to operate the facilities, and for other purposes; and S. 1860, to 
amend the Energy Policy Act of 2005 to improve energy production and 
reduce energy demand through improved use of reclaimed waters, and for 
other purposes.
    Enclosed are the answers to 26 questions that were submitted by you 
and Senator Bingaman to complete the hearing record.
    If we can be of further assistance, please have your staff contact 
our Congressional Hearing Coordinator, Lillian Owen, at (202) 586-2031.
            Sincerely,
                                             Jill L. Sigal,
                                               Assistant Secretary.
[Enclosure.]
                    Questions From Senator Domenici
    Question 1. You state in your testimony that S. 1860 places the 
National Laboratories in the ``inappropriate roles for assessing 
Federal funding and activities across agencies.
    Why are these roles ``inappropriate'' in your view?
    Answer. The National Laboratories are engaged most effectively as 
centers of research excellence, integrating cross-cutting technologies, 
and coordinating with universities and industry. It is the 
responsibility of senior Administration officials to provide broader 
oversight and to assess Federal funding and research across agencies. 
With the exception of the National Energy Technology Lab, national lab 
directors and staff are contractors, not Federal officials.
    Question 2. You state in your testimony that S. 1860 places the 
National Laboratories in the ``inappropriate roles for assessing 
Federal funding and activities across agencies.
    Do you not believe that the technical and research expertise 
contained in our National Laboratories should be brought to bear in 
assessing the research being performed in other Federal Agencies?
    Answer. Although we recognize the breadth of the expertise offered 
by our National Laboratories, it would nonetheless be inappropriate to 
place the assessment of research at Federal Agencies under their 
purview. Cross-Agency assessments are most effectively conducted under 
the purview of such organizations as the OSTP and OMB. It is the 
responsibility of senior Administration officials to provide broader 
oversight and to assess Federal funding and research across agencies. 
With the exception of the National Energy Technology Lab, national lab 
directors and staff are contractors, not Federal officials.
    Question 3. You state in your testimony that the Secretary of 
Energy should have sole discretion in determining funding levels, roles 
and responsibilities for the laboratories, universities and private 
sector.
    How can we ensure that the private sector would receive any role or 
funding under the arrangement you suggest?
    Answer. We would collaborate with industry, universities, and 
laboratories in a manner that would give us the best opportunity to 
achieve program goals. Utilizing competitive solicitations, we are best 
able to identify those partners that are most able to make valuable 
contributions. Cost-shared research and development partnerships with 
the private sector are an essential part of this effort. By partnering 
with the private sector, there is a greater chance that water 
technologies--sufficiently developed in the research effort--will be 
carried on to commercialization in the market. We have long 
successfully pursued this strategy across a broad spectrum of 
industries, carrying out the requirements of the Energy Policy Act of 
1992, and we have used it for new national efforts such as the 
President's Hydrogen Fuel Initiative.
    Question 4. Much of the DOE water resources research has been done 
within the Office of Science, which focuses on basic research. It is my 
belief that we need to promote more applied research.
    What other offices within the DOE should be brought to bear in 
carrying out S. 1860?
    Answer. The Secretary would make that determination should funds be 
appropriated to carry out S. 1860.
    Question 5. Much of the DOE water resources research has been done 
within the Office of Science, which focuses on basic research. It is my 
belief that we need to promote more applied research.
    Do you believe that the Secretary should be given discretion to 
determine which office within DOE should administer S. 1860 or should 
this be legislated?
    Answer. The Secretary should be given the discretion.
    Question 6. Much of the DOE water resources research has been done 
within the Office of Science, which focuses on basic research. It is my 
belief that we need to promote more applied research.
    How would you ensure that the research carried out under S. 1860 
would meet a practical need?
    Answer. The Department has a track record in developing 
technologies that are effectively commercialized and meet practical 
needs. The most important elements of achieving this are to involve the 
key stakeholders in developing the technology roadmap for the R&D to be 
undertaken; and establish partnerships between the national labs, 
universities, and industry through open competition to develop the 
technologies. Full participation by the private sector is particularly 
important to enable effective commercialization.
    Question 7. Many offices within the Department have talents and 
missions that could contribute to the success of S. 1860, including the 
commercialization of technologies developed under the authority 
provided by S. 1860.
    Do you think that S. 1860 goes far enough in promoting the 
commercialization of technologies?
    Answer. S. 1860 should allow greater flexibility and provide 
authority to the Secretary to conduct competitive solicitations with 
the private sector to develop technologies that can be commercialized.
    Question 8. Many offices within the Department have talents and 
missions that could contribute to the success of S. 1860, including the 
commercialization of technologies developed under the authority 
provided by S. 1860.
    How would you attract industry in order to encourage the 
commercialization of technologies developed under the authority 
provided by S. 1860?
    Answer. We would attract industry by well-developed competitive 
solicitations based on needs and market opportunities identified by the 
broad community of stakeholders.
    Question 9. Many offices within the Department have talents and 
missions that could contribute to the success of S. 1860, including the 
commercialization of technologies developed under the authority 
provided by S. 1860.
    Do you believe that the laboratories should select a industry 
partner in addition to a university partner?
    Answer. The appropriate industry partner will depend on the 
particular technology being developed, and even on the particular 
component in many cases. The best way to select the most capable 
performer in such cases is through competitive solicitations. If a 
laboratory determines that it needs an industry partner to put forward 
the best possible proposal, the lab should be given the flexibility to 
do so.
    Question 10. Many offices within the Department have talents and 
missions that could contribute to the success of S. 1860, including the 
commercialization of technologies developed under the authority 
provided by S. 1860.
    Do you believe that EERE's successful partnerships with industry 
and academia could be applied to promote the commercialization of 
technologies that would be produced under the authority provided by S. 
1860?
    Answer. EERE has developed a track record in developing successful 
partnerships with industry and academia that is now widely recognized. 
Similarly, FE, NE, and OE have demonstrated capabilities in forging 
such successful partnerships. Because of the many different 
technologies involved and the many industries that would be involved, 
coordination of this work at the Secretarial level will be necessary.
    Question 11. Many offices within the Department have talents and 
missions that could contribute to the success of S. 1860, including the 
commercialization of technologies developed under the authority 
provided by S. 1860.
    What activities is EERE currently undertaking that would fall under 
the authority of S. 1860?
    Answer. EERE has modest activities on using water more efficiently 
in industry and in Federal and commercial buildings, and in using 
renewable energy to desalinate or otherwise clean up and supply water.
    Question 12. Many offices within the Department have talents and 
missions that could contribute to the success of S. 1860, including the 
commercialization of technologies developed under the authority 
provided by S. 1860.
    What other offices with the Department of Energy, if any, should be 
added to carry out S. 1860?
    Answer. The Secretary should be provided broad authority to ensure 
appropriate coordination of this work across DOE offices as 
appropriate.
    Question 13. A 2004 report by the National Research Council stated 
that the federal government will have to coordinate water resource 
research in order to meet our water problems. There are activities 
underway within the DOE and national laboratories that would fall under 
the authority provided by S. 1960, including an energy-water roadmap 
begun last month.
    How will the Department coordinate the authority provided under 
Section 979 of the Energy Policy Act of 2005 and the authority provided 
by S. 1860?
    Answer. The Department effectively coordinates work across multiple 
offices on a routine basis. For example, the work of the Hydrogen 
Program is coordinated across EERE, FE, NE, SC, and the Department of 
Transportation. The coordination of work under Section 979 of EPACT 
2005 and under S. 1860 should not pose any problems that the Department 
does not regularly address, but to do this effectively requires that 
the Secretary have the necessary flexibility to allocate resources 
where they will be most productive.
    Question 14. A 2004 report by the National Research Council stated 
that the federal government will have to coordinate water resource 
research in order to meet our water problems. There are activities 
underway within the DOE and national laboratories that would fall under 
the authority provided by S. 1960, including an energy-water roadmap 
begun last month.
    How will the energy-water roadmap that is currently being drafted 
be coordinated with the roadmap called for by S. 1860?
    Answer. DOE regularly develops a wide range of technology roadmaps 
across its various Offices and Programs. This frequently requires that 
new roadmaps build on, update, supplement, or fill gaps in existing 
roadmaps. This is done quite effectively by simply ensuring that the 
key managers are involved in the process and that all participants are 
aware of the work that has already been done so that unnecessary 
duplication is avoided.
    Question 15. A 2004 report by the National Research Council stated 
that the federal government will have to coordinate water resource 
research in order to meet our water problems. There are activities 
underway within the DOE and national laboratories that would fall under 
the authority provided by S. 1960, including an energy-water roadmap 
begun last month.
    How do you believe inter-agency coordination can best be achieved?
    Answer. The Administration began an extensive process of inter-
agency coordination last year, forming a Subcommittee on Water 
Availability and Quality under the National Science and Technology 
Council Committee on Environment and Natural Resources. About 20 
Federal Departments and Agencies are involved in this effort. A first 
report was put out in November 2004 and a second is in draft.
    Question 16. A 2004 report by the National Research Council stated 
that the federal government will have to coordinate water resource 
research in order to meet our water problems. There are activities 
underway within the DOE and national laboratories that would fall under 
the authority provided by S. 1960, including an energy-water roadmap 
begun last month.
    Do you believe that the inter-agency coordination required by S. 
1860 will help achieve federal coordination of water resources 
research?
    Answer. The Administration has already established an extensive 
program of coordination for its water-related research that is quite 
effective. Directing the appropriate agencies to collaborate through 
legislation like S. 1860 may be helpful.
    Question 17. S. 1860 establishes an advisory panel consisting of 
industry, academia, non-governmental organizations and federal agencies 
to advise the Secretary on activities carried out under S. 1860.
    How do you plan to solicit the opinions and recommendations of the 
advisory panel?
    Answer. The Department has established many Federal Advisory 
Committee Act panels consisting of experts and representatives of 
industry, academia, non-governmental organizations, agencies, and 
others. Such panels are commonly formed by identifying the leading 
experts in the relevant field and the broad range of stakeholder 
interests and organizations. Regular meetings are held with the key 
managers overseeing relevant RD&D, following the terms and process of 
the Federal Advisory Committee Act.
    Question 18. S. 1860 establishes an advisory panel consisting of 
industry, academia, non-governmental organizations and federal agencies 
to advise the Secretary on activities carried out under S. 1860.
    Do you believe that the National Academy of Sciences and advisory 
panel peer review is adequate or should the bill require peer review 
from additional organizations as well?
    Answer. Yes, the authorized reviews would be adequate.
    Question 19. S. 1016 names Lawrence Livermore, Oak Ridge, and 
Sandia National laboratories as the lead laboratories to carry out the 
program established by the bill.
    Do you believe that we should leave open the possibility of adding 
additional lead laboratories?
    Answer. The contributions by any particular lab should be based on 
the merit of their particular capabilities. The Secretary should have 
the flexibility and authority to make this determination.
    Question 20. S. 1016 names Lawrence Livermore, Oak Ridge, and 
Sandia National Laboratories as the lead laboratories to carry out the 
program established by the bill.
    Do you believe that these laboratories are capable of undertaking 
the activities called for by S. 1860?
    Answer. By themselves, these three labs do not have sufficient 
expertise to undertake the full range of activities identified in S. 
1860 at the present. Other labs may have important capabilities to 
offer. More importantly, universities and the private sector also have 
very important capabilities and should be substantially involved
    Question 21. S. 1016 creates a subsidy program within the DOE for 
energy consumption associated with desalinating water.
    Do you believe that this bill would advance water resources 
technology research?
    Answer. S. 1016 would subsidize energy consumption for desalinating 
water and thus would reduce the private sector incentive and possibly 
reduce the public sector resources to conduct the R&D needed for 
improving desalination technologies.
    Question 22. S. 1016 creates a subsidy program within the DOE for 
energy consumption associated with desalinating water.
    Do you believe that this bill promotes energy efficiency in the 
desalination of water?
    Answer. S. 1016 would subsidize energy consumption for desalinating 
water and thus would reduce the private sector incentive to improve the 
energy efficiency of desalination.
                    Questions From Senator Bingaman
    Question 1. Your testimony is not clear on the fundamental question 
of whether the Administration supports the creation of a comprehensive 
research, development, and demonstration (RD&D) program related to 
energy and water efficiency.
    Notwithstanding your concerns with the current language of S. 1860, 
is the concept one that the Administration can support? If so, will DOE 
staff be available to help re-draft certain aspects of the bill to 
address some of your concerns?
    Answer. The Department recognizes that research, development, and 
demonstration of energy-water-related technologies may be important. As 
with any bill, the Department would be pleased to provide input on S. 
1860 if requested.
    Question 2. One of the concerns you expressed is that the bill 
leaves the private sector out of the RD&D and commercialization aspects 
of the program. As I read it, the water utility and products industry 
is integrated into the program through representation on the Advisory 
Group and eligibility for competitive grants. I also believe that 
Section 988 of the recently-enacted Energy Policy Act applies as to 
cost-share requirements, thereby ensuring that industry is a partner in 
this program.
    What is the basis for the concern expressed in the testimony and 
what further suggestions do you have to better integrate the private 
sector into the program? Do you agree that Section 988 of the Energy 
Policy Act of 2005 would apply to the competitive grant program created 
by S. 1860?
    Answer. The Department is concerned that the allocation of funds 
within S. 1860 is too restrictive. The Secretary should have the 
flexibility to allocate these funds as appropriate for the particular 
technology and research area, and to do so through competitive 
solicitations, grants, or other financial instruments.
    Yes, section 988 of the new EPAct would seem to apply.
    Question 3. You mentioned that the White House Office of Science 
and Technology was working on a comprehensive research plan to support 
fresh water availability in the United States.
    When is that plan due out?
    S. 1860 is intended to develop a comprehensive research plan for 
water technology RD&D. Don't you think that the bill will help further 
the goals of the White House Office of Science & Technology?
    Answer. A definitive time has not been set, but a draft should be 
available in mid-2006. Work on water-related issues is a focus of the 
White House Office of Science and Technology Policy (OSTP) purview. 
OSTP staff and the co-chairs and several other members of the NSTC 
Subcommittee on Water Availability and Quality have also been invited, 
and have joined the Executive Steering Committee for the current water-
for-energy technology roadmap work being conducted by Sandia National 
Laboratory.
    Question 4. The November 2004 report by the Office of Science & 
Technology indicates that we need ``improved tools to predict the 
future of our water resources to enable us to better plan for the more 
efficient operation of our water infrastructure.'' Obviously global 
climate change has the potential to result in significant change to 
historical precipitation patterns, and thus water supply.
    Do you know if aggressive research into the implications of climate 
change on water supply will be integrated into the comprehensive 
research plan you mentioned?
    Answer. The implications of climate change on water supply is an 
important issue that is being considered as part of the research plan 
being developed by the Office of Science and Technology Policy/National 
Science and Technology Council Subcommittee on Water Availability and 
Quality.

                                    

      
</pre></body></html>
